<html>
<title> - DHS'S PROGRESS IN SECURING ELECTION SYSTEMS AND OTHER CRITICAL INFRASTRUCTURE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
    DHS'S PROGRESS IN SECURING ELECTION SYSTEMS AND OTHER CRITICAL 
                             INFRASTRUCTURE

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2018

                               __________

                           Serial No. 115-70

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
       
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
33-942 PDF               WASHINGTON : 2018                                  
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
Debbie Lesko, Arizona

                   Brendan P. Shields, Staff Director
                   Steven S. Giaier, General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................    37
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................    38

                               Witnesses

Mr. Christopher C. Krebs, Under Secretary, National Protection 
  and Programs Directorate, U.S. Department of Homeland Security:
  Oral Statement.................................................    42
  Prepared Statement.............................................    43
Ms. Nellie M. Gorbea, Secretary of State, State of Rhode Island:
  Oral Statement.................................................    49
  Prepared Statement.............................................    51

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Letters........................................................     5
  Press Releases.................................................    23
  Documents......................................................    33

                                Appendix

Questions From Honorable John Katko for Christopher C. Krebs.....    89
Questions From Honorable John Ratcliffe for Christopher C. Krebs.    90
Questions From Honorable James R. Langevin for Christopher C. 
  Krebs..........................................................    90


    DHS'S PROGRESS IN SECURING ELECTION SYSTEMS AND OTHER CRITICAL 
                             INFRASTRUCTURE

                              ----------                              


                        Wednesday, July 11, 2018

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:31 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Michael T. McCaul 
(Chairman of the committee) presiding.
    Present: Representatives McCaul, King, Rogers, Barletta, 
Perry, Katko, Hurd, McSally, Fitzpatrick, Estes, Bacon, Lesko, 
Thompson, Jackson Lee, Langevin, Keating, Payne, Vela, Watson 
Coleman, Rice, Correa, Demings, and Barragan.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to examine the work that the 
Department of Homeland Security is doing to assist State and 
local officials to secure election infrastructure, including 
voting machines, vote tallying systems, and voter databases.
    In addition to election security, we will also examine 
DHS's role working across all 16 critical infrastructures, 
because a cyber threat to elections may pose a similar threat 
to other critical infrastructure sectors.
    I now recognize myself for an opening statement.
    Our democratic system and critical infrastructures are 
under attack. In 2016, Russia meddled in our Presidential 
election through a series of cyber attacks and information 
warfare. Their goals were to undermine the credibility of the 
outcome and sow discord and chaos among the American people.
    This was a provocative attack against our country; we must 
not allow it to happen again. I have stated repeatedly and long 
before the last election that foreign interference in our 
democracy cannot be tolerated. I strongly believe we will be 
targeted again this November in the midterm elections, and we 
need to be prepared.
    That is why we included $380 million in grants to the 
Election Assistance Commission and $26 million to the 
Department of Homeland Security for election infrastructure in 
fiscal year 2018. These funds will enhance election technology 
and bolster cyber readiness.
    However, malicious use of the internet and the exploitation 
of social media are not just aimed at our election systems. In 
March, the FBI and DHS reported that Russian hackers attacked 
American nuclear power plants. Crippling or shutting down major 
parts of our energy sector would be catastrophic.
    Russia has already done this to our allies. In 2015, a 
cyber attack turned off electricity for hundreds of thousands 
of Ukrainians. Last year, I stood on the front lines of 
Russia's cyber war in Ukraine and saw the effects first-hand.
    Nation-state hacking is real and it is dangerous. 
Unfortunately, Russia is not the only villain. Between 2011 and 
2013, Iranian hackers attacked dozens of U.S. banks and tried 
to shut down a dam in New York. In 2014, Chinese hackers stole 
22 million security clearances from OPM, including my own. 
These attacks and others are part of a greater onslaught being 
waged against the United States.
    As a result, I have made strengthening our cybersecurity a 
top priority of this committee. In the past year we have passed 
legislation to create the Cyber Security and Infrastructure 
Security Agency to elevate and operationalize the cybersecurity 
mission at DHS; authorize cyber incident response teams to 
assist local and State officials in identifying cyber risks and 
restoring essential services; and reauthorize DHS to ensure it 
offers services to local and State election officials upon 
request.
    We are proud of these accomplishments, but we can always do 
more. So today's hearing gives us a chance to offer new ideas 
and promote new solutions to help protect our elections and 
other critical infrastructures.
    I would like to thank the witnesses for being here today. 
We are grateful for your service to the country and expertise 
and look forward to working with each of you.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             July 11, 2018
    Our democratic system and critical infrastructure are under attack.
    In 2016, Russia meddled in our Presidential election through a 
series of cyber attacks and information warfare. Their goals were to 
undermine the credibility of the outcome and sow discord among the 
American people.
    This was a provocative attack against our country and we must not 
allow it to happen again.
    I have stated repeatedly, and long before the last election, that 
foreign interference in our democracy cannot be tolerated.
    I strongly believe we'll be targeted again this November. We need 
to be prepared.
    That is why we included $380 million in grants to the Election 
Assistance Commission and $26 million to DHS for election 
infrastructure in the fiscal year 2018 omnibus. These funds will 
enhance election technology and bolster cyber readiness.
    However, malicious use of the internet and the exploitation of 
social media are not just aimed at our election systems.
    In March, the FBI and DHS reported that Russian hackers attacked 
American nuclear power plants. Crippling or shutting down major parts 
of our energy sector would be a catastrophe.
    Russia has already done this to our allies.
    In 2015, a cyber attack turned off electricity for hundreds of 
thousands of Ukrainians.
    Last year, I stood on the front lines of Russia's cyber war in 
Ukraine and saw the effects first-hand.
    Nation-state hacking is real and dangerous. Unfortunately, Russia 
is not the only villain.
    Between 2011 and 2013, Iranian hackers attacked dozens of U.S. 
banks and tried to shut down a dam in New York.
    In 2014 Chinese hackers stole 22 million security clearances from 
OPM, including my own.
    These attacks, and others, are part of a greater onslaught being 
waged against the United States.
    As a result, I have made strengthening our cybersecurity a top 
priority of this committee.
    In the past year we have passed legislation to:
  <bullet> Create the Cybersecurity and Infrastructure Security Agency 
        (CISA)--to elevate and operationalize the cybersecurity mission 
        at DHS,
  <bullet> Authorize Cyber Incident Response Teams--to assist local and 
        State officials in identifying cyber risks and restoring 
        essential services,
  <bullet> Reauthorize DHS--to ensure DHS offers services to local and 
        State election officials when requested (Richmond amendment).
    We are proud of these accomplishments but we can always do more.
    Today's hearing gives us a chance to offer new ideas and promote 
solutions to help protect our elections and other critical 
infrastructure.
    I'd like to thank the witnesses for joining us today. This 
committee is very grateful for your service and expertise and we look 
forward to working with each of you.

    Chairman McCaul. With that, the Chairman now recognizes the 
Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman. I want to 
thank you for holding today's hearing on election security.
    I, too, would like to congratulate and thank Under 
Secretary Krebs for being here today. Good seeing you. I look 
forward to working with you to make sure DHS legislative 
authorities and responsibilities related to cybersecurity are 
well understood, and to ensure that the Department has the 
resources it needs to carry out the mission effectively.
    Under Secretary, you have taken the job at a critical 
moment in our Nation. However, I am concerned you do not have 
the support you need from the White House.
    You are responsible for building private-sector confidence 
in DHS information-sharing programs like Automated Indicator 
Sharing after President Trump toyed with the idea of planting 
an absurd story to discredit its own--for its own political 
purposes.
    You are responsible for securing Federal networks at a time 
when the White House National security advisor has decided to 
eliminate the National Security Council's cybersecurity 
coordinator.
    You are responsible for helping secure critical 
infrastructure networks for a White House that would rather 
save jobs in China than heed the advice of intelligence 
community on supply chain vulnerabilities.
    And you are responsible for helping State and local 
governments secure election infrastructures following Russia's 
brazen election meddling efforts in 2016, which the President 
has been reluctant to call out and which Congressional 
Republicans, until recently, were content to ignore.
    As we sit here today, President Trump is in Europe 
complicating your mission. Instead of working with our European 
allies to confront Russia, a shared adversary whose attempts to 
undermine Western Democratic institutions are growing more and 
more bold, he is trolling them to curry favor with Russian 
President Vladimir Putin.
    President Trump has said he will address Russia's 2016 
election meddling in a meeting with Putin, but he has never 
demonstrated a credible ability to confront Putin in our 
intelligence community's findings. He has predicted his 
meetings with Putin may be the easiest, so I know and I have no 
reason to believe anything productive will come of it.
    This President's failure to take seriously the threat to 
our democracy is one of the main reasons that we must do 
effective and thorough oversight in this body.
    Although I am pleased that the Majority has finally 
scheduled today's hearing, I am disappointed that the Majority 
failed to invite a full range of stakeholders, including the 
Election Assistance Commission, or hold the hearing at a time 
when DHS's Federal partners were available to participate.
    It is important to note for the record that committee 
Democrats have been requesting official oversight activities on 
elections security since before the 2016 election.
    In March 2017, after months of inaction by the Republican 
majority, I introduced a resolution of inquiry seeking 
information from the Department on its activities relating to 
counter--countering Russian election interference in the 2016 
Presidential election, so we would understand how to protect 
our elections in the future. It was unceremoniously rejected 
along party lines.
    Committee Democrats have written to the Chairman no less 
than 5 times since August 2016 to request a hearing, briefing, 
or investigation on vulnerabilities to our election 
infrastructure. We have also reiterated these requests on 
numerous occasions on the record.
    Despite these repeated requests, this committee did not 
conduct a formal hearing or briefing on the topic until April 
2018, 15 months after the intelligence community released its 
report concluding that the Russian government had attempted to 
interfere in the 2016 elections and would attempt to do so 
again.
    When the Trump administration's 6 top intelligence 
officials testified before the Senate that Russia was targeting 
2018 elections, this committee, the committee that prides 
itself on acting in the wake of current issues, followed suit 
of the House Republican conference by shirking its 
responsibility to act on this urgent threat.
    Ranking Members of the Oversight and Government Reform 
Committee, the Foreign Affairs Committee, Judiciary Committee, 
the Permanent Select Committee on Intelligence, the House Armed 
Services, and the House Administration Committee have all urged 
the Chairs or Speaker Ryan to aggressively address this on-
going National threat. Our calls for action were ignored, 
responded to with a halfhearted acknowledgment of the threat 
and a vague promise for future action, or the offer to ask a 
Government witness about election security at a hearing on 
another topic.
    Because of--our request for thorough hearings and briefings 
were denied, some committee Democrats joined the Democrats on 
the Committee of House Administration to form the Congressional 
Task Force on Election Security. I openly asked Republicans to 
join us and submit their ideas, yet no Republican Member 
provided their input or attended the task force's public 
events.
    After studying the topics for 8 months, meeting with 
stakeholders and holding a series of forums and briefings, the 
task force produced a report and introduced legislation to 
implement the recommendations.
    Mr. Chairman, I have a stack of requests made by Democrats 
for action on election security, a copy of the report on 
legislation I referenced, and other election security oversight 
documents, and I ask that they be entered into record at this 
time.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
     Submitted For the Record by Ranking Member Bennie G. Thompson
           Letter From Honorable Engel, Conyers, and Thompson
                                     July 25, 2016.
The Honorable James B. Comey,
Director of the Federal Bureau of Investigation, FBI Headquarters, 935 
        Pennsylvania Avenue NW, Washington, DC 20535.
The Honorable Ashton B. Carter,
Secretary of Defense, U.S. Department of Defense, 1300 Defense 
        Pentagon, Washington, DC 20301.
The Honorable John F. Kerry,
Secretary of State, U.S. Department of State, 2201 C Street NW, 
        Washington, DC 20520.
The Honorable James R. Clapper,
Director of National Intelligence, Office of the Director of National 
        Intelligence, Washington, DC 20511.
    Dear Director Corney, Secretaries Kerry and Carter, and General 
Clapper: As senior Members of national security committees in Congress, 
we are deeply troubled by reports of a Russia-supported hacking of 
Democratic National Committee data, and we applaud the FBI's quick 
action launching an investigation. We request that the Administration 
brief Members of Congress on this situation as soon as possible in 
unclassified or classified settings as needed.
    We see two separate issues at play here, both of which deserve the 
focus of investigators and congressional overseers.
    First, the DNC hack was plainly cyber crime. More and more, 
America's adversaries are employing cyber theft and cyber terrorism as 
tactics to threaten our security. We need to understand fully the 
extent of the hack and work to determine who was responsible. We need 
to assess whose personal information was compromised by the attack and 
ensure those individuals have what they need to prevent any further 
damage. We need to determine what vulnerabilities allowed this attack 
to succeed, and provide information to the public about how to guard 
against future attacks of this nature.
    Second--and perhaps more important--the timing and content of the 
theft, targeting one of our two major political parties, makes clear 
that this cyber attack amounts to more than a public embarrassment or 
harmless mischief. If reports of Russia's involvement are confirmed, 
the only reasonable conclusion is that leaders in Russia are stealing 
and disseminating information in an effort to sway an election in the 
United States.
    This is an action right out of President Putin's playbook. In 
recent years, Russia has influenced elections, infiltrated political 
parties across Europe, and stoked divisive politics in the hope of 
fracturing Western unity. It doesn't stretch the imagination that Mr. 
Putin would now try his hand at manipulating the course of American 
democracy--leaking information through a syndicate that has repeated 
anti-Semitic insinuations, endangered lives, and threatened American 
security by recklessly releasing stolen information. That scenario 
should sound the alarm for people across this country.
    That's why we also ask that the FBI collaborate with the 
Departments of State and Defense and the Intelligence Community to 
obtain a complete picture of Russia's involvement and its leaders 
intentions. Nearly a half century ago, a break-in at the DNC 
headquarters eventually led to the end of a Presidency. For a foreign 
government to engage in the same sort of behavior cannot be tolerated. 
Russia doesn't get to put its thumb on the scale in our elections. In 
the days ahead, we need to send a clear message to Russia's leaders and 
all who mean us harm: we will not allow the Kremlin or any other 
foreign power to dictate the terms of political debate in this country.
    With the clock ticking down to our election, we ask for quick 
action on this matter. The American people deserve to go to the polls 
in November confident that Russian subterfuge has had no role in 
setting the agenda for our country's future.
            Sincerely,
                                            Eliot L. Engel,
                   Ranking Member, House Foreign Affairs Committee.
                                         John Conyers, Jr.,
                         Ranking Member, House Judiciary Committee.
                                        Bennie G. Thompson,
                 Ranking Member, House Homeland Security Committee.
                                 ______
                                 
     Letter From Honorable Cummmings, Conyers, Engel, and Thompson
                                   August 30, 2016.
The Honorable James Comey,
Director, Federal Bureau of Investigation, 935 Pennsylvania Avenue NW, 
        Washington, DC 20530.
    Dear Mr. Director: Based on multiple press reports, it appears that 
the Federal Bureau of Investigation (FBI) is investigating whether 
Russia executed cyber attacks against the Democratic National Committee 
(DNC) and the Democratic Congressional Campaign Committee (DCCC) that 
resulted in the illegal hacking of a wide range of emails and other 
documents.\1\
---------------------------------------------------------------------------
    \1\ See, e.g., FBI Investigating Whether Russians Hacked Democratic 
Party's Emails to Help Donald Trump, Los Angeles Times (July 25, 2016) 
(on-line at www.latimes.com/nation/la-na-pol-fbi-hack-dnc-russia-
20160725-snap-story.html). See also Growing Evidence Suggests Recent 
Hacks the Work of Russian-Backed Cyber Militias, Fox News (Aug. 20, 
2016) (on-line at www.foxnews.com/politics/2016/08/20/growing-evidence-
suggest-recent-hacks-work-russian-backed-cyber-militias.html).
---------------------------------------------------------------------------
    We are writing to request that the FBI assess whether connections 
between Trump campaign officials and Russian interests may have 
contributed to these attacks in order to interfere with the U.S. 
Presidential election.
    Serious questions have been raised about overt and covert actions 
by Trump campaign officials on behalf of Russian interests. It is 
critical for the American public to know whether those actions may have 
directly caused or indirectly motivated attacks against Democratic 
institutions and our fundamental election process.
    On July 22, 2016, just days before the Democratic convention, 
approximately 20,000 pages of illegally hacked documents were leaked by 
WikiLeaks in an apparent attempt to influence the U.S. Presidential 
election in favor of Donald Trump.\2\ According to one press report:
---------------------------------------------------------------------------
    \2\ WildLeaks Releases Thousands of Documents About Clinton and 
Internal Deliberations, Washington Post (July 22, 2016) (on-line at 
www.washingtonpost.com/news/post-politics/wp/2016/07/22/on-eve-of-
democratic-convention-wikileaks-releases-thousands-of-documents-about-
clinton-the-campaign-and-internal-deliberations/).

``The FBI suspects that Russian government hackers breached the 
networks of the Democratic National Committee and stole emails that 
were posted to the anti-secrecy site WikiLeaks on Friday. It's an 
operation that several U.S. officials now suspect was a deliberate 
attempt to influence the Presidential election in favor of Donald 
Trump, according to five individuals familiar with the investigation of 
the breach.''\3\
---------------------------------------------------------------------------
    \3\ FBI Suspects Russia Hacked DNC; US. Officials Say it Was to 
Elect Donald Trump, Daily Beast (July 25, 2016) (on-line at 
www.thedailybeast.com/articles/2016/07/25/fbi-suspects-russia-hacked-
dnc-u-s-officials-say-it-was-to-elect-donald-trump.html).

    Donald Trump has repeatedly praised Russian President Vladimir 
Putin, stating that ``he's doing a great job,''\4\ ``I'd get along very 
well with Vladimir Putin,''\5\ and ``It is always a great honor to be 
so nicely complimented by a man so highly respected.''\6\ Donald 
Trump's business interests in Russia have also been widely reported.\7\
---------------------------------------------------------------------------
    \4\ Larry King Live, CNN (Oct. 15, 2007) (on-line at www.cnn.com/
TRANSCRIPTS/0710/15/lkl.01.html).
    \5\ Donald Trump: ``I'd Get Along Very Well With Vladimir Putin,'' 
CBS News (July 30, 2015) (on-line at www.cbsnews.com/news/donald-trump-
id-get-along-very-well-with-vladimir-putin/).
    \6\ Trump Says ``Great Honor'' to Get Compliments from ``Highly 
Respected'' Putin, ABC News (Dec. 17, 2015) (on-line at http://
abcnews.go.com/Politics/trump-great-honor-compliments-highly-respected-
putin/story?id=35829618).
    \7\ Inside Donald Trump's Financial Ties to Russia and His Unusual 
Flattery of Vladimir Putin, Washington Post (June 17, 2016) (on-line at 
www.washingtonpost.com/politics/inside-trumps-financial-ties-to-russia-
and-his-unusual-flattery-of-vladimir-putin/2016/06/17/dbdcaac8-31a6-
11e6-8ff7-
7b6cl998b7a0_story.html?postshare=l821472042965377&tid=ss_mail).
---------------------------------------------------------------------------
    Donald Trump has proposed shocking policy positions that would 
greatly benefit Russia, including breaking from longstanding U.S. 
commitments to our NATO allies to combat Russian aggression \8\ and 
weakening sanctions and recognizing Russia's annexation of Crimea.\9\
---------------------------------------------------------------------------
    \8\ Trump Takes Heat from NATO Officials for Interview Comments, 
Fox News (July 21, 2016) (on-line at www.foxnews.com/politics/2016/07/
21/trump-takes-heat-from-nato-officials-for-interview-comments.html).
    \9\ This Week with George Stephanopoulos, ABC News (July 31, 2016) 
(on-line at http://abcnews.go.com/Politics/week-transcript-donald-
trump-vice-president-joe-biden/story?id- =41020870).
---------------------------------------------------------------------------
    Of direct concern, however, are Donald Trump's comments encouraging 
Russian hacking and his top aides' previously undisclosed connections 
to Russian officials and interests.
    On July 27, 2016--the third day of the Democratic convention--
Donald Trump urged Russia to hack Secretary Hillary Clinton's 
emails.\10\
---------------------------------------------------------------------------
    \10\ Trump Urges Russia to Hack Clinton's Email, Politico (July 27, 
2016) (on-line at www.politico.com/story/2016/07/trump-putin-no-
relationship-226282).
---------------------------------------------------------------------------
    Less than 2 weeks later, on August 8, 2016, Roger Stone, a Donald 
Trump confidante, revealed that he has communicated with WikiLeaks 
founder Julian Assange about the upcoming release of additional 
illegally hacked Democratic documents. Mr. Stone made these statements 
during a Republican campaign event while answering a question about a 
potential ``October surprise.''\11\
---------------------------------------------------------------------------
    \11\ Trump Ally Claims He ``Communicated With'' WikiLeaks Founder, 
Washington Examiner (Aug. 9, 2016) (on-line at 
www.washingtonexaminer.com/trump-ally-claims-he-communicated-with-
wikileaks-founder/article/2598931).

    It is unclear whether U.S. law enforcement authorities have 
interviewed Mr. Stone about his communications with Mr. Assange or 
about his knowledge of how WikiLeaks obtained the illegally hacked 
documents.
    In addition, on July 7, 2016, one of Donald Trump's foreign policy 
advisers, Carter Page, traveled to Moscow to give a speech that was 
harshly critical of the United States and its ``hypocritical focus on 
ideas such as democratization, inequality, corruption and regime 
change.''\12\ Mr. Page had touted his extensive dealings with Russian 
energy giant Gazprom, claiming that he had been an adviser ``on key 
transactions for Gazprom.''\13\ After Donald Trump named Mr. Page as 
his foreign policy adviser in March, Mr. Page explained that ``his 
business has suffered directly from the U.S. economic sanctions imposed 
after Russia's escalating involvement in the Ukraine.''\14\
---------------------------------------------------------------------------
    \12\ Trump's Russia Adviser Criticizes U.S. for ``Hypocritical 
Focus on Democratization,'' Washington Post (July 7, 2016) (on-line at 
www.washingtonpost.com/world/europe/trumps-russia-adviser-criticizes-
us-for-hypocritical-focus-on-democratization/2016/07/07/804a3d60-4380-
11e6-a76d-3550dba926ac_story.html).
    \13\ Biography of Carter Page, CFA, Global Energy Capital LLC 
(accessed Aug. 22, 2016) (on-line at www.globalenergycap.com/
management/).
    \14\ Trump's New Russia Adviser Has Deep Ties to Kremlin's Gazprom, 
Bloomberg (Mar. 30, 2016) (on-line at www.bloomberg.com/politics/
articles/2016-03-30/trump-russia-adviser-carter-page-interview).
---------------------------------------------------------------------------
    Mr. Page appears to enjoy high-level access to Russian officials 
that are currently under sanctions imposed by the United States 
Government. According to one press report:

``After the Obama administration added Rosneft Chainnan Igor Sechin to 
its sanctions list in 2014, limiting Sechin's ability to travel to the 
United States or do business with U.S. firms, Page praised the fmmer 
deputy prime minister, considered one of Putin's closest allies over 
the past 25 years. Sechin has done more to advance U.S.-Russian 
relations than any individual in or out of government from either side 
of the Atlantic over the past decade,' Page wrote.''\15\
---------------------------------------------------------------------------
    \15\ Trump Adviser's Public Comments, Ties to Moscow Stir Unease in 
Both Parties, Washington Post (Aug. 5, 2016) (on-line at 
www.washingtonpost.com/business/economy/trump-advisers-public-comments-
ties-to-moscow-stir-unease-in-both-parties/2016/08/05/2e8722fa-5815-
11e6-9aee-8075993d73 a2_story.html).

    It is unclear whether U.S. law enforcement authorities have 
interviewed Mr. Page about whether he met with Mr. Sechin or other 
individuals on the U.S. sanctions list during his trip to Moscow or on 
other occasions.
    Another top adviser to Donald Trump, Lt. Gen. Michael Flynn, 
traveled to Moscow in December 2015 and joined Vladimir Putin at the 
head table during a dinner honoring the Kremlin-backed media network 
RT. During the event, General Flynn gave a speech that was highly 
critical of the United States, stating, ``The United States can't sit 
there and say, `Russia, you're bad.' '' \16\ The following week, 
President Putin praised Donald Trump as ``an outstanding and talented 
personality.''\17\ General Flynn declined to answer media inquiries 
about whether he traveled to Moscow on Donald Trnmp's behalf.\18\
---------------------------------------------------------------------------
    \16\ Trump Embraces Ex-Top Obama Intel Official, Daily Beast (Mar. 
9, 2016) (on-line at www.thedailybeast.com/articles/2016/03/09/donald-
trump-embraces-top-obama-intel-official.- html).
    \17\ Putin Praises ``Bright and Talented'' Trump, CNN (Dec. 17, 
2015) (on-line at www.cnn.com/2015/12/17/politics/russia-putin-trump/).
    \18\ Trump Embraces Ex-Top Obama Intel Official, Daily Beast (Mar. 
9, 2016) (on-line at www.thedailybeast.com/articles/2016/03/09/donald-
trump-embraces-top-obama-intel-official.- html).
---------------------------------------------------------------------------
    Most recently, Donald Trump's campaign chairman, Paul Manafort, 
resigned after failing to disclose his role in assisting a pro-Russian 
party in Ukraine. Mr. Manafort reportedly had ``wooed investments from 
oligarchs linked to Putin and advised the now-toppled pro-Russian 
Ukrainian president Viktor Yanukovych.''\19\ According to one press 
account:
---------------------------------------------------------------------------
    \19\ Trump Adviser's Public Comments, Ties to Moscow Stir Unease in 
Both Parties, Washington Post (Aug. 5, 2016) (on-line at 
www.washingtonpost.com/business/economy/trump-advisers-public-comments-
ties-to-moscow-stir-unease-in-both-parties/2016/08/05/2e8722fa-5815-
11e6-9aee-8075993d73a2_story.html).

``Donald Trump's campaign chairman helped a pro-Russian governing party 
in Ukraine secretly route at least $2.2 million in payments to two 
prominent Washington lobbying firms in 2012, and did so in a way that 
effectively obscured the foreign political party's efforts to influence 
U.S. policy. . . .Under Federal law, U.S. lobbyists must declare 
publicly if they represent foreign leaders or their political parties 
and provide detailed reports about their actions to the Justice 
Department. A violation is a felony and can result in up to 5 years in 
prison and a fine of up to $250,000.''\20\
---------------------------------------------------------------------------
    \20\ Manafort Tied to Undisclosed Foreign Lobbying, Associated 
Press (Aug. 17, 2016) (on-line at http://bigstory.ap.org/article/
c01989a47ee5421593ba1b301ec07813/ap-sources-manafort-tied-undisclosed-
foreign-lobbying).

    Rick Gates, a top strategist in Donald Trump's campaign, reportedly 
worked with Mr. Manafort on this effort, ``helping steer the advocacy 
work done by a pro-Yanukovych nonprofit,'' including ``downplaying the 
necessity of a Congressional resolution meant to pressure the Ukrainian 
leader to release an imprisoned political rival.''\21\ Although Mr. 
Manafort has resigned from his position, it appears that Mr. Gates 
continues to be a top adviser to Mr. Trump.
---------------------------------------------------------------------------
    \21\ Id.
---------------------------------------------------------------------------
    It is unclear whether U.S. law enforcement authorities have 
interviewed Mr. Manafort or Mr. Page about their failure to disclose 
this information, but several prominent members of Mr. Trump's party 
have expressed grave concerns.
    For example, Republican Adam Kinzinger of Illinois called for an 
investigation into Donald Trump's ``chief adviser, what his association 
with the Russians are.'' More broadly, Rep. Kinzinger criticized ``this 
affection in the campaign for Russia and Vladimir Putin,'' and he 
questioned how and why a reference to Russian offensive weapons was 
mysteriously removed from the Republican Party's platform, noting that 
``it just happened.''\22\
---------------------------------------------------------------------------
    \22\ GOP Congressman Warns Trump: Russia Not an Ally, CNN (Aug. 6, 
2016) (on-line at www.cnn.com/videos/tv/2016/08/15/gop-congressman-rep-
adam-kinzinger-reacts-to-trumps-isis-plan-the-lead. cnn); Rep. 
Kinzinger Calls for Investigation Into Manafort-Russian Ties, Politico 
(Aug. 6, 2016) (on-line at www.politico.com/story/2016/08/gop-rep-
calls-for-investigation-into-manafort-russian-ties-227090). See also 
Donald Trump Campaign Chairman Paul Manafort Resigns, CNN (Aug. 20, 
2016) (on-line at www.cnn.com/2016/08/19/politics/donald-trump-
campaign-chairman-paul-manafort-resigns/index.html) (citing Rep. Sean 
Duffy of Wisconsin, stating, ``I want to know what money he got from a 
pro-Russian organization in the Ukraine.'').
---------------------------------------------------------------------------
    Similarly, Eliot Cohen, who served as a counselor at the State 
Department under the George W. Bush administration, warned: ``Foreign 
governments sometimes express preferences about who should be elected; 
that's already problematic. But to do something in the nature of dirty 
tricks would be a very, very serious problem.''\23\
---------------------------------------------------------------------------
    \23\ Trump Invites Russia to Meddle in the US Presidential Race 
with Clinton's Emails, Washington Post (July 27, 2016) (on-line at 
www.washingtonpost.com/politics/trump-invites-russia-to-meddle-in-the-
us-Presidential-race-with-clintons-emails/2016/07/27/a85d799e-5414-
11e6-b7de-dfe509430c39_story.html?tid=a_inl).
---------------------------------------------------------------------------
    Finally, House Speaker Paul Ryan's spokesman stated: ``Russia is a 
global menace led by a devious thug. Putin should stay out of this 
election.''\24\
---------------------------------------------------------------------------
    \24\ Speaker Paul Ryan Calls on ``Global Menace'' Russia to ``Stay 
Out of This Election;'' The Call Came After Donald Trump Encouraged 
Russian Hackers to Target Hillary Clinton, CNN (July 27, 2016) (on-line 
at http://time.com/4426783/paul-ryan-republicans-donald-trump-russia/).
---------------------------------------------------------------------------
    We do not know if Donald Trump's public statements or the 
connections of his campaign officials to Russian interests directly or 
indirectly led to the cyber attacks against Democratic party 
organizations, but there is wide-spread agreement that the United 
States should take all steps possible to prevent Russia from 
interfering in our electoral process and prosecute to the full extent 
of the law anyone involved in such a scheme.
    Thank you for your consideration of this request.
            Sincerely,
                                        Elijah E. Cummings,
      Ranking Member, Committee on Oversight and Government Reform.
                                         John Conyers, Jr.,
                        Ranking Member, Committee on the Judiciary.
                                           Elliot L. Engel,
                      Ranking Member, Committee on Foreign Affairs.
                                        Bennie G. Thompson,
                    Ranking Member, Committee on Homeland Security.
                                 ______
                                 
                   Letter From Honorable Jackson Lee
                                   August 31, 2016.
The Honorable Michael McCaul,
Chairman, Committee on Homeland Security Washington, DC 20515.
The Honorable Bennie Thompson,
Ranking Member, Committee on Homeland Security Washington, DC 20515.
    Dear Chairman McCaul and Ranking Member Thompson: As a Senior 
Member of the House Committee on Homeland Security, I am writing to 
request that the committee convene a joint briefing with the Select 
Committee on Intelligence, Foreign Affairs, and House Administration to 
discuss specific threats to the U.S. election systems from outside 
influences. It has been reported that attempts have already been made 
to compromise the integrity of State-wide voter registration databases 
for Illinois and Arizona.
    On August 15, Homeland Security Secretary Jeh Johnson held a 
conference call with the National Association of Secretaries of State 
and election officials to discuss the election infrastructure 
cybersecurity. During that call Secretary Johnson offered Federal 
assistance to State officials in managing risks to voting systems in 
their jurisdiction.
    State-wide centralized voter registration systems are used by many 
States during elections to authenicated voters to determine who can 
cast a ballot. One of the threats to the election system would be a 
``denial of service'' attack that prevents local polling locations from 
accessing information on registered voters.
    For these reasons, I believe that it is important that a joint 
briefing with the Select Committee on Intelligence, Foreign Affairs, 
and House Administration be held at the earliest possible time.
    If you have questions regarding this request, please contact me 
through my Homeland Security Policy Advisor, Lillie Coney.
            Very Truly Yours,
                                        Sheila Jackson Lee,
                                                MEMBER OF CONGRESS.
                                 ______
                                 
                 Letter From Seven Members of Congress
                                  December 6, 2016.
President Barack Obama,
The White House, 1600 Pennsylvania Avenue NW, Washington, DC 20500.
    Dear Mr. President: We are deeply concerned by Russian efforts to 
undermine, interfere with, and even influence the outcome of our recent 
election. This Russian malfeasance is not confined to us, but extends 
to our allies, our alliances and to democratic institutions around the 
world.
    The integrity of democracy must never be in question, and we are 
gravely concerned that Russia may have succeeded in weakening 
Americans' trust in our electoral institutions through their cyber 
activity, which may also include sponsoring disclosures through 
WikiLeaks and other venues, and the production and distribution of fake 
news stories.
    Foreign interference presents a win-win for Russia--which we must 
counter. By eroding Americans' and foreigners' trust in U.S. 
institutions, Russia both weakens our country and sows global 
instability and uncertainty. Both present a boon for Russia and a loss 
for those working to maintain peace and prosperity around the world 
through the leadership of the United States and its allies.
    To evaluate Congress's response appropriately, we would like all 
Members to have a comprehensive understanding of what the U.S. 
intelligence community knows regarding Russia's involvement in these 
actions and attempts to interfere in our election. Specifically, we are 
requesting a classified briefing that will provide details regarding 
Russian entities' hacking of American political organizations; hacking 
and strategic release of emails from campaign officials; the WikiLeaks 
disclosures; fake news stories produced and distributed with the intent 
to mislead American voters; and any other Russian or Russian-related 
interference or involvement in our recent election.
    We thank you for your attention to this matter.
            Sincerely,
                                            Steny H. Hoyer,
                                                   Democratic Whip.
                                              John Conyers,
                            Ranking Member, Committee on Judiciary.
                                               Eliot Engel,
                      Ranking Member, Committee on Foreign Affairs.
                                        Bennie G. Thompson,
                    Ranking Member, Committee on Homeland Security.
                                           Elijah Cummings,
      Ranking Member, Committee on Oversight and Government Reform.
                                                Adam Smith,
                       Ranking Member, Committee on Armed Services.
                                               Adam Schiff,
        Ranking Member, Permanent Select Committee on Intelligence.
                                 ______
                                 
                   Letter From Honorable Jackson Lee
                                 December 13, 2016.
The Honorable Michael McCaul,
Chairman, Committee on Homeland Security, 176 Ford HOB, Washington, DC 
        20515.
The Honorable Bennie Thompson,
Ranking Member, Committee on Homeland Security, H2-117 Ford HOB, 
        Washington, DC 20515.
    Dear Chairman McCaul and Ranking Member Thompson: As a Member of 
the standing Committee on Homeland Security since its creation, I am 
writing to respectfully request that the committee conduct thorough and 
probing hearings regarding the activities of entities allied with the 
Government of Russia to influence the outcome of the 2016 presidential 
election in the United States when the 115th Congress convenes in 
January 2017.
    Given your strong commitment to the rule of law and constitutional 
governance, and your demonstrated record of working together 
constructively, I know you find it as deeply disturbing as I do that 
the Central Intelligence Agency has concluded, in a secret assessment, 
that Russia intervened in the 2016 election to help Donald Trump win 
the presidency, rather than just to undermine confidence in the U.S. 
electoral system.
    This is as grave an attack on American independence and sovereignty 
as Pearl Harbor and 9/11. It cannot be allowed to stand with impunity. 
The facts and actors involved in this plot must be uncovered and laid 
bare for the American people to see and understand.
    The Office of the Director of National Intelligence, which includes 
the Central Intelligence Agency, has cited a growing body of 
intelligence from multiple sources confirming that the politically 
motivated hacks of the 2016 election originated at the highest levels 
of the Kremlin and confirmed that the activity was intended to favor 
Presidential candidate Trump. This election malfeasance on the part of 
the Government of Russia appears to be part of wider strategy to 
disrupt and destabilize the political system and economies ofthe 
western democracies.
    The integrity of the democratic process must never be in question, 
and I am very concerned that Russian interference in the recent 
election may have inflicted substantial damage to Americans' confidence 
in the political system. That interference includes, but is not limited 
to sponsoring disclosures through WikiLeaks and other venues, the 
production and distribution of fake news stories to influence 
traditional and social media, and cyber attacks on computing networks 
used by local and State election administrations and political 
organizations to communicate with voters, constituents, and other 
members of the public.
    Foreign interference in U.S. elections also represents a serious 
threat to National security to the full enjoyment and exercise ofthe 
civil liberties and rights Americans justly value and cherish. There 
can be no higher priority for the next Congress than ensuring that the 
election process, the hallmark of this democratic republic's 
governance, is invulnerable to foreign influence or manipulation.
    Specifically, the House Homeland Security Committee should 
investigate the findings of the intelligence community thorough a 
comprehensive, or ``deep-dive,'' investigation of the cyber attacks 
that plagued the 2016 Presidential election, including cyber attacks 
previously designed to undermine the campaign of the Democratic 
Presidential candidate which were previously determined by the U.S. 
intelligence community to be connected to entities allied with the 
Government of Russia. Further, the hearings should explore the impact, 
if any, that media reporting of WikiLeaks data breach information had 
on voter decisions in the 2016 election and the influence of ``fake 
news,'' false stories deliberately injected into the news mainstream to 
mislead and misinform voters, such as the Comet Ping Pong incident 
which led a North Carolina man to fire rounds from an AR-15 rifle into 
a crowd at a pizzeria in Washington, DC.
    The linchpin of representative democracies such as the United 
States is public confidence in the political system, regime, and 
community. That confidence in turn rests upon the extent to which the 
public has faith that the system employed to select its leaders 
accurately reflects its preferences. At bottom, this means that the 
American people must be able to freely elect their leaders without 
interference, covert or overt, from foreign governments or entities 
allied with foreign powers.
    For these reasons, it is essential that when the 115th Congress 
convenes in January 2017, the Committee on the Homeland Security 
conduct thorough and probing inquiry regarding the activities of 
entities allied with the Government of Russia to influence the outcome 
of the 2016 U.S. Presidential election.
    Thank you for your consideration of this urgent request. If you 
have questions or need further information, contact me through my Chief 
of Staff, Glenn Rushing.
            Very Truly Yours,
                                        Sheila Jackson Lee,
                                                MEMBER OF CONGRESS.
                                 ______
                                 
              Letter From Honorable Thompson and Richmond
                                      May 23, 2017.
President Donald J. Trump,
The White House, 1600 Pennsylvania Avenue, NW Washington, DC 20500.
    Dear Mr. President: Last week, reports surfaced that the White 
House may be planning to create a false narrative about the Department 
of Homeland Security's Automated Indicator Sharing (AIS) program in 
order to neutralize criticism over your handling of classified 
information with Russian officials.\1\ 
---------------------------------------------------------------------------
    \1\ Foreign Policy, ``Trump Team Planning Possible Retaliation for 
Classified Leak Allegation,'' by Jenna McLaughlin (May 18, 2017), 
http://foreignpolicy.com/2017/05/18/trump-team-planning-possible-
retaliation-for-classified-leak-allegations/.
---------------------------------------------------------------------------
    According to a piece in Foreign Policy (FP), White House officials 
met last Wednesday to discuss the possibility of planting a story in 
the media or opening an investigation to accuse DHS of using the AIS 
platform to ``inappropriately open up streams of sensitive data to 
Russia and other nonallies.''\2\ These officials hoped to create the 
illusion that AIS, a public-facing portal that does not deal in 
classified information, exhibits careless information practices by the 
Obama administration roughly equivalent to your disclosure of 
intelligence gathered by a foreign ally. A second source confirmed that 
``Trump and his team have been interested in targeting the Homeland 
Security program for the past couple weeks. Nothing has been decided . 
. . but it's an option on the table.''\3\
---------------------------------------------------------------------------
    \2\ Id. (quoting the article, not the source).
    \3\ Id. (quoting the article, not the source).
---------------------------------------------------------------------------
    These reports, if true, are deeply troubling. The AIS program is 
the result of bipartisan legislation enacted in the 114th Congress, 
after years of negotiation between privacy, security, and industry 
stakeholders in an effort to speed public-private sharing of cyber 
threat indicators. In a press release celebrating AIS' launch last 
year, DHS described the capability as ``the `See Something, Say 
Something' of the internet,'' noting that:

``When one participant detects a threat, all participants in AIS will 
learn about it. By broadening the depth and increasing the speed of 
cybersecurity information sharing, the country as a whole will be 
better able to manage cyber threats. The Cybersecurity Act of 2015 also 
provides targeted liability protection to companies that share cyber 
threat indicators with DHS or with each other. And like all of the 
Department's cybersecurity programs, AIS includes rigorous privacy and 
civil liberties protections.''\4\
---------------------------------------------------------------------------
    \4\ DHS ``Open for Business to Receive Cyber Threat Indicators at 
Machine Speed,'' (March 17, 2016), https://www.dhs.gov/blog/2016/03/17/
dhs-open-business-receive-cyber-threat-indicators-machine-speed.

    Despite holding enormous promise, AIS is still in its nascent 
stages. The Department should be using its limited resources to grow 
the capability and build trusted partnerships with its customer base, 
rather than fighting off baseless accusations. While we sincerely hope 
that the accounts in the FP report are not true, we nevertheless cannot 
stand aside and allow the White House to jeopardize this important 
program in a self-serving attempt to change the news cycle.
    Pursuant to Rule X(3)(g) and Rule XI of the Rules of the House of 
Representatives, we respectfully request you provide a written response 
to the following information, and whatever supplementary information 
you deem responsive, by June 1, 2017.
    1. Please provide a detailed log of meetings held at the White 
House on Wednesday, May 17, 2017, accompanied by a list of attendees. 
If the meeting described herein, with respect to DHS' Automated 
Indicator Sharing program, indeed occurred, please provide any notes, 
discussion drafts, or other materials generated in advance of, during, 
or subsequent to the discussion.
    2. Please provide the dates, times, and attendees of any meetings 
White House officials have held where DHS cybersecurity information 
sharing programs, including the Automated Indicator Sharing program, 
may have been discussed.
    3. Has the White House directed an investigation into how the DHS 
Automated Indicator Sharing program shares cyber threat information 
with its partners, including international partners? If so, on what 
grounds?
    4. If the White House is considering or considered planting a false 
story about the Automated Indicator Sharing program, as indicated in 
the FP piece, please provide any meeting notes, drafts, and other 
related materials that describe the details of such a story.
    Thank you for your attention to this matter. If you have any 
questions, please contact Hope Goins, Minority Staff Director.
                                        Bennie G. Thompson,
                                                    Ranking Member.
                                        Cedric L. Richmond,
     Ranking Member, Subcommitee on Cybersecurity & Infrastructure 
                                                        Protection.
                                 ______
                                 
             Letter From Ranking Member Bennie G. Thompson
                                      May 23, 2017.
The Honorable Michael T. McCaul,
Chairman, Committee on Homeland Security, H2-176 Ford House Office 
        Building, Washington, DC 20515.
    Dear Chairman McCaul: I am writing to express my continued 
commitment to examining the Russian government's interference in the 
2016 elections.
    On April 5, during the consideration of a measure to jumpstart an 
investigation into what the Department of Homeland Security knew and 
did about this unprecedented attack on our democracy (H. Res. 235), you 
indicated that, while you opposed my resolution of inquiry, you 
supported examining this issue through the normal committee process. At 
the time, you suggested that Members could ask DHS Secretary Kelly 
about Russian interference when he testifies next before the committee. 
While asking one-off questions of the Secretary at a public hearing of 
Government officials in a closed-door meeting here or overseas may 
yield some information, it does not replace the need for a 
comprehensive investigation. The gravity of this matter demands more; 
it demands that the committee launch a bipartisan investigation--
particularly given recent developments surrounding the Russia 
investigation.
    Following President Trump's abrupt firing of FBI Director Comey 
earlier this month, a special counsel was appointed by the Deputy 
Attorney General to oversee the investigation, which FBI Director Comey 
initiated, into Russian meddling in our elections. Since then, the 
drumbeat for an independent commission that cannot be interfered with 
by the Trump administration steadily intensified. As I said during my 
opening statement when H. Res. 235 was considered, current 
investigations under way in Congress and at the Justice Department are 
not likely to focus on DHS's efforts--which are important to evaluate 
given that the Russians are expected to attempt to interfere in future 
U.S. elections. As such, now is the time for this committee to launch 
its own bipartisan inquiry.
    I share the view that you expressed at our April markup that any 
foreign government interference in our elections is unacceptable and 
should not go unpunished. By launching a committee investigation, we 
could do our part to ensure not only that those involved are punished 
but that State officials responsible for overseeing our elections have 
the answers they need to guard against future interference. Protecting 
our election systems has been and will continue to be a bipartisan 
issue. I truly hope that we can begin to address this matter with the 
seriousness that it deserves, and look forward to working with you to 
undertake oversight into DHS's efforts to identify and mitigate harm to 
our election systems.
    Thank you for your time and attention to this matter. If you have 
any questions, please contact Rosaline Cohen, Chief Counsel for 
Legislation.
            Sincerely,
                                        Bennie G. Thompson,
                                                    Ranking Member.
                                 ______
                                 
                 Letter From Twelve Members of Congress
                                     June 21, 2017.
The Honorable John F. Kelly,
Secretary, U.S. Department of Homeland Security, Washington, DC 20528.
    Dear Secretary Kelly: We write to express our concern regarding 
recent statements you have made with respect to the designation of 
election infrastructure as a critical infrastructure subsector and to 
seek clarification regarding what you envision the Department of 
Homeland Security's (the Department or DHS) role to be when it comes to 
securing election infrastructure.
    On January 6, 2017, the Office of the Director of National 
Intelligence (ODNI) released a report, completed in coordination with 
the Central Intelligence Agency (CIA), Federal Bureau of Investigation 
(FBI), and National Security Agency (NSA), entitled Background to 
``Assessing Russian Activities and Intentions in Recent US Elections'': 
The Analytic Process and Cyber Incident Attribution. The declassified 
version of the report made several concerning findings related to the 
depth and breadth of Russia's efforts to interfere in the 2016 
Presidential elections, including that ``Russian intelligence obtained 
and maintained access to elements of multiple US State or local 
electoral boards.''\1\ Ultimately, the ODNI assessed that ``Moscow will 
apply lessons learned from its Putin-ordered campaign aimed at the US 
Presidential election to future influence efforts worldwide, including 
against US allies and their election processes.''\2\
---------------------------------------------------------------------------
    \1\ Office of the Director of National Intelligence, Background to 
``Assessing Russian Activities and Intentions in Recent US Elections'': 
The Analytic Process and Cyber Incident Attribution, (Jan. 6, 2017), 
available at https://www.dni.gov/files/documents/ICA_2017_01.pdf.
    \2\ Id.
---------------------------------------------------------------------------
    The same day, your predecessor, then-Secretary Jeh Johnson, 
designated election infrastructure as critical infrastructure.\3\ In 
making the designation, then-Secretaiy Johnson stated:
---------------------------------------------------------------------------
    \3\ Statement by U.S. Department of Homeland Security Secretary Jeh 
Johnson on the Designation of Election Infrastructure as a Critical 
Infrastructure Subsector, (Jan. 6, 2017), available at https://
www.dhs.gov/news/2017/01/06/statement-secretary-johnson-designation-
election-infrastructure-critical. ``Election Infrastructure'' includes: 
``storage facilities, polling places, and centralized vote tabulations 
locations used to support the election process, and information and 
communications technology to include voter registration databases, 
voting machines, and other systems to manage the election process and 
report and display results on behalf of State and local governments.'' 
Id.

``I have determined that election infrastructure in this country should 
be designated as a subsector of the existing Government Facilities 
critical infrastructure sector. Given the vital role elections play in 
this country, it is clear that certain systems and assets of election 
infrastructure meet the definition ofcritical infrastructure, in fact 
and in law.
``I have reached this determination so that election infrastructure 
will, on a more formal and enduring basis, be a priority for 
cybersecurity assistance and protections that the Department of 
Homeland Security provides to a range of private and public sector 
entities.''\4\
---------------------------------------------------------------------------
    \4\ Id.

    Importantly, then-Secretaiy Johnson made clear that a State or 
local election board's decision to avail itself of DHS' cybersecurity 
resources is voluntary. The designation allows the Department ``to 
prioritize our cybersecurity assistance to [S]tate and local election 
officials, but only for those who request it.''\5\ 
---------------------------------------------------------------------------
    \5\ Id.

``In light ofthe mounting evidence that Russia sought to interfere with 
the 2016 election to both sway the outcome and erode public confidence 
in our democratic institutions--an objective it had pursued for over a 
decade--we supported the designation of election infrastructure as a 
critical infrastructure subsector and were interested in ensuring that 
the new administration would continue to prioritize cybersecurity 
assistance to State and local election officials. Accordingly, when you 
first testified before our Committee on February 7, 2017, you were 
asked about your views on the critical infrastructure subsector 
designation. You assuaged our concern that the administration might 
rescind the designation when you responded: `I believe we should help 
all of the [S]tates--provide them as much help as we can to make sure 
that their systems are protected in future elections. So, I would argue 
that, yes, we should keep that in place.' ''\6\
---------------------------------------------------------------------------
    \6\ Ending the Crisis: America's Borders and the Path to Security 
Before H Comm. On Homeland Security, 115th Cong. (Feb. 7, 2017) 
(statement of John F. Kelly, Secretary, Department of Homeland 
Security), available at http://www.cq.com/doc/congressionaltranscripts-
5036886?14.

    Four months later, you testified before our committee once again. 
This time, your remarks called into question your commitment to honor 
the designation of election infrastructure as critical infrastructure. 
---------------------------------------------------------------------------
You stated:

``My predecessor, Jeh Johnson, just before he left, designated the 
whole system as critical infrastructure. I've had a lot of push-back 
from [M]embers of Congress, both sides of the aisle. Governors have 
pushed back on that . . . I'm meeting with all of the Homeland 
Security--I believe it's next week--their Homeland Security [S]tate 
advisors. This will be a topic that we'll bring up about do they feel 
it's needed. But by no means do we have any intention, desire, or move 
to take over any [S]tate process or tell the [S]tates how to do 
business.''\7\
---------------------------------------------------------------------------
    \7\ Department of Homeland Security Reauthorization and the 
President's Fiscal Year 2018 Budget Request, Before H. Comm. On 
Homeland Security, 115th Cong. (June 7, 2017) (statement of John F. 
Kelly, Secretary, Department of Homeland Security), available at http:/
/www.cq.com/doc/congressionaltranscripts-5119108?4.

    Aside from the resistance you have described from some Members of 
Congress and State officials, it is hard to understand what has changed 
since you testified in February that would establish reasonable grounds 
to reconsider the designation. Indeed, the only new information to 
emerge in the interim is even more disturbing evidence regarding the 
scope and breadth of Russian efforts to disrupt the 2016 elections. 
And, to disabuse Congress of the notion that Russia's interference in 
the 2016 elections was an isolated incident, then-FBI Director James 
Comey warned the House Permanent Select Committee on Intelligence in 
March: ``[T]hey'll be back. And they'll be back in 2020. They may be 
back in 2018.''\8\
---------------------------------------------------------------------------
    \8\ ``Full Transcript: FBI Director James Comey Testifies on 
Russian Interference in 2016 Election,'' The Washington Post (Mar. 20, 
2017), available at https://www.washingtonpost.com/news/post-politics/
wp/2017/03/20/full-transcript-fbi-director-james-comey-testifies-on-
russian-interference-in-2016-election/?utm_term=.a3209228adef.
---------------------------------------------------------------------------
    Since the beginning of the month, news reports have revealed that 
Russia's efforts to penetrate election systems was far more successful 
in scope than previously understood, and involved sending spearfishing 
emails to over 100 election officials to gain access to their 
networks.\9\ Investigators in Illinois found evidence Russian hackers 
gained access to software designed to be used by poll workers on 
Election Day in the summer and fall of 2016 and attempted to delete or 
alter voter data. Hackers compromised 90,000 records in Illinois, and 
gained access to the State voter database that included names, dates of 
birth, genders, driver's licenses, and partial Social Security numbers 
on 15 million people.\10\
---------------------------------------------------------------------------
    \9\ Matthew Cole et. al, ``Top-Secret NSA Report Details Russian 
Hacking Effort Days Before 2016 Election,'' The Intercept (June 5, 
2017), https://theintercept.com/2017/06/05/top-secret-nsa-report-
details-russian-hacking-effort-days-before-2016-election/ (last 
accessed June 21, 2017).
    \10\ Michael Riley and Jordan Robertson, ``Russian Cyber Hacks on 
U.S. Electoral System Far Wider Than Previously Known,'' Bloomberg 
(June 13, 2017), https://www.bloomberg.com/politics/articles/2017-06-
13/russian-breach-of-39-states-threatens-future-u-s-elections (last 
accessed June 21, 2017).
---------------------------------------------------------------------------
    We agree with you that ``there is nothing more fundamental to our 
democracy than voting,''\11\ and we must protect against efforts to 
undermine public confidence in our cherished democratic institutions. 
There is no evidence that attempts to interfere in our elections--be it 
Russia, another State actor, or a non-State actor--are declining, and 
the cybersecurity threats to election infrastructure are only growing 
more complex. It is more important than ever that State and local 
election officials are able to rely on assistance from the Department 
of Homeland Security when they need it.
---------------------------------------------------------------------------
    \11\ The Department of Homeland Security Fiscal Year 2018 Budget 
Request Before S. Comm. on Homeland Security 115th Cong. (June 6, 
2015), (statement of John F. Kelly, Secretary, Department of Homeland 
Security), available at http://www.cq.com/doc/congressionaltranscripts-
5116103?7.
---------------------------------------------------------------------------
    Toward that end, we urge you to not to back down from your 
commitment to honor the designation of election infrastructure as a 
critical infrastructure subsector, and we stand ready to assist you in 
your efforts to educate concerned States on the meaning of this 
designation. We look forward to working with you to help DHS do its 
part to ensure the integrity of our election systems.
            Sincerely,
                                        Bennie G. Thompson,
              Ranking Member, House Committee on Homeland Security.
                                        Sheila Jackson Lee,
                      Member, House Committee on Homeland Security.
                                         James R. Langevin,
                      Member, House Committee on Homeland Security.
                                        Cedric L. Richmond,
                      Member, House Committee on Homeland Security.
                                        William R. Keating,
                      Member, House Committee on Homeland Security.
                                      Donald M. Payne, Jr.,
                      Member, House Committee on Homeland Security.
                                              Filemon Vela,
                      Member, House Committee on Homeland Security.
                                     Bonnie Watson Coleman,
                      Member, House Committee on Homeland Security.
                                          Kathleen M. Rice,
                      Member, House Committee on Homeland Security.
                                            J. Luis Correa,
                      Member, House Committee on Homeland Security.
                                            Val B. Demings,
                      Member, House Committee on Homeland Security.
                                       Nanette D. Barragan,
                      Member, House Committee on Homeland Security.
                                 ______
                                 
                Letter From Honorable Brady and Thompson
                                 November 16, 2017.
The Honorable Rodney P. Frelinghuysen,
Chairman, Committee on Apprpriations.
The Honorable Nita M. Lowey,
Ranking Member, Committee on Appropriations.
    Dear Chairman Frelinghuysen and Ranking Member Lowey: As you and 
your colleagues prepare to finalize appropriations legislation for 
fiscal year 2018, we respectfully request that you appropriate the 
remaining $400 million from the Help America Vote Act of 2002 (HAVA) 
for States to use to secure their elections infrastructure.\1\ We know 
now that Russia launched an unprecedented assault on our elections in 
2016, targeting 21 States' voting systems, and we believe this money is 
necessary to protect our elections from future attack.
---------------------------------------------------------------------------
    \1\ Pub. L. 107-252 (Oct. 29, 2002).
---------------------------------------------------------------------------
    Over the past 5 months, we have co-chaired an Election Security 
Task Force to better understand what can be done to protect our 
elections going forward. Our findings demonstrate that there is an 
urgent need for Federal funding to help States secure their elections.
    Through our investigation, we found that voting machines can easily 
be hacked. In July, at DefCon, one of the world's largest, longest-
running, and best-known hacker conferences, 25 pieces of election 
equipment were successfully breached by participants with little prior 
knowledge and limited tools.\2\ In over 40 States, elections are 
carried out using voting machines that were purchased more than a 
decade ago.\3\ These machines are now either obsolete or at the end of 
their useful life. Some of these machines rely on operating systems 
like Windows XP or Windows 2000 which pose a particularly significant 
security risk as those operating systems either do not receive regular 
security patches, or have stopped receiving support altogether.\4\ 
These issues are exacerbated by the fact that 20 percent of Americans 
cast their ballot on voting machines that do not have any kind of paper 
backup.\5\ In other words, if these paperless machines were hacked, it 
would be nearly impossible to tell.\6\
---------------------------------------------------------------------------
    \2\ Matt Blaze et al., DEFCON 25 Voting Machine Hacking Village: 
Rep. on Cyber Vulnerabilities in U.S. Election Equipment, Databases, 
and Infrastructure, 4 (2017) https://www.defcon.org/images/defcon-25/
DEF%20CON%2025%20voting%20village%20report.pdf.
    \3\ Lawrence Norden & Ian Vanderwalker, Brennan Center for Justice 
at NYU School of Law, Securing Elections from Forefign Interference, 9 
(2017).
    \4\ Id.
    \5\ Norden & Vandewalker, 11.
    \6\ Eric Geller, Virginia Bars Voting Machines Considered Top 
Hacking Target, POLITICO (Sept. 8, 2017) http://www.politico.com/story/
2017/09/08/virginia-election-machines-hacking-target-242492.
---------------------------------------------------------------------------
    State voter registration databases are also vulnerable to attack. 
In Illinois, hackers successfully breached registration databases and 
attempted, but failed, to alter and delete voting records.\7\ In 
Arizona, hackers successfully installed malware on a county election 
official's computer.\8\ Russian hackers also targeted at least one 
election vendor with the hope of ultimately obtaining access into 
numerous State and local voter registration databases.\9\ If these 
attacks had been successful, hackers would have been able to alter or 
delete voter registration records, causing a great deal of chaos on 
Election Day and potentially swaying the results of the election.
---------------------------------------------------------------------------
    \7\ Pam Fessler, 10 Months After Election Day, Feds Tell States 
More About Russian Hacking, NPR (Sept. 22, 2017) https://www.npr.org/
2017/09/22/552956517/ten-months-after-election-day-feds-tell-states-
more-about-russian-hacking.
    \8\ Id.
    \9\ Matthew Cole, et. al.. Top-Secret NSA Report Details Russian 
Hacking Effort Days Before 2016 Election, The Intercept, (June 5, 2017) 
https://theintercept.com/2017/06/05/top-secret-nsa-report-details-
russian-hacking-effort-days-before-2016-election/.
---------------------------------------------------------------------------
    The single most urgent need is for States using paperless machines 
to replace their outdated equipment with paper ballot voting systems. 
The Brennan Center estimates that cost to replace paperless voting 
machines would be between $130 and S400 million, and States do not have 
the money to do this themselves.\10\ South Carolina is 1 of the 5 
remaining States that relies exclusively on paperless machines, and a 
spokesman for the South Carolina Election Commission recently told the 
New York Times, ``We're using the same equipment we've used since 2004. 
If $40 million dropped into our hands today, we'd have a paper ballot 
trail, too.''\11\ In order to prevent future attacks, States also need 
to hire IT staff to upgrade and maintain IT infrastructure, and train 
election officials and poll workers on cybersecurity.
---------------------------------------------------------------------------
    \10\ Norden & Vandewalker, 11.
    \11\ Michael Wines, Wary of Hackers, States Move to Upgrade Voting 
Systems, The New York Times (October 14, 2017) https://www.nytimes.com/
2017/10/14/us/voting-russians-hacking-states-.html?r=0.
---------------------------------------------------------------------------
    State and local election officials are acutely aware that they need 
to improve election security, but they lack the necessary funds to 
safeguard their voting infrastructure.\12\ In most States, legislatures 
are not increasing their election security budgets.\13\ In some cases, 
Governors are actively undermining election security efforts. In 
Florida, Governor Scott's budget proposed reducing the funding for the 
Division of Elections by almost $1 million.\14\ In July, Governor 
Kasich vetoed a provision in Ohio's budget that would have allocated $1 
million toward voting equipment.\15\ Governor Walker issued a partial 
veto to the State's budget, and in doing so, eliminated five jobs from 
the Wisconsin Elections Commission.\16\ This issue is simply too 
important to sit back and watch State governments and the Federal 
Government pass responsibility back and forth.
---------------------------------------------------------------------------
    \12\ Reid Wilson, Election Officials Race To Combat Cyberattacks, 
The Hill (Nov. 8, 2017) https://thehill.com/homenews/campaign/359243-
election-officials-race-to-combat-cyberattacks.
    \13\ Cory Bennett et. al., Cash-strapped States Brace for Russian 
Hacking Fight, POLITICO (Sept. 3, 2017) https://www.politico.com/story/
2017/09/03/election-hackers-russia-cyberattack-voting-242266.
    \14\ Governor Rick Scott's 2017-2018 Budget, (last visited, Oct. 
18, 2017) http://fightingforfloridasfuturebudget.com/web%20forms/
Budget/BudgetService.aspx?rid- 
l=327714&rid2=298915&ai=45000000&title=STATE.
    \15\ Jackie Borchardt, Ohio Gov. John Kasich Vetoes Medicaid 
Freeze, Signs State Budget Bill, Cleveland.com (July 10, 2017) https://
www.cleveland.com/metro/index.ssf/2017/06/
ohio_gov_john_kasich_signs_sta.html.
    \16\ Veto Message in Brief, Sept. 20, 2017, p. 13. https://
walker.wi.gov/sites/default/files/
09.20.17%20Veto%20Message%20in%20Brief.pdf.
---------------------------------------------------------------------------
    Moreover, State and local officials have expressed a desire for 
Congress to step in. In a recent Politico survey of State election 
officials, 21 of 33 respondents want the Federal Government to 
authorize funds for States to spend on replacing voting machines or 
otherwise strengthening election security.\17\ In response to the 
letter sent out by the Task Force to the chief election official in 
each State asking how the Federal Government could help States with 
election security, the National Association of Secretaries of States 
replied by saying, `'States would clearly benefit from the 
appropriation of the outstanding balance of Federal HAVA funds to aid 
them in ensuring that they have sufficient equipment, technical 
support, and resources to maintain a sound security posture for their 
computer-based systems.''\18\
---------------------------------------------------------------------------
    \17\ Bennett.
    \18\ Letter From Connie Lawson, President, National Association of 
Secretaries of State, to Congressman Bennie Thompson & Congressman 
Robert Brady, Co-Chairman, Joint Task Force on Election Security (Aug. 
3, 2017) (on file with author).
---------------------------------------------------------------------------
    The money that States need can be appropriated right now. HAVA 
authorized $3 billion dollars for States to upgrade and modernize their 
election infrastructure in the wake of the chaotic 2000 Presidential 
election. According to the Election Assistance Commission, the agency 
charged with administering HAVA's grants, approximately $2.6 billion of 
the HAVA funds have been distributed.\19\ Appropriating the remaining 
$400 million would enable States to take the crucial security steps 
ofreplacing outdated equipment, implementing cybcrsecurity best 
practices, and hiring IT staff.
---------------------------------------------------------------------------
    \19\ U.S. Election Assistance Commission, Annual Grant Expenditure 
Report Fiscal Year 2015, 6 https://www.eac.gov/documents/2016/4/11/
final-fy-2015-grants-reportpdf/.
---------------------------------------------------------------------------
    When a sovereign nation attempts to meddle in our elections, it is 
an attack on our country. We cannot leave States to defend against the 
sophisticated cyber tactics of state actors like Russia on their own. 
Michael Chertoff, former Secretary of Homeland Security wrote in The 
Wall Street Journal, ``In an age of unprecedented cyber risks, these 
dangers aren't surprising. But lawmakers and election officials' 
lackadaisical response is both staggering and distressing . . . This is 
a matter of National security, and Congress should treat it as such.'' 
We urge you to recognize that ensuring the security and integrity of 
our election system is a bipartisan issue, and to appropriate the funds 
States desperately need to secure their elections.
    Thank you for your attention to this matter.
            Sincerely,
                                           Robert A. Brady,
  Ranking Member, Committee on House Administration, U.S. House of 
                                                   Representatives.
                                        Bennie G. Thompson,
     Ranking Member, Committee on Homeland Security, U.S. House of 
                                                   Representatives.
                                 ______
                                 
                  Letter From Six Members of Congress
                                   January 9, 2018.
The Honorable Paul D. Ryan,
Speaker of the House of Representatives, United States Capitol, 
        Washington, DC 20515.
    Dear Mr. Speaker: January 6 marked 1 year since the Office of the 
Director of National Intelligence released its ominous report 
documenting Russia's multifaceted campaign to interfere in the 2016 
elections and warning that Russia is likely to do it again.
    Over the past year, our Nation has learned more about the breadth 
and magnitude of Russia's growing threat against our democracy and our 
National security. We now know that Russia used its influence to help 
elect Donald Trump, sought to interfere in at least 21 State elections, 
executed a propaganda campaign to manipulate and sow discord among the 
American people, and hacked our Nation's critical infrastructure, 
including U.S. electricity grids.
    Since then, President Trump's former National Security Adviser, 
Michael Flynn, and the President's former campaign policy adviser, 
George Papadopoulos, both have pleaded guilty to lying to the FBI about 
their contacts with Russia. President Trump also fired James Comey, the 
Director of the Federal Bureau of Investigation, because he continued 
to investigate the ``Russia thing'' while refusing to pledge his 
loyalty to President Trump.
    Russia's aggression toward the United States and the Trump 
administration's efforts to cover up its communications with the 
Russians demand an immediate, whole-of-Government response. Yet, 
Republican House leaders and Committee Chairmen have blocked, 
stonewalled, and rejected our basic requests to investigate, hold 
public hearings, and advance legislation to address these matters. 
House Republicans have chosen to put President Trump ahead of our 
National interests.
    Rather than pursue the truth on behalf of the American people, 
House Republicans have waged an aggressive campaign to shut down 
Congressional and criminal investigations into Russia's attack, they 
have launched and re-launched investigations into baseless conspiracy 
theories to deflect attention and resources, they have defamed our 
Nation's top law enforcement and intelligence agencies, and they have 
sought to discredit anyone seeking to uncover wrongdoing, including 
Special Counsel Robert Mueller, a decorated war veteran.
    To date, the House has held only one full committee public hearing 
on the most significant finding of the ODNI report: That our elections 
continue to be vulnerable to foreign interference in the future. 
Instead, they have relegated this issue to a handful of toothless 
subcommittee hearings, which have been marked by the Trump 
administration's refusal to provide documents requested by Democrats 
that would help inform our work, such as documents relating to Russia's 
attempted attacks against 21 State election systems that are currently 
being withheld by the Department of Homeland Security. Our country, our 
democracy, and the American public deserve better.
    As Members of Congress, we take a solemn oath to support and defend 
the Constitution and protect the American people. The failure of House 
Republicans to take strong and swift action in the face of Russia's 
assault on our democracy is beneath the dignity of this oath. The 
strength and integrity of our democracy, the rule of law, and our 
democratic institutions hang in the balance.
    We ask you to change course and begin demonstrating true leadership 
on this critical National security issue. We request that House 
Republicans join us in fulfilling our sworn Constitutional duty by 
ensuring that each committee of jurisdiction thoroughly investigates 
the following key questions:
  <bullet> How were Russian hackers able to penetrate our State 
        election systems, and how do we protect our elections 
        infrastructure in advance of upcoming elections this year and 
        beyond?
  <bullet> What vulnerabilities remain in our electrical grids and 
        infrastructure networks, and what can we be doing to ensure our 
        safety and security?
  <bullet> How was social media leveraged to influence voters, and what 
        can be done to ensure that American voters know where their 
        information is coming from?
  <bullet> What was the extent of the Trump campaign's involvement in 
        Russia's operation to hack and disseminate material damaging to 
        Hillary Clinton?
  <bullet> In light of President Trump's refusal to release his tax 
        returns, what is the extent of his and his family's business 
        and financial ties to Russians, and how might those ties 
        constitute leverage over the President and his family?
  <bullet> In light of Attorney General Jeff Sessions' testimony in 
        October that the Trump administration is not doing enough to 
        stop future Russian interference and that ``the matter is so 
        complex that for most of us we are not able to fully grasp the 
        technical dangers that are out there,'' what steps has the 
        Trump administration taken to hold Russia accountable for its 
        attack and ensure the safety of our elections from foreign 
        interference?
  <bullet> Why is the Trump administration dragging its feet on 
        implementing the sanctions against Russia that were adopted by 
        Congress with widespread bipartisan support?
  <bullet> What are the extent and nature of efforts by the Trump 
        administration to impede criminal and Congressional 
        investigations into the Trump campaign's involvement and 
        support for Russian interference into our elections?
    We are extremely concerned by the intelligence community's warning 
that Russia may attempt to interfere with future elections--including 
the upcoming mid-term elections--and we are deeply troubled by the lack 
of action by the Trump administration and House Republicans in 
responding to this core threat to our democracy.
    We ask you to review this request and to schedule a meeting with 
leaders of both parties so we may work together to respond to the 
matters of serious concern raised in this letter. Thank you for your 
consideration of these requests.
            Sincerely,
                                   Congressman Eliot Engel,
                   Ranking Member of the Foreign Affairs Committee.
                               Congresswoman Maxine Waters,
                Ranking Member of the Financial Services Committee.
                                Congressman Jerrold Nadler,
                         Ranking Member of the Judiciary Committee.
                               Congressman Bennie Thompson,
                 Ranking Member of the Homeland Security Committee.
                               Congressman Elijah Cummings,
   Ranking Member of the Oversight and Government Reform Committee.
                                  Congressman Robert Brady,
              Ranking Member of the House Administration Committee.
                                 ______
                                 
             Letter From Ranking Member Bennie G. Thompson
                                 February 16, 2018.
Chairman Michael T. McCaul,
Committee on Homeland Security, H2-l76 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairman McCaul: I am writing to express my continued concern 
about election security and Russian interference in our election 
systems. I ask that you to take urgent action by holding a hearing on 
this important homeland security issue and marking up recently-
introduced legislation to protect our election systems, H.R. 5011, the 
Election Security Act. Both actions should be taken without delay as 
the first election of the 2018 season will take place in your home 
State of Texas on March 6, 2018.
    In November 2016, 139 million Americans cast their votes in the 
wake of a massive Russian cyber-enabled influence operation designed to 
undermine faith in American democracy, exposing serious National 
security vulnerabilities in our election infrastructure.
    In response, on January 6, 2017, then-Secretary of Homeland 
Security Jeh Johnson designated election infrastructure as a critical 
infrastructure subsector, citing its importance to our National 
interests. The same day, the Office of the Director of National 
Intelligence (ODNI) released a declassified report entitled 
``Background to Assessing Russian Activities and Intentions in Recent 
US Elections: The Analytic Process and Cyber Incident Attribution'' 
that concluded the Kremlin would use lessons from its 2016 elections 
operations to influence future elections world-wide. Similarly, in 
March 2017, dudng a hearing before the House Permanent Select Committee 
on Intelligence, then-Federal Bureau of Investigation (FBI) Director 
James Comey warned that Russia would use its experience from the 2016 
elections to attempt to influence upcoming U.S. elections.
    Recognizing the alarming conclusions of our National security and 
intelligence agencies and on-going reports of our foreign adversaries' 
intentions, on May 23, 2017, I wrote to you to request a Committee on 
Homeland Security investigation into Russian interference in our 
elections. While this committee failed to take action, Government 
officials continued to sound the alarm. At the Aspen Security Forum in 
July 2017, the Director of National Intelligence, the Director of the 
Central Intelligence Agency, the former Secretary of Homeland Security, 
and the White House's Homeland Security Advisor all agreed that Russian 
entities targeted the 2016 elections. Additionally, in July 2017, a 
Department of Homeland Security official testified before the Senate 
Select Committee on Intelligence that State election systems were 
targeted by nefarious Russian actors. Even after it came to light that 
almost half of U.S. States had been targeted by the Russians, including 
States Members of the Committee on Homeland Security call home, our 
committee did not have a single noticed activity on the issue.
    Absent action on my request, on June 29, 2017, I joined with 
colleagues from the Committee on Homeland Security and the Committee on 
House Administration to form the Congressional Task Force on Election 
Security. Earlier this week, after months of engagement with State 
election officials, security experts, and other stakeholders, the Task 
Force released a comprehensive report with findings and recommendations 
and unveiled the Election Security Act, which is aimed at bolstering 
protections for upcoming U.S. elections.
    The Task Force's report comes on the heels of still more warnings 
from U.S. Government officials that Russia seeks to interfere with our 
upcoming elections. Indeed, a week prior to the release of our report, 
Secretary of State Rex Tillerson stated that Russia is already trying 
to interfere in the 2018 midterm elections. On February 13, the day 
prior to the release of the Task Force's final report, 6 current 
intelligence officials--the Director of National Intelligence, the 
Director of the Central Intelligence Agency, the Director of the FBI, 
the Director of the National Security Agency, the Director of the 
Defense Intelligence Agency, and the Director of the National 
Geospatial Intelligence Agency--unanimously agreed that the 2018 
elections are a potential target for Russian operations.
    Given the seriousness of this threat to our Nation, Congress must 
redouble its efforts to thwart foreign influences seeking to interfere 
in our elections. The Committee on Homeland Security should have acted 
long ago. With less than 10 legislative days prior to the first primary 
election of the year, it is critical that we hold a hearing to examine 
this National security issue and consider the Election Security Act 
without delay. We owe it to the American public to act. I look forward 
to working with you to secure our Nation's elections and our democracy.
            Sincerely,
                                        Bennie G. Thompson,
                                                    Ranking Member.
                                 ______
                                 
                 Letter From Chairman Michael T. McCaul
                                 February 21, 2018.
Ranking Member Bennie Thompson,
Committee on Homeland Security, H2-117 Ford House Office Building, 
        Washington, DC 20515.
    Dear Ranking Member Thompson: Thank you for your February 16, 2018 
letter. Russian interference in our electoral process and the 
undermining of our democratic institutions by a foreign adversary must 
never be tolerated. That is why I am proud of our bipartisan efforts to 
pass the first ever, comprehensive reauthorization of the Department of 
Homeland Security (DHS). Specifically, I am glad we adopted an 
amendment that prioritizes and requires DHS to provide voluntary 
assistance to State and local election officials in recognition of the 
importance of election infrastructure. Not only did we pass this bill 
unanimously through our committee, it passed through the House with 
overwhelming bipartisan support last July by a vote of 386-41.
    It is imperative that we continue to ensure DHS has the most 
efficient and robust structure possible to help thwart all cyber 
adversaries. The bipartisan Cybersecurity and Infrastructure Security 
Agency Act of 2017, which I introduced and you co-sponsored, elevates 
and operationalizes the Department's cybersecurity and infrastructure 
protection offices, helping to ensure stronger mission execution which 
is so integral to our shared concerns. This bill also sailed through 
the House with support from both parties. The Senate should follow our 
lead and get these bills to the President's desk.
    While recognizing Russian interference in our election in October 
of 2016, I called on President Obama to ``send a clear signal to 
Moscow: attempts to influence U.S. elections or interfere with our 
democratic system will be met with severe consequences.'' Since that 
time, I have remained consistent on the seriousness of this threat. 
Just last week, I called for the extradition of Russians who had been 
indicted for election interference, so they could be ``held accountable 
and prosecuted to the fullest extent of the law.'' Clearly, these kinds 
of attacks transcend partisan politics.
    I want to encourage all Members of the committee to raise this 
vital issue when Secretary Nielsen appears before the committee during 
our March budget hearing. In addition, it is my goal to have the Under 
Secretary of the National Protection and Programs Directorate, once 
confinned, appear before the committee to discuss this, and other key 
cyber issues, in classified and unclassified settings.
    I look forward to working with you to protect the integrity and 
transparency of our American democracy.
            Sincerely,
                                         Michael T. McCaul,
                                                          Chairman.
                                 ______
                                 
                Letter From Fifteen Members of Congress
                                     March 6, 2018.
The Honorable Rodney P. Frelinghuysen,
Chairman, Committee on Appropriations, U.S. House of Representatives, 
        Washington, DC 20151.
The Honorable Nita M. Lowey,
Ranking Member, Committee on Appropriations, U.S. House of 
        Representatives Washington, DC 20515.
The Honorable Tom Graves,
Chairman, Subcommittee on Financial Services and General Government, 
        Committee on Appropriations, U.S. House of Representatives, 
        Washington, DC 20515.
The Honorable Mike Quigley,
Ranking Member, Subcommittee on Financial Services and General 
        Government, Committee on Appropriations, U.S. House of 
        Representatives, Washington, DC 20515.
    Dear Chairman Frelinghuysen, Chairman Graves, Ranking Member Lowey, 
and Ranking Member Quigley: We write to express strong support for the 
Election Assistance Commission (EAC), and to respectfully request that 
the EAC receive $14 million so it can continue to assist States in 
their urgent efforts to secure voting systems in advance of the 2018 
midterm elections. In addition, we request that you appropriate $400 
million under the Help America Vote Act of 2002 (HAVA) for States to 
use to replace aging and vulnerable voting machines and to provide 
cybersecurity training.\1\ Intelligence officials continue to warn that 
our State-based electoral system is a target for foreign meddling and 
cyber attacking, and we believe this money is necessary to protect 
American elections against the possibility of imminent attack.\2\
---------------------------------------------------------------------------
    \1\ Pub. L. 107-252 (Oct. 29, 2002).
    \2\ Ellen Nakashima and Shane Harris, ``The Nation's Top Spies Said 
Russia is Continuing to Target the U.S. Political System,'' Washington 
Post (Feb. 13, 2018) available at https://www.washingtonpost.com/world/
national-security/tbi-director-to-face-questions-on-security-
clearances-and-agents-independence/2018/02/13/f3e4c706-105f-11-e8-9570-
29c9830535e5_sto- ry.html?utm_term=.9f97e032916c.
---------------------------------------------------------------------------
    The EAC is the only Federal agency charged with making American 
elections more secure, accessible, accurate, and transparent. It has 
built strong relationships with State and local election officials as 
well as cybersecurity experts, and has been vital to helping States 
understand and respond to the threats confronting their election 
infrastructure. The EAC has worked diligently, with a bare-bones 
budget, over the past few years to provide guidance on cybersecurity 
and election technology. But at this critical time, the Commission 
needs additional resources to fully respond to the needs of the States.
    Providing the EAC with additional funds would enable them to hire 
two additional staffers whose exclusive responsibilities would be to 
work directly with State and local election officials, as well as 
cybersecurity experts, on improving cybersecurity. In addition, the 
agency could hire two additional researchers to develop best practices 
on cybersecurity and risk-limiting audits, and to create materials to 
train election officials and poll workers on security issues. The EAC 
would also be able to hold a summit to bring together computer 
scientists, ``white hat'' hackers, and academics to examine election 
technologies and expose any vulnerabilities before the equipment is put 
to use. Finally, the EAC could increase the amount of funds it 
transfers to the National Institute of Standards and Technology (NIST) 
to $2.5 million which would enable NIST to provide further technical 
expertise on voting machine standards.
    Furthermore, States need an additional $400 million in grants under 
HAVA to be appropriated so they can safeguard their voting 
infrastructure. The single most urgent need is for States using 
paperless machines to replace their outdated equipment with paper 
ballot voting systems. The Brennan Center estimates that the cost to 
replace paperless voting machines is between $130 and $400 million, and 
States do not have the money to do it themselves.\3\ Moreover, State 
and local officials have expressed a desire for Congress to step in. ln 
December 2017, the National Association of Secretaries of States (NASS) 
called upon Congress to provide the States with the remaining HAVA 
funds. President of NASS and Indiana Secretary of State Connie Lawson 
said, ``The challenges faced by State and local election officials in 
2017 are quite different from those we faced in 2002.''\4\
---------------------------------------------------------------------------
    \3\ Lawrence Norden and Ian Vandewalker, ``Securing Elections From 
Foreign Interference,'' Brennan Center (June 29, 2017), available at 
https://www.brennancenter.org/publication/securing-elections-foreign-
interference.
    \4\ National Association of Secretaries of States. (December 15, 
2017). NASS Calls on Congress to Provide the Remaining $396 Million in 
Outstanding HAVA Funds. [Press release].
---------------------------------------------------------------------------
    Appropriating a new round of HAVA grants would not address all 
security concerns. As you may know, the Congressional Task Force on 
Election Security found that States need funding to hire IT staff, 
upgrade and maintain IT infrastructure, implement risk limiting audits, 
develop more secure election technology, and for cybersecurity 
training. Toward that end, its legislative proposal requests a total of 
$1.8 billion--half of the amount initially authorized to fight hanging 
chads in HAVA--over 10 years to replace all non-secure voting machines, 
maintain and upgrade elections systems, provide on-going cybersecurity 
training, help States implement risk limiting audits, and invest in 
innovative election technology. But the $400 million already authorized 
would allow States to address their biggest vulnerability by replacing 
paperless voting machines and would represent an important down payment 
on tackling this long-term National security challenge.
    We cannot leave States to their own devices in defending against 
the sophisticated cyber tactics of foreign governments. An attack on 
the electoral infrastructure in one State is an attack on all of 
democracy in America. Michael Chertoff, former Secretary of Homeland 
Security, and Grover Norquist wrote in The Washington Post, ``It's not 
practical to expect local election administrators in rural Missouri or 
small-town Maine to go toe-to-toe with the premier government-backed 
cyber mercenaries in China or North Korea. Just as Federal agencies 
prudently provide support for State law enforcement in dealing with 
terrorism, Federal officials should give guidance and support in 
dealing with the election cybersecurity threat.''
    We urge you to fully fund HAVA and provide the EAC with the support 
it needs so that the Federal Government can meaningfully assist States 
in securing our election systems.
    Thank you for your attention to this important matter.
            Very truly yours,
                                               Steny Hoyer,
                                                Member of Congress.
                                           Robert A. Brady,
                                                Member of Congress.
                                               Zoe Lofgren,
                                                Member of Congress.
                                              Jamie Raskin,
                                                Member of Congress.
                                        Bennie G. Thompson,
                                                Member of Congress.
                                      Lisa Blunt Rochester,
                                                Member of Congress.
                                            Joaquin Castro,
                                                Member of Congress.
                                                Jim Cooper,
                                                Member of Congress.
                                               Val Demings,
                                                Member of Congress.
                                         James R. Langevin,
                                                Member of Congress.
                                                John Lewis,
                                                Member of Congress.
                                           Donald M. Payne,
                                                Member of Congress.
                                            Brad Schneider,
                                                Member of Congress.
                                              John Yarmuth,
                                                Member of Congress.
                                        Cedric L. Richmond,
                                                Member of Congress.
                                 ______
                                 
             Letter From Ranking Member Bennie G. Thompson
                                    March 12, 2018.
The Honorable Michael T. McCaul,
Chairman, Committee on Homeland Security, Washington, DC 20515.
    Dear Mr. Chairman: I am pleased that on Wednesday, March 7, you 
publicly announced that the committee would commence efforts to address 
two homeland security issues--election security and school security. On 
the subject of election security, I was pleased to hear you express 
that you share concerns that I, along with my Democratic colleagues on 
the committee, have repeatedly expressed about the prospect that 
Vladimir Putin's cyber hackers continue to pose a threat to our 
election infrastructure and that the 2018 elections are a target. 
Further, you informed the committee that on March 6 you sent a request 
for a Classified briefing from the Department of Homeland Security 
(DHS) on the cybersecurity threats facing State election systems. I 
request that this Classified briefing be an official noticed activity. 
You also indicated that you intend to notice a public hearing dedicated 
to receiving testimony on election security from Federal Government 
witnesses as soon as possible. There are just 8 legislative days left 
until the next Congressional work period. As such, I would appreciate 
information on the projected time line for holding both the election 
security briefing and hearing.
    With respect to school security, I was heartened to hear you 
acknowledge that school security is a homeland security issue. I was 
also pleased to hear you express interest to move forward, on a 
bipartisan basis, with school security legislation in this committee. 
However, I am disappointed that consideration of H.R. 4627, the 
``Shielding Public Spaces from Vehicular Terrorism Act'' was postponed. 
As such, a timely amendment Rep. Val Demings (D-FL) authored, 
addressing the risk that President Trump could direct DHS to abandon a 
long-standing prohibition on Federal homeland security grant 
expenditures on guns to allow such purchases for teachers, did not get 
considered. While I was pleased to hear you acknowledge that this 
prohibition is a long-standing DHS policy, I was perplexed to learn 
that the Majority needs more time to seek more infmmation to ``properly 
vet'' the amendment, given that no outreach was made to Rep. Demings or 
my staff since Monday, March 5 at 10 a.m., when the amendment was filed 
as required under the committee notice. Action on the Demings 
legislation is necessary, given that the President recently expressed 
support for Federal funding to be provided to cover firearms training 
for K-12 educators.
    We would welcome the opportunity to work on a bipartisan basis to 
make our Nation's schools more secure to terrorism, active shootings, 
and other threats, as you expressed was your goal. We stand ready to 
work with you on such legislation, and we would appreciate greater 
detail when you expect to take up H.R. 4627 with concern to your goals, 
timing-wise, for bipartisan school security legislation.
    Further, I believe the bipartisan school security legislative 
effort could be bolstered by the committee holding a hearing outside of 
the Capitol. To that end, I would highlight that on March 6, Emergency 
Preparedness, Response, and Communications (EPRC) Ranking Member, 
Donald M. Payne, Jr. (D-NJ), submitted a request for a field hearing to 
conduct oversight on DHS's effort to improve school security and 
preparedness in his New Jersey Congressional district. As you know, 
Ranking Member Payne's interest in this homeland security issue dates 
back to 2013, when he introduced the ``SAFE in Our Schools Act'' (H.R. 
3158).
    Election security and school security demand urgent action. 
Accordingly, I look forward to getting a more detailed picture of your 
specific plans for committee action on these homeland security 
challenges, as sought above. Together, I believe we can, in a 
bipartisan way, make our children, constituents, communities, and this 
democracy more secure.
    To coordinate such effort, please do not hesitate to have your 
staff contact my staff director, Hope Goins.
            Thank you.
                                        Bennie G. Thompson,
                                                    Ranking Member.
                                 ______
                                 
                In The News--Keeping the Vote Cybersafe
                    Aug 13, 2016, The New York Times
    To the Editor:
    In ``U.S. Seeking Ways to Keep Hackers Out of Ballot Box'' (news 
article, Aug. 4), Homeland Security Secretary Jeh Johnson says the 
Obama administration is discussing giving extra protections to the 
Nation's electoral system. This change may be necessary and should be 
considered immediately.
    The diverse nature of the cyber threat, and the recent revelation 
that outside actors, possibly nation-states, have an increased interest 
in influencing our elections, make it imperative that the Federal 
Government give additional attention to securing our electoral system 
and possibly deem it part of our Nation's critical infrastructure.
    Without delay, Mr. Johnson should communicate with the thousands of 
jurisdictions in the country that help carry out elections and offer 
the Department of Homeland Security's assistance, expertise, and 
guidance. While the diverse and varied nature of our voting 
infrastructure confounds efforts to secure it, this tells us that the 
process should begin as soon as possible.
                                 ______
                                 
Press Release--Thompson, Smith, Cummings, Conyers, Engel, Hoyer, Schiff 
 Joint Statement Calling for a Comprehensive Investigation of Russian 
                   Interference in the 2016 Election
                             Dec. 13, 2016
    (WASHINGTON).--Today, House Armed Services Committee Ranking Member 
Adam Smith (D-WA), House Oversight Committee Ranking Member Elijah 
Cummings (D-MD), House Judiciary Committee Ranking Member John Conyers 
(D-MI), House Foreign Affairs Committee Ranking Member Eliot Engel (D-
NY), House Democratic Whip Steny Hoyer (D-MD), House Intelligence 
Committee Ranking Member Adam Schiff (D-CA), and Homeland Security 
Committee Ranking Member Bennie G. Thompson (D-MS) released the 
following joint statement in response to news reports about 
intelligence assessments of Russian interference in the 2016 election, 
and comments by the House Republican leadership downplaying the need 
for a thorough investigation:

``All Americans should be deeply concerned by the reports that Russian 
agencies have interfered with a U.S. election. As Speaker Ryan noted, 
`any foreign intervention in our elections is entirely unacceptable.'
``The first duty of the United States Government is to safeguard the 
American people and the integrity of our free society from attacks by 
foreign adversaries. Cyber attacks on our political institutions are 
direct threats to their integrity and are just as menacing as attacks 
on our economic, physical, and military infrastructure.
``Given the gravity of these unprecedented attacks by a foreign state, 
we need a Congressional investigation that is truly bipartisan, that is 
comprehensive, that will not be restricted by jurisdictional lines, and 
that will give the American people a complete and full accounting of 
what happened consistent with safeguarding our National security.''
                                 ______
                                 
   Press Release--Congress Must Protect Electoral Systems & Preserve 
                     Election Assistance Commission
   dhs promises to help states protect systems as house gop votes to 
                          eliminate commission
                              Feb. 8, 2017
    (WASHINGTON).--Yesterday, the Committee on House Administration 
voted on party lines to eliminate the independent Election Assistance 
Commission. The EAC was created to help States upgrade voting 
technology and promote critical election-related information sharing. 
Having up-to-date voting machine technology is critical to ensure they 
are protected from any potential hacking, tampering, or fraud.
    This inexplicable move willfully ignores the present-day threats to 
election infrastructure. In fact, yesterday, Homeland Security 
Secretary John Kelly stated to Congress: ``I believe we should help all 
of the States, provide them as much help as we can to make sure their 
systems are protected in future elections'' [VIDEO of exchange with 
Rep. Cedric Richmond]. He also noted that protecting the Nation's 
electoral systems should be a priority under the National 
Infrastructure Protection Plan. Additionally, President Trump has said 
that our election systems were compromised in the 2016 election and 
millions illegitimately voted. Those allegations are reported to be 
investigated by the White House under a commission that lacks the 
independence of the EAC.
    Rep. Bennie G. Thompson (D-MS), Ranking Member of the Homeland 
Security Committee, released the following statement on the change:

``The danger of cyber attacks from state and non-state actors is 
constantly escalating and evolving and Americans must be confident that 
we are addressing this threat. Congress cannot abdicate this 
responsibility while the President sends Federal investigators on a 
wild goose chase to search for millions and millions of non-existent 
illegal votes. Given public unease regarding Russia's extensive 
interference with the recent Presidential election, Congress should be 
doing more, not less, to ensure the integrity of our electoral systems. 
Our legitimacy as Congress is only as legitimate as strength and 
security of the ballot box. This is a shameful, partisan move by House 
Republicans that undermines our democracy.''

    Rep. Cedric L. Richmond (D-LA), Ranking Member of the Subcommittee 
on Cybersecurity and Infrastructure Protection, added the following:

``Voting is a fundamental right and the foundation of our democracy and 
it is essential that we maintain confidence in the integrity of the 
ballot box. Now that constant cyber attacks are our new reality, taking 
the appropriate security measures is more important than ever. If we 
are serious about protecting our electoral process we need to continue 
to make smart investments like the EAC that will help us reach that 
goal.''
                                 ______
                                 
In The News--Independent Commission Must Investigate President Trump's 
                         Potential Russian Ties
                      Feb. 27, 2017, BlackPressUSA
    The endurance of our Nation's security, sovereignty, and democracy 
is not a partisan issue. This is a top concern for all Americans and 
should be a top priority for the leaders that we send to Washington, 
whether Democrat or Republican. As elected officials, my colleagues and 
I swore to support and defend the Constitution of the United States 
against all enemies, foreign and domestic. We, therefore, have a 
responsibility to do our due diligence in investigating Russian 
interference, and potential influence, into our democratic elections 
and the potential Russian on-going connections within this current 
Presidential administration.
    Despite all of the evidence gathered thus far--evidence that has 
led all 17 of the U.S. intelligence agencies to conclude with 
confidence that the Russians had indeed interfered in the past 
election--the current administration seems unable or unwilling to put 
its full weight behind a full and proper investigation that seems 
necessary to the American people. In the face of evidence that campaign 
and administration officials seem to have had relationships with 
Russian officials, the President cannot simply move on from this issue. 
In fact, the resignation of National Security Advisor Michael Flynn 
this month seems to provide us with more questions than answers.
    The potential conflicts between the Trump administration and its 
apparent ties to Russia seem numerous. The President has refused to 
release his tax returns--a move not seen from any other modern major 
party candidate--leaving questions unanswered as to potential Russian 
business ties and conflicts of interest that President Trump was all 
too happy to gloat about in years past. The President is unable to 
criticize Russia and its dictator-like leader Vladimir Putin, but, 
instead, praises him and prefers him to President Obama. When 
confronted with the assertion that Putin has had journalists and 
political opponents killed, President Trump doubled down on his support 
of Putin by shockingly asserting a moral equivalence between Russia and 
the United States.
    The President's ties to Russia don't end with him, however, they 
trickle down into his administration. As in the campaign, President 
Trump continues to surround himself with advisers that have expansive 
and well-documented financial entanglements to Russia. Recently, The 
New York Times reported that phone records show Trump associates 
communicated with senior Russian intelligence officials throughout the 
campaign, including his former campaign chair Paul Manafort, who is 
known to have involvements in multimillion-dollar business deals with 
Putin allies in Ukraine. Additionally, Michael Flynn was forced to 
resign following information revealing that he had lied about privately 
discussing U.S. sanctions against Russia with the Russian ambassador to 
the United States before Trump took office, a potentially illegal act. 
It has since been reported that White House officials were made aware 
of Flynn's actions and made no effort to correct the record. It was 
only after leaks to the public that President Trump's hand was forced, 
raising concerns regarding the ability of this White House to maintain 
honest and open communication with the American people.
    This intricate web leaves us with critical questions that must be 
answered. What did the President know and when? Was the White House 
ignoring or covering up the truth and spreading misinformation? Did 
Flynn operate at the direction or the knowledge of the President and 
were others involved? The American people deserve to know the full 
extent of Russia's financial, personal, and political strings attached 
to President Trump and this administration.
    Now more than ever, we need an independent, bipartisan commission 
to fully investigate Russia's interference in the election and any 
potential Trump campaign ties to the Kremlin. Unfortunately, Republican 
leaders in the House seem less than enthusiastic about investigating 
their own President. In turn, last month, Representatives Eric Swalwell 
(D-CA), and Elijah Cummings (D-MD) reintroduced legislation that would 
create a 12-member, bipartisan, independent commission empowered to 
conduct an in-depth investigation into attempts by the Russian 
government or others to use electronic means to influence, interfere 
with, or undermine trust in last year's elections. This would be 
similar to the highly-praised 9/11 Commission--which was led by well-
regarded National security experts that were not elected officials. 
Such a commission is not only necessary in order to ensure our 
security, but to restore trust in this administration and in the 
democratic process. All Democratic Members of the House of 
Representatives, along with one Republican, have co-sponsored this 
critical bipartisan legislation.
    The American people deserve transparency and peace of mind when it 
comes to their elected leadership. The Trump administration has 
insisted on remaining friendly with Russia despite the very clear 
threat that they have presented to our National security. In doing so, 
they have put our Nation at risk while keeping American citizens in the 
dark. The Trump administration's intent to ignore these on-going acts 
of aggression sends a message that this type of meddling is acceptable. 
The only democratic way forward is to launch a complete investigation 
into not only the interference into our democratic election, but also 
into the ties and communication that this administration has had with 
Russia.
                                 ______
                                 
      Press Release--AG Sessions Must Prioritize Election Hacking 
                 Investigation After Yahoo Indictments
                             March 15, 2017
    (WASHINGTON).--Today, Rep. Bennie G. Thompson (D-MS), Ranking 
Member of the Committee on Homeland Security, released the following 
statement on news that the Justice Department announced the indictments 
of two Russian spies and two criminal hackers in connection with the 
2014 hack of Yahoo.

``Today's Justice Department indictment of two Russian-government 
agents in the Kremlin's cyber division is a watershed moment in our 
efforts to counter state-directed cyber hacking campaigns. Without 
doubt, the tactics utilized in the Yahoo plot are a roadmap to how the 
Kremlin carries out its cyber hacking campaigns. I call on Attorney 
General Sessions to prioritize the investigation of the cyber hacking 
campaign against our political institutions during the 2016 election 
with an eye to indicting whoever in Vladimir Putin's government 
directed this unprecedented attack on our democracy.''
                                 ______
                                 
Press Release--Pelosi, Thompson, Brady Announce Election Security Task 
                                 Force
                             June 29, 2017
    (WASHINGTON).--Today, as the Nation prepares to celebrate July 4th, 
House Democratic Leader Nancy Pelosi, Committee on Homeland Security 
Ranking Member Bennie G. Thompson (D-MS), and Committee on House 
Administration Ranking Member Robert Brady (D-PA) announced the 
formation of a Task Force to ensure the health and security of our 
Nation's election systems.
    The Congressional Task Force on Election Security will address the 
lack of action to protect electoral infrastructure following Russia 
interfering and attempting to influence the 2016 Presidential election. 
According to the Department of Homeland Security, the election systems 
in 21 States were breached and voter records containing personal 
information were stolen. To this day, we have seen no action from the 
Republican Congress or the Trump administration to provide greater 
protection to our election systems.
    The Congressional Task Force on Election Security is intended to be 
a forum for Members from the two committees to hear from experts with 
expertise in cybersecurity and election infrastructure and identify 
policy recommendations that can help ensure the integrity of our 
election systems and guard against future attacks.
    Leader Pelosi released the following statement on the Task Force:

``The integrity of our democracy itself is under threat from the 
Russians,'' said House Democratic Leader Nancy Pelosi. ``But we see an 
appalling absence of action, or even concern, from President Trump and 
Congressional Republicans. Democrats won't allow Putin's assault on 
American democracy to go unchallenged. With our Task Force on Election 
Security, House Democrats are continuing to pursue the facts and defend 
our democracy where Republicans won't.''

    Ranking Member Thompson added the following:

``Last year's Russian campaign to hack our political institutions and 
interfere with the Presidential election was a blatant attack on our 
democracy. If we continue to do nothing to protect the integrity of our 
election systems, we make it easy for Russia and other nefarious actors 
to impact future elections. Unfortunately, we have seen no effort from 
the Republican-led Congress or the Trump administration to address this 
vulnerability. Looking toward the future, we must be able to put 
politics aside for the good of the country and work together to protect 
against efforts to undermine our cherished democratic institutions. I 
look forward to working with Ranking Member Brady and my colleagues to 
get answers for the American people and prevent future damage to our 
democracy.''

    Ranking Member Brady added the following:

``We now know that Russia launched an unprecedented attack on our 
election infrastructure, and the intelligence community has indicated 
that foreign actors will be back in 2018 and 2020. Free, fair, and 
secure elections are the cornerstone of our democracy, and Congress 
must take action to address this threat to our election security, and 
our National security. I look forward to working with my colleagues to 
identify the vulnerabilities in our voting systems and to take action 
to make our elections safer.''
                                 ______
                                 
  Press Release--Election Security Task Force Receives First Briefing
                             July 27, 2017
    (WASHINGTON).--The Congressional Task Force on Election Security, 
chaired by Committee on Homeland Security Ranking Member Bennie G. 
Thompson (D-MS) and Committee on House Administration Ranking Member 
Robert Brady (D-PA) received its first information-gathering briefing 
to inform its work on securing our election systems.
    The Task Force was briefed by the Brennan Center For Justice on its 
new report: Securing Elections From Foreign Interference. Brennan 
Center experts offered specific actions Congress and local election 
officials can quickly take to insulate voting technology from continued 
foreign interference. Their report focuses on assessing and securing 
two of the most vulnerable points in the system: voting machines, which 
could be hacked to cast doubt on or change vote totals; and voter 
registration databases, which could be manipulated in an attempt to 
block voters, cause disruption, and undermine confidence when citizens 
vote.
    Co-Chairs Thompson and Brady released the below joint statement 
following the briefing:

``Russia's meddling in the 2016 election and targeting of voting 
infrastructure in at least 21 States was a direct attack on our 
democracy. The American people expect their Government to do whatever 
possible to prevent this from happening again. While Republicans refuse 
to look into this issue, we are taking the steps to begin an 
investigation into what we can do to secure our election infrastructure 
and prevent what transpired last year from happening again. The Brennan 
Center's expertise on election issues will lend us to our first public 
meeting in the coming weeks where we will hear from officials and 
experts with diverse backgrounds. This will be the first step toward 
forming solutions to protect our democracy and its cherished 
institutions from malicious actors and outside influence.''
                                 ______
                                 
 Press Release--Thompson Statement on DHS Notifying States of Election 
                               Targeting
                           September 22, 2017
    (WASHINGTON).--Today, Rep. Bennie G. Thompson (D-MS), Ranking 
Member of the Committee on Homeland Security, released the following 
statement on the news that the Department of Homeland Security (DHS) 
has notified each State and territory whether or not their election 
systems were targeted during the 2016 election:

``Russia's priority in undermining confidence in our democratic 
institutions was clear during last year election and will only growing 
stronger. To counter this, there must be a strong relationship between 
DHS and its partners at the State level with the aim of keeping our 
election systems--part of our critical infrastructure--secure. While 
this should have happened much sooner, I am glad that DHS finally 
notified each State whether or not they were targeted by Russia. I urge 
DHS to keep building trusted relationships with State governments to 
carry out its responsibility to help States secure their election 
systems. Congress must also continue to do its part to investigate what 
happened last year, work to prevent it in the future, and ensure DHS 
has the resources it needs to protect these systems.''
                                 ______
                                 
  Press Release--UPDATED: Election Security Task Force to Hold First 
                         Public Forum Thursday
                 September 26, 2017/September 27, 2017
    (WASHINGTON).--On Thursday, September 28th, the Congressional Task 
Force on Election Security, will hold its first public forum: 
``Securing America's Elections: Understanding the Threat.'' The task 
force will hear from Jeh Johnson, former Homeland Security Secretary, 
and Suzanne Spaulding, former DHS Under Secretary for the National 
Protection and Programs Directorate.
    Details: Congressional Task Force on Election Security Forum 
``Securing America's Elections: Understanding the Threat'' 11 a.m. 
Thursday, September 28th Location: 1302 Longworth House Office Building 
***NOTE ROOM CHANGE***.
    The Congressional Task Force on Election Security was created this 
summer to address the lack of action to protect electoral 
infrastructure following Russia interfering and attempting to influence 
the 2016 Presidential election. It is chaired by Committee on Homeland 
Security Ranking Member Bennie G. Thompson (D-MS) and Committee on 
House Administration Ranking Member Robert Brady (D-PA).
    Co-Chairs Thompson and Brady released the below joint statement 
announcing the forum:

``Recent news reminds us that Russia targeted voting infrastructure in 
at least 21 States last year in a direct attack on our democracy. 
Looking forward, the American people expect us to investigate our 
vulnerabilities and do whatever possible to prevent this from happening 
again. While Republican leaders in Congress refuse to investigate, we 
have decided to take initiative to start a process to provide answers 
on how we can better secure our election infrastructure and prevent 
election meddling in the future.''
                                 ______
                                 
   Press Release--Election Security Task Force Releases Preliminary 
                            Recommendations
                           November 15, 2017
    (WASHINGTON).--The Congressional Task Force on Election Security, 
chaired by Committee on Homeland Security Ranking Member Bennie G. 
Thompson (D-MS) and Committee on House Administration Ranking Member 
Robert Brady (D-PA) released its preliminary findings and 
recommendations marking 1 year since the 2016 election. Because of 
Republican inaction, the Task Force was created this summer to put 
forth solutions to secure our election systems after Russia interfered 
and attempted to influence last year's election. Just yesterday, 
Attorney General Jeff Sessions admitted to Congress that he could not 
report on any administration election security efforts.
    Over the past 5 months, the Task Force has held public forums with 
election and cybersecurity experts and has been working to understand 
the threats to election infrastructure and how to address them. The 5 
findings and 6 recommendations released today underline the Department 
of Homeland Security and the Election Assistance Commission as the 
primary agencies that can help States better secure their election 
systems. Today's preliminary findings will inform an upcoming final 
task force report.
    Preliminary recommendations:
  <bullet> Maintain the designation of election infrastructure as a 
        critical infrastructure subsector.
  <bullet> Help States fund and maintain secure election systems.
  <bullet> States should conduct post-election risk-limiting audits.
  <bullet> Empower Federal agencies to be effective partners for 
        Nation-wide security reforms.
  <bullet> Establish clear and effective channels for sharing threat 
        and intelligence information with election officials.
  <bullet> Prioritize cybersecurity training at the State and local 
        level.
    Congressman Thompson and Congressman Brady released the following 
statement:

``One year ago, 139 million Americans cast their vote in the wake of a 
massive Russian cyber-enabled influence operation designed to undermine 
confidence in our democracy. Russia also targeted voter registration 
databases in at least 21 States and sought to infiltrate the networks 
of voting equipment vendors, political parties, and at least one local 
election board. If we do nothing, this will become our new normal. With 
the next Federal election only 1 year away, it is high time we start 
thinking about enacting real solutions. The findings and 
recommendations released today are an outline of concrete steps that we 
can take to ensure our elections are more secure going forward.''
                                 ______
                                 
  Press Release--Pelosi, Ranking Members to Hold Press Conference on 
House Republicans' Inaction to Sufficiently Investigate Russia's Threat 
                            to Our Democracy
                            January 8, 2018
    (WASHINGTON).--House Democratic Leader Nancy Pelosi, Ranking 
Members Eliot Engel, Maxine Waters, Jerry Nadler, and Bennie Thompson, 
as well as Vice Ranking Member Gerry Connolly will hold a press 
conference tomorrow at 2:30 p.m. E.T. to highlight House Republicans' 
inaction to sufficiently investigate and address Russia's threat to our 
democracy and National security. This press conference comes as we mark 
1 year since the Office of the Director of National Intelligence's 
report confirming Russia's interference into the 2016 election and that 
our elections continue to be vulnerable to future foreign interference.
  <bullet> House Democratic Leader Nancy Pelosi
  <bullet> Congressman Eliot Engel, Ranking Member of the Foreign 
        Affairs Committee
  <bullet> Congresswoman Maxine Waters, Ranking Member of the Financial 
        Services Committee
  <bullet> Congressman Jerry Nadler, Ranking Member of the Judiciary 
        Committee
  <bullet> Congressman Bennie Thompson, Ranking Member of the Homeland 
        Security Committee
  <bullet> Congressman Gerry Connolly, Vice Ranking Member of the 
        Oversight and Government Reform Committee
    Press Conference on House Republicans' Inaction to Sufficiently 
Investigate Russia's Threat to Our Democracy
    Tuesday, January 9, 2018, 2:30 p.m. E.T.
  <bullet> Radio/TV Gallery Studio A
  <bullet> Capitol Visitor Center
  <bullet> The Capitol
  <bullet> Washington, DC.
    This media availability is for Congressionally-accredited media 
only.
                                 ______
                                 
Press Release--Election Security Task Force Seeks Clarification On DHS 
            Role in Continuing Kobach Voter Fraud Commission
                            January 23, 2018
Despite no evidence of voter fraud, President Trump ordered DHS to 
examine nonexistent Commission findings and ``determine next course of 
action''

    (WASHINGTON).--Today, House Homeland Security Committee Ranking 
Member Bennie G. Thompson (D-MS) and Committee on House Administration 
Ranking Member Robert A. Brady (D-PA), Co-Chairs of the Congressional 
Task Force on Election Security, wrote to Department of Homeland 
Security (DHS) Secretary Kristjen Nielsen seeking clarification 
regarding the Department's responsibilities related to the now-defunct 
Presidential Commission on Election Integrity.
    The Commission was ostensibly established to investigate 
allegations of fraudulent voter registrations and fraudulent voting. 
However, the Members write this claim was substantiated by ``nothing 
more than the President's active imagination and frustration that he 
did not receive the majority of the popular votes cast in the 2016 
Presidential election.'' The letter notes the Commission was the 
subject of frequent criticism and legal action ``alleging violation of 
several Federal laws, including the Fifth Amendment to the U.S. 
Constitution, the Privacy Act, the Hatch Act, and multiple State laws, 
among other things.''
    After the commission was unable to produce any evidence of improper 
voting and registrations, the President abruptly terminated the 
commission. However, he nevertheless directed DHS to ``examine'' the 
Commission's initial findings and ``determine the next courses of 
action.''
    The Members write:

``It is unclear how the Department will carry out this charge given 
that the Commission never produced any findings. We are concerned that 
directing DHS essentially to take over where the Commission left off 
could distract the Department from its pressing obligation to protect 
U.S. election systems from foreign interference and may undermine the 
burgeoning relationships DHS is building with State election 
officials.''

    The Members request that DHS provide the following information 
related to their examination:
  <bullet> Any documents, files, electronic records, or information 
        that the Department has received or anticipates receiving from 
        the Commission, despite reports that all voter data will be 
        destroyed and that the Commission never made any findings.
  <bullet> What activities the Department will undertake pursuant to 
        the President's decision to transfer the Commission's 
        responsibilities to DHS, including whether those additional 
        activities will require the Department to divert resources from 
        existing activities.
  <bullet> What steps the Department plans to take in order to avoid 
        undermining the cooperative relationship between DHS and the 
        States necessary to secure our Nation's elections.
                                 ______
                                 
Press Release--Election Security Task Force Chairs Release Statement on 
  Secretary Tillerson Comments on Russia Already Interfering in This 
                            Year's Elections
                            February 8, 2018
    (WASHINGTON).--Today, House Homeland Security Committee Ranking 
Member Bennie G. Thompson (D-MS) and Committee on House Administration 
Ranking Member Robert A. Brady (D-PA), Co-Chairs of the Congressional 
Task Force on Election Security, released the below joint statement in 
reaction to Secretary of State Tillerson's comments on Russia already 
interfering in this year's elections.

``Secretary Tillerson confirmed what Congressional Democrats have known 
since the ODNI released its report on election meddling: Russia is 
determined to interfere in our elections and disrupt our democratic 
processes. His candid admission that we are no better prepared to stop 
them than we were in 2016 is a testament to President Trump's failure 
to acknowledge that Russia interfered in our elections once and is 
determined to do so again. His unwillingness to counter the threat 
should be appalling to all concerned Americans.''
``While Republicans in Congress have turned a blind eye, the Trump 
administration seems to do Putin's bidding. Congressional Democrats, 
however, have spent the last year identifying vulnerabilities in our 
election systems and figuring out what we need to do to secure them. 
Next week, the Congressional Task Force on Election Security, which we 
chair, will be releasing its final report, recommendations, and new 
legislation to give our elections systems a much-needed update.''
``Congress fought hard to protect the integrity of elections against 
hanging chads 15 years ago, and certainly we should act to protect our 
elections from the Russian government today. It's time for Republicans 
to wake up and join us in protecting our democracy from Putin.''

    The Election Security Task Force wrote the House Appropriations 
Committee last November stressing the need to appropriate the remaining 
$400 million already authorized for election infrastructure under the 
Help America Vote Act for States to use to help secure their elections 
systems.
                                 ______
                                 
Press Release--Brady, Thompson: Trump Abdicating His Oath of Office By 
                  Refusing to Act on Election Security
                           February 27, 2018
    (WASHINGTON).--Today, the Co-Chairs of the Congressional Task Force 
on Election Security, House Homeland Security Committee Ranking Member 
Bennie G. Thompson (D-MS) and Committee on House Administration Ranking 
Member Robert A. Brady (D-PA), released the below joint statement on 
the need for election security measures following Admiral Mike Rogers' 
testimony before the Senate Armed Services Committee today. At the 
hearing, the National Security Agency (NSA) Director and U.S. Cyber 
Command Commander told Senators that President Trump has not given him 
orders to counter Russian interference in our elections.

``It is unimaginable that the President of the United States has not 
ordered NSA Director Rogers--or apparently the heads of any other 
agency--to stop Russia from meddling in our elections. This is a clear 
invitation for Putin to continue to do what he pleases with American 
sovereignty and our democratic institutions. Let us be clear: This 
inaction is the President abdicating his oath of office. While spending 
time on Twitter falsely alleging a witch hunt, he is not keeping the 
country safe and secure.
``With a President unwilling or unable to put the country and its 
security first, Congress must act. We call on Republicans and Democrats 
to come together and pass clearly-needed election security reforms. The 
Congressional Task Force on Election Security introduced legislation 
earlier this month--H.R. 5011, the Election Security Act--that would 
provide assistance to States to help secure their elections systems and 
protect our democratic institutions from Russian efforts to undermine 
them. We hope that our Republican colleagues can join us and put 
politics aside so we secure our elections--the hallmark of our 
democracy--from Russian interference.''
                                 ______
                                 
 Press Release--House Democrats Call on Republican Congress to Uphold 
     their Oath of Office & Protect Elections from Russian Attacks
                             March 6, 2018
    (WASHINGTON).--Today, March 6--at the start of the 2018 election 
season--House Democrats are holding a press conference to release a new 
letter to the Appropriations Committee Republican leadership calling 
for necessary funds to protect our Nation's on-going elections from the 
threat of repeated Russian attacks.
    It has been over a year since Russia's unprecedented assault on the 
country's elections in 2016--including targeting 21 States' voting 
systems. These attacks exposed serious National security 
vulnerabilities to our election infrastructure--which includes voting 
machines and voter registration databases. Since that time, the Trump 
administration and Republican leadership in Congress--despite their 
oath of office to protect against enemies foreign and domestic--have 
refused to address the issue or put forth any solutions to close these 
security gaps, inviting Russia to interfere in our elections again.
    Who:
  <bullet> Democratic Whip Steny H. Hoyer (D-Md.)
  <bullet> Rep. Zoe Lofgren (D-Calif.)
  <bullet> Rep. James R. Langevin (D-R.I.)
  <bullet> Rep. Jamie Raskin (D-Md.)
  <bullet> Rep. Joaquin Castro (D-Texas)
  <bullet> Rep. Brad Schneider (D-Ill.)
    What: Press Conference on Election Security
    When: Tuesday, March 6, 2018, 1:30 pm ET
    Where:
  <bullet> Radio/TV Gallery Studio B
  <bullet> Capitol Visitor Center
  <bullet> The Capitol
  <bullet> Washington, DC.
    NOTE: Press conference is for Congressionally-accredited media 
only.
                                 4_____
                                 
   Press Release--Thompson Demands Election Security Hearings After 
                 Homeland Security Chairman Backtracks
                             March 21, 2018
    (WASHINGTON).--Today, Rep. Bennie G. Thompson (D-MS), Ranking 
Member of the House Committee on Homeland Security, released the 
following statement after receiving written notice from Committee 
Chairman Michael McCaul (R-TX) that he will not convene a hearing 
dedicated to election security as he indicated publicly on March 7. 
While promising to work with Democrats on this issue as soon as 
possible, Chairman McCaul said: ``I look forward to working with you to 
conducting a full hearing on this issue as it not only impacted--was a 
real event in the last Presidential election--but I believe it will be 
a real event in the mid-term 2018 elections.'' Today, Homeland Security 
Secretary Kirstjen Nielsen testified before the Senate Intelligence 
Committee that our elections are ``clearly potential targets for 
Russian hacking attempts.''
    ``I am extremely disappointed that Chairman McCaul has already 
backtracked on his public promise to hold a much-needed hearing on 
election security and the on-going Russia cyber threat. This also comes 
after repeated overtures last year to work together on this issue. 
Alas, we have made no progress. To be clear, we first began hearing of 
Russia's interference in our elections almost 2 years ago.''
    ``Chairman McCaul often reiterates his opposition to Russia, but 
actions speak louder than words. Like Speaker Ryan and his fellow House 
Chairmen, he is ensuring the House stays true in its partisanship and 
seems too willing to do President Trump's bidding. Homeland security 
used to be a bipartisan issue, but it seems this is no longer possible 
when one party refuses to put the country--and its security--first.''
    ``Holding a focused and comprehensive hearing on election security 
is not a partisan or complicated request. It speaks volumes that while 
Chairman McCaul has been dragging his feet on this issue for over a 
year, the Senate is holding election security hearings today with 
current and former homeland security officials. This is all we are 
asking for. I call on Chairman McCaul to realize his error and follow 
through on his promise.''
    ``If Chairman McCaul believes Russia will interfere in the 2018 
elections, as he has stated, we cannot ignore this threat. Having 
hearings on election security--while developing solutions and showing 
the public that we are working together on this issue is a solid first 
step. The 2018 elections are only 7 months away and we must be doing 
much more to protect them. If we do nothing, we are just inviting Putin 
to what he pleases with our democracy and our domestic affairs.''
                                 ______
                                 
  Press Release--Thompson to Speaker Ryan: Election Security Briefing 
                              Insufficient
                              May 15, 2018
    (WASHINGTON).--Today, Rep. Bennie G. Thompson (D-MS), Ranking 
Member of the Committee on Homeland Security, and Co-Chair of the 
Congressional Task Force on Election Security, released the following 
statement on news that Speaker Ryan has announced an election security 
briefing for Members of Congress:

``Unfortunately, due to it being in an unclassified setting, it is not 
possible for this last-minute briefing scheduled by House Republicans 
on election security to be able to go into the detail necessary to 
properly educate Members of Congress on the Trump administration's 
efforts--or lack thereof--to secure our election systems from foreign 
interference. House Republicans have treated election security as a 
third-rung issue for over a year, it is time for them to finally take 
this National security issue seriously. The next Federal election is 
less than 6 months away.''
                                 ______
                                 
 Press Release--Thompson: Shocking Secretary Nielsen Hasn't Read 2017 
           Intel Assessment, Isn't Aware Russia Helped Trump
                              May 22, 2018
    (WASHINGTON).--Today, Rep. Bennie G. Thompson (D-MS), Ranking 
Member of the Committee on Homeland Security, released the following 
statement on Homeland Security Nielsen's alarming comments after the 
House of Representative's election security briefing today:

``I was shocked to hear that Secretary Nielsen has apparently not 
bothered to read the January 2017 intelligence community assessment 
that Russia interfered in our elections and undermined our democratic 
process to help President Trump win. This report is over a year old, 
has stood the test of time, was agreed to by the entire intelligence 
community, and was backed up by Senate investigators. The fact that she 
did not seem aware of the report's findings while briefing Members of 
Congress on the very important topic of election security is appalling 
to all who have tried to make progress on this issue since 2016 with 
little help from Republicans or this administration. I sincerely hope 
the Secretary's comments today were not just rhetorical gymnastics to 
placate the President.
    ``Even though this report is widely available, I will be sure to 
deliver the Secretary a copy. After today's briefing, it is clear that 
our Government must do more, and whatever possible, to secure our 
elections from foreign interference. The integrity of our democracy is 
at stake and comments like those from the Secretary today are not 
helpful.''
                                 ______
                                 
   Press Release--Thompson Statement on Mueller Indicating Election 
                           Meddling On-going
                             June 21, 2018
    (WASHINGTON).--Today, Rep. Bennie G. Thompson (D-MS), Ranking 
Member of the Committee on Homeland Security and co-Chair of the 
Congressional Task Force on Election Security, released the following 
statement on news from Special Counsel Robert Mueller that election 
meddling operations are still on-going:

``As Robert Mueller confirmed today, the threat to our elections from 
foreign interference persists and it is high time the White House wakes 
up and takes this threat seriously. Inaction will have grave 
consequences for public confidence in the integrity of our democracy. 
It is unacceptable that the Government official most directly 
communicating on the on-going threat to our elections is the Special 
Counsel.
    ``President Trump must start acting like the President of the 
country instead of obsessing over photo ops with Kim Jong-un, saving 
ZTE jobs in China, and casting aside close allies like Canada to curry 
favor with Vladimir Putin. Anything less is an abdication of his oath 
of office. With the mid-term elections less than 5 months away, he must 
make it clear that election security is the top National security 
priority and push Republicans in Congress to do more.''

    It has been over 3 months since Congressman Thompson introduced 
H.R. 5011, the Election Security Act to help secure our voting systems. 
The legislation, with 105 co-sponsors, has still not received a hearing 
or a vote.
                                 ______
                                 
                               Transcript
                            October 24, 2017
    The transcript for Securing America's Elections: Preparing for 2018 
and Beyond, Congressional Task Force on Election Security, Committee on 
House Administration, is retained in the committee files.
                                 ______
                                 
Congressional Task Force on Election Security Preliminary Findings and 
                            Recommendations
    One year ago, 139 million Americans cast their vote in the wake of 
a massive Russian cyber-enabled influence operation designed to 
``undermine public faith in the U.S. democratic process, denigrate 
Secretary [Hillary] Clinton, and harm her electability and potential 
presidency.'' Using a vast network of social media trolls, fake ``bot'' 
accounts, and state-owned news outlets, the Kremlin spread 
disinformation to the American electorate through more than 1,000 
YouTube videos, 130,000 tweets, and 80,000 Facebook posts viewed by as 
many as 150 million people on Facebook platforms alone. They hacked 
into U.S. political organizations, selectively exposing sensitive 
personal information about DNC staffers using third-party 
intermediaries like WikiLeaks. Finally, according to U.S. intelligence 
reports, Russia targeted voter registration databases in at least 21 
States and sought to infiltrate the networks of voting equipment 
vendors, political parties, and at least one local election board.
    Although this election cycle was unlike any before, the U.S. 
intelligence community warns that it may be the ``New Normal.'' Recent 
reports show that the vast majority of U.S. States are still relying on 
outdated, insecure voting equipment and other election technologies 
that lack even basic cybersecurity standards. Meanwhile, Republicans in 
Congress have shown little interest in fighting Russian interference, 
and have instead chosen to act on measures that would eliminate rather 
than bolster funding for the Election Assistance Commission (EAC), the 
Federal agency responsible for helping States secure these vulnerable 
systems.
    With just over a year until the 2018 midterm elections, it is 
important that we reflect on lessons learned in the last year and focus 
the spotlight on election security to push for reforms that protect the 
integrity of the ballot box.
    The Congressional Task Force on Election Security has spent the 
past 5 months working together to understand the threats to election 
infrastructure and how to address them. The Task Force found:
  <bullet> Election security is National security, and our election 
        infrastructure is critical infrastructure.--Federal law defines 
        critical infrastructure as systems and assets for which 
        ``incapacity or destruction . . . would have a debilitating 
        impact on security, National economic security, National public 
        health or safety,'' or any combination thereof. Such 
        infrastructure is given priority access to threat intelligence, 
        incident response, technical assistance, and other products and 
        services to help owners and operators harden their defenses. It 
        is hard to imagine a system failure that would inflict more 
        damage than a foreign adversary infiltrating our voting systems 
        to hijack our democratic process. Nonetheless, Trump's Homeland 
        Security Department (DHS) has wavered on its commitment to 
        honor the Obama administration's decision to designate election 
        systems as a critical infrastructure subsector. Whether the 
        next Secretary of Homeland Security will take a firm stand and 
        maintain the designation remains to be seen.
  <bullet> Our election infrastructure is vulnerable.--Many elections 
        across our country are being run on equipment that is either 
        obsolete or near the end of its useful life. In over 40 States, 
        elections are carried out using voting machines and voter 
        registration databases created more than a decade ago. These 
        technologies are more likely to suffer from known 
        vulnerabilities that cannot be patched easily, if at all. As we 
        saw at this year's DEFCON Voting Village, even hackers with 
        limited prior knowledge, tools, and resources are able to 
        breach voting machines in a matter of minutes.
  <bullet> These vulnerable systems are being targeted by one of the 
        world's most sophisticated cyber actors.--According to the U.S. 
        intelligence community, Russian interference in the 2016 
        election ``demonstrated a significant escalation in directness, 
        level of activity, and scope of effort compared to previous 
        operations,'' and warned that ``Moscow will apply lessons 
        learned from . . . the U.S. Presidential election to future 
        influence efforts world-wide, including against U.S. allies and 
        their election processes.'' We cannot reasonably assume that 
        State voting systems are secure enough to withstand a state-
        sponsored cyber attack, and we have no reason to believe these 
        attacks will subside.
  <bullet> Fortunately, many of the security solutions and best 
        practices are already known.--We can mitigate many 
        vulnerabilities with existing, time-tested cybersecurity fixes 
        found in the NIST Cybersecurity Framework and the CIS ``Top 
        20'' Critical Security Controls. By adopting even the Top 5 
        security controls, organizations can thwart 85 percent of 
        common cyber attacks. Security experts also tend to agree on 
        the types of voting systems most susceptible to compromise, and 
        are urging election officials to phase out paperless Direct 
        Recording Electronic (DRE) machines, replace these machines 
        with voter-marked paper ballots, and carry out risk-limiting 
        audits to verify election results.
  <bullet> Federal agencies like DHS and EAC are important partners in 
        this effort, but they need resources and consistent support 
        from Congress.--We have a rare window of opportunity to promote 
        the widespread adoption of common-sense security measures that 
        protect the integrity of the ballot box. This is not the time 
        to diminish Federal efforts or shut down important lines of 
        dialog between DHS and election administrators.
    DHS is able to provide participating State and local governments 
        with cyber threat intelligence, vulnerability assessments, 
        penetration testing, scanning of databases and operating 
        systems, and other cybersecurity services at no cost. Despite 
        some initial confusion about the critical infrastructure 
        designation, DHS has worked to build relationships with 
        election officials, clarify the voluntary nature of DHS 
        services, resolve disparities in information sharing and victim 
        notification, and assist the subsector in formally establishing 
        a Coordinating Council, which had its first meeting this fall. 
        Where DHS has rendered assistance, officials report that cyber 
        hygiene scans and other services are valuable. However, there 
        is currently a 9-month wait list for Risk and Vulnerability 
        Assessments, and questions remain about how to ensure threat 
        information reaches election officials, many of whom lack 
        security clearances.
    The EAC has been a valuable partner to State and county election 
        officials. The agency has played a crucial role in election 
        security by serving as a clearinghouse of information for State 
        and local election officials, facilitating communications 
        between these officials and DHS, providing easy-to-use 
        cybersecurity guidance, and testing and certifying voting 
        machines. Numerous State and local officials have expressed 
        support and appreciation for the agency's work. Unfortunately, 
        in recent years Republicans have made several attempts to 
        terminate the agency. Instead, Congress should support the EAC 
        and provide it with the resources it needs to help States 
        secure their election systems. In addition, the President 
        should nominate and the Senate should confirm a fourth 
        commissioner to the EAC so that the agency can operate with its 
        full slate of commissioners.
    In light of its preliminary findings, the Task Force makes the 
following recommendations:
  <bullet> Maintain the designation of election infrastructure as a 
        critical infrastructure subsector.--This designation ensures 
        that State and local election officials receive prioritized 
        access to DHS's cybersecurity services. Defining election 
        systems as critical infrastructure means these systems will, on 
        a more formal and enduring basis, be a priority for DHS 
        cybersecurity assistance. These services are an important force 
        multiplier, especially at the State and local level, where 
        resources are scarce.
  <bullet> Help States fund and maintain secure election systems.--We 
        cannot ask our State and local election officials to take on a 
        State actor like Russia alone. Although States and counties are 
        largely responsible for elections, Congress has a role to play 
        in helping States fund the purchase of newer, more secure 
        election systems, and requiring such systems adhere to baseline 
        cybersecurity standards. Election officials need money to 
        replace aging voting systems, many of which do not provide an 
        auditable paper trail. It is important to note, however, that 
        cyber threats evolve at a rapid pace, and a one-time lump sum 
        investment is not enough. States also need resources for 
        maintenance and periodic upgrades, and cybersecurity training 
        for poll workers and other election officials.
  <bullet> States should conduct post-election risk-limiting audits.--A 
        risk-limiting audit involves hand counting a certain number of 
        ballots to determine whether the reported election outcome was 
        correct. Risk-limiting audits used advanced statistical methods 
        to enable States to determine that the original vote count was 
        accurate with a high degree of confidence. These audits are 
        useful in detecting any incorrect election outcomes, whether 
        they are caused by a cyber attack or something more mundane 
        like a programming error. Moreover, conducting these audits as 
        a matter of course increases public confidence in the election 
        system.
  <bullet> Empower Federal agencies to be effective partners in pushing 
        out Nation-wide security reforms.--With mid-term elections in a 
        year, election officials cannot afford to wait 9 months for 
        valuable cybersecurity services like Risk and Vulnerability 
        Assessments. At the same time, we cannot ask DHS to deliver 
        election assistance at the expense of its other critical 
        infrastructure customers. We should give DHS the resources it 
        needs to provide election officials with timely assessments and 
        other cybersecurity services, without detracting from its 
        overall critical infrastructure mission. Similarly, Congress 
        should fund EAC at a level commensurate with its expanded role 
        in election cybersecurity and confirm a fourth commissioner so 
        the agency is able to continue to serve as a resource on 
        election administration.
  <bullet> Establish clear and effective channels for sharing threat 
        and intelligence information with election officials.--
        Effective information sharing is critical to address the 
        decentralized threat that our Nation faces in terms of securing 
        our elections. Prior to the 2016 elections, we have seen how 
        information sharing failures can cause catastrophic events. The 
        9/11 terrorist attacks exposed serious gaps in information 
        sharing within the Federal Government and State and local law 
        enforcement partners. It is imperative that election officials 
        have access to the most timely and high-level security 
        information. Chief election officials in each State should have 
        expedited access to security clearances. DHS needs a formalized 
        process to provide real-time appropriate threat information to 
        State and local election officials to improve information flow 
        and help prevent intrusions in our election infrastructure.
  <bullet> Prioritize cybersecurity training at the State and local 
        level.--The events of 2016 demonstrate that human error is a 
        significant vulnerability as it leaves systems open to spear-
        phishing and other forms of cyber attack. States and localities 
        face the daunting task of training hundreds, if not thousands, 
        of election officials, IT staff, and poll workers on 
        cybersecurity and risk mitigation. It costs money for States to 
        produce training materials, and takes staff time to implement 
        State-wide training programs. The Federal Government should 
        provide training support either through the EAC or by providing 
        funding to States to assist with their training programs.
                                 ______
                                 
      Congressional Task Force on Election Security, Final Report
                              January 2018
    The document is retained in committee files and is available at: 
https://democrats-homeland.house.gov/sites/
democrats.homeland.house.gov/files/documents/TFESReport.pdf.
                                 ______
                                 
                               H.R. 5011
    The document is retained in committee files and is available at: 
https://www.gpo.gov/fdsys/pkg/BILLS-115hr5011ih/pdf/BILLS-
115hr5011ih.pdf.
                                 ______
                                 
                              H. Res. 235
    The document is retained in the committee files and is available 
at: https://www.congress.gov/bill/115th-congress/house-resolution/
235?r=1.

    Mr. Thompson. H.R. 5011, the Election Security Act, 
currently has over 100 cosponsors, all Democrats. The 
legislation would, among other things, provide on-going support 
to State and local governments to secure election 
infrastructure, instead of addressing election challenges 
crisis to crisis; direct the Department of Homeland Security to 
address the resources it needs to carry out its election 
security responsibilities, and submit a request to Congress, 
and establish mechanisms to ensure that State election 
officials have timely access to actionable threat information.
    I have asked the committee to consider H.R. 5011 and today 
renew my request for consideration of this legislation. Even 
though Congress appropriated some additional funding for DHS 
and the States to improve election security in the fiscal year 
2018 omnibus, it was merely a downpayment of what is required. 
H.R. 5011 would help provide the States with the appropriate 
level of funding.
    Today's other witness, Rhode Island's secretary of state, 
Nellie Gorbea, participated in one of our task force forums in 
October. She provided important insight into the resources the 
Federal Government was making available to States, the 
resources States need to secure election infrastructure, and 
proactive activities she was undertaking at the State level to 
improve election security.
    I am glad that the secretary is here with us today. Again, 
I look forward to her and Under Secretary Kreb's testimony. 
Securing our elections is part and parcel to securing our 
Democracy.
    With that, Mr. Chair, I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 11, 2018
    Under Secretary Krebs, you have taken this job at a critical moment 
for our Nation; however, I am concerned you do not have the support you 
need from the White House. You are responsible for building private-
sector confidence in DHS's information-sharing programs like Automated 
Indicator Sharing, after President Trump toyed with the idea of 
planting an absurd story to discredit it for his own political 
purposes.
    You are responsible for securing Federal networks at a time when 
the White House's National Security Advisor has decided to eliminate 
the National Security Council's cybersecurity coordinator. You are 
responsible for helping secure critical infrastructure networks for a 
White House that would rather save jobs in China than heed the advice 
of the intelligence community on supply chain vulnerabilities. And you 
are responsible for helping State and local governments secure election 
infrastructure following Russia's brazen election meddling efforts in 
2016, which the President has been reluctant to call out and which 
Congressional Republicans, until recently, were content to ignore.
    As we sit here today, President Trump is in Europe complicating 
your mission. Instead of working with our European allies to confront 
Russia--a shared adversary whose attempts to undermine Western 
democratic institutions are growing more and more bold--he is trolling 
them to curry favor with Russian President Vladimir Putin. President 
Trump has said he will address Russia's 2016 election meddling in a 
meeting with Putin, but he has never demonstrated a credible ability to 
confront Putin with our intelligence community's findings. He has 
predicted his meeting with Putin ``may be the easiest,'' so I have no 
reason to believe anything productive will come of it. This President's 
failure to take seriously the threat to our democracy is one of the 
main reasons that we must do effective and thorough oversight in this 
body.
    Although I am pleased that the Majority has finally scheduled 
today's hearing, I am disappointed that the Majority failed to invite a 
full range of stakeholders, including the Election Assistance 
Commission, or hold the hearing at a time when DHS's Federal partners 
were available to participate. It is important to note for the record 
that committee Democrats have been requesting official oversight 
activities on election security since before the 2016 election.
    And in March 2017, after months of inaction by the Republican 
majority, I introduced a Resolution of Inquiry seeking information from 
the Department on its activities related to countering Russian election 
interference in the 2016 Presidential election so we would understand 
how to protect our elections in the future. It was unceremoniously 
rejected along party lines.
    Committee Democrats have written to the Chairman no less than five 
times since August 2016 to request a hearing, briefing, or 
investigation on vulnerabilities to our election infrastructure. We 
have also reiterated these requests on numerous occasions on the 
record. Despite these repeated requests, this committee did not conduct 
a formal hearing or briefing on the topic until April 2018--15 months 
after the intelligence community released its report concluding that 
the Russian government had attempted to interfere in the 2016 elections 
and would attempt to do so again.
    When the Trump administration's six top intelligence officials 
testified before the Senate that Russia was targeting our 2018 
elections, this committee--the committee that prides itself on acting 
in the wake of current issues--followed suit of the House Republican 
Conference by shirking its responsibility to act on this urgent threat.
    Ranking Members of the Oversight and Government Reform Committee, 
the Foreign Affairs Committee, Judiciary Committee, the Permanent 
Select Committee on Intelligence, the House Armed Services, and the 
House Administration Committee have all urged their Chairs or Speaker 
Ryan to aggressively address this on-going National security threat. 
Our calls for action were ignored, responded to with a half-hearted 
acknowledgement of the threat and a vague promise for future action, or 
the offer to ask a Government witness about election security at a 
hearing on another topic.
    Because our requests for thorough hearings and briefings were 
denied, some committee Democrats joined with Democrats on the Committee 
on House Administration to form the Congressional Task Force on 
Election Security. I openly asked Republicans to join us and submit 
their ideas, yet no Republican Member provided their input or attended 
the task force's public events.
    After studying the topic for 8 months, meeting with stakeholders, 
and holding a series of forums and briefings, the Task Force produced a 
report and introduced legislation to implement the recommendations. 
H.R. 5011, the Election Security Act, currently has over 100 co-
sponsors--all Democrats. The legislation would, among other things:
  <bullet> provide on-going support to State and local governments to 
        secure election infrastructure, instead of addressing election 
        challenges crisis-to-crisis;
  <bullet> direct the Department of Homeland Security to assess the 
        resources it needs to carry out its election security 
        responsibilities and submit a request to Congress; and
  <bullet> establish mechanisms to ensure that State election officials 
        have timely access to actionable threat information.
    I have asked this committee to consider H.R. 5011, and today renew 
my request for consideration of this legislation. Even though Congress 
appropriated some additional funding for DHS and the States to improve 
election security in the fiscal year 2018 omnibus, it was merely a 
down-payment on what is required. H.R. 5011 would help provide the 
States with the appropriate level of funding.
    Today's other witness, Rhode Island Secretary of State Nellie 
Gorbea, participated in one of our Task Force forums in October. She 
provided important insight into the resources the Federal Government 
was making available to States, the resources States need to secure 
election infrastructure, and proactive activities she was undertaking 
at the State level to improve election security. I am glad that 
Secretary Gorbea is here with us again today, and I look forward to her 
and Under Secretary Krebs' testimony. Securing our elections is part 
and parcel to securing our democracy.

    Chairman McCaul. The Ranking Member yields back.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Hon. Jackson Lee follows:]
                  Statement of Hon. Sheila Jackson Lee
                             July 11, 2018
    Chairman McCaul and Ranking Member Thompson thank you for holding 
today's hearing so that the committee may learn more about ``DHS 
Progress in Security Election Systems and Other Critical 
Infrastructure.''
    I thank today's witnesses:
  <bullet> The Honorable Christopher Krebs, Under Secretary, National 
        Protection and Programs Directorate with the Department of 
        Homeland Security; and
  <bullet> The Honorable Nellie Gorbea, Secretary of State, State of 
        Rhode Island.
    I thank each of you for bringing your expert view of the cyber 
threats against our Nation's system of elections and other matters 
regarding the security of critical infrastructure.
    The House Committee on Homeland Security has the responsibility of 
providing for the cybersecurity of Federal civilian agencies as well as 
the to secure the Nation's 16 critical infrastructure sectors from 
cyber and other threats.
    On January 6, 2017, Homeland Security Secretary Johnson designated 
election systems as critical infrastructure, and created a new 
subsector under the existing Government Facilities Sector designation.
    The Election Infrastructure Subsector covers a wide range of 
physical and electronic assets such as storage facilities, polling 
places, and centralized vote tabulation locations used to support the 
election process, and information and communications technology to 
include voter registration databases, voting machines, and other 
systems to manage the election process and report and display results 
on behalf of State and local governments.
    The process established for contacting and working with local and 
State elections administrators seems to be working well.
    The work to secure our Nation's election system from cyber threats 
is on-going, which is why this hearing is relevant.
    The U.S. Department of Homeland Security's (DHS) mission in 
cybersecurity and infrastructure protection is focused on enhancing 
greater collaboration on cybersecurity across the 16 critical 
infrastructure sectors and the sharing of cyber threat information 
between the private sector and Federal, State, and local partners.
    I thank Ranking Member Thompson for his leadership in co-chairing 
the Congressional Task Force on Election Security, which issued a 
report earlier this year which outlined areas of concern regarding the 
security of election systems.
    Leader Pelosi convened the Task Force after waiting a year for the 
leadership of the House to investigate Russian interference in the 2016 
U.S. Elections.
    We know the threats that computing devices and systems face, which 
are almost too numerous to count:
  <bullet> Bot-nets;
  <bullet> Ransom-ware;
  <bullet> Zero Day Events;
  <bullet> Mal-ware;
  <bullet> Denial of Service Attacks;
  <bullet> Distributed Denial-of-Service Attacks;
  <bullet> Pharming;
  <bullet> Phishing;
  <bullet> Data Theft;
  <bullet> Data Breaches;
  <bullet> SQL Injection;
  <bullet> Man-in-the-middle attack.
    The list goes on, but suffice it to say that as hard as one person 
in our Government is working to stop cyber attacks there are likely 
another thousand attempting to breach a system or device owned by a 
United States citizen.
    This is why I introduced H.R. 3202, the Cyber Vulnerability 
Disclosure Reporting Act, which passed the House earlier this year.
    The bill requires the Secretary of Homeland Security to submit a 
report on the policies and procedures developed for coordinating cyber 
vulnerability disclosures.
    The report will include an annex with information on instances in 
which cybersecurity vulnerability disclosure policies and procedures 
were used to disclose details on identified weaknesses in computing 
systems that or digital devices at risk.
    The report will provide information on the degree to which the 
information provided by DHS was used by industry and other 
stakeholders.
    The report may also contain a description of how the Secretary of 
Homeland Security is working with other Federal entities and critical 
infrastructure owners and operators to prevent, detect, and mitigate 
cyber vulnerabilities.
    The reason that I worked to bring this bill before the full House 
for consideration is the problem often referred to as a ``Zero Day 
Event.''
    A Zero Day Event describes the situation that network security 
professionals may find themselves when a previously unknown error or 
flaw in computing code is exploited by a cybercriminal or terrorist.
    The term ``Zero Day Event'' simply means that there is zero time to 
prepare a defense against a cyber attack.
    When a defect in software is discovered then network engineers and 
software companies can work to develop a ``patch'' to fix the problem 
before it can be exploited by those who may seek to do harm.
    H.R. 3202 seeks a report on the on-going Department of Homeland 
Security's policies and procedures for coordinating cyber vulnerability 
disclosures such as Zero Day Events with private-sector partners.
    Because vulnerabilities can be used by adversaries it is important 
that this sensitive information be managed securely so details are not 
routinely made available neither to the public nor to Congress.
    H.R. 3202 provides the Congress with the opportunity to understand 
the process and procedures used by the Department of Homeland Security 
and the benefit these disclosures may have for private-sector entities 
participating in programs in support of cybersecurity.
    During the 2016 election we learned of new threats from cyber space 
that go far beyond any that would have been considered in previous 
elections.
    Russia targeted our Presidential Election according to the report, 
``Background to Assessing Russian Activities and Intentions in Recent 
U.S. Elections: The Analytic Process and Cyber Incident Attribution,'' 
provided by the Office of the Director of National Intelligence's 
National Intelligence Council.
    Russia used every cyber espionage tool available to influence the 
outcome of the Presidential election by using a multi-faceted campaign 
that included theft of data; strategically timed release of stolen 
information; production of fake news; and manipulation of facts to 
avoid blame.
    The Russian General Staff Main Intelligence Directorate (GRU) is 
suspected by our intelligence agencies of having begun cyber operations 
targeting the United States election as early as March 2016.
    They took on the persona of ``Guccifer 2.0,'' ``DCLeaks.com,'' and 
Wikileaks as the identities that would be reported as having 
involvement in the work they had undertaken to undermine our Nation's 
Presidential election.
    Russia is blamed for breaching 21 local and State election systems, 
which they studied extensively.
    In February 2018, special counsel Robert Mueller released 
indictments of 13 Russians, at least one of whom has direct ties to 
Russian President Vladimir Putin.
    The 37-page indictment details the actions taken to interfere with 
the U.S. political system, including the 2016 U.S. Presidential 
election.
    Among the charges, which include charges for obstruction of 
justice, are several especially notable details.
    The indictment states that 13 defendants posed as U.S. persons and 
created false U.S. personas and operated social media pages and groups 
designed to attract U.S. audiences.
    The social media profiles ``addressed divisive U.S. political and 
social issues'' and falsely claimed to be controlled by U.S. activists.
    The defendants are also accused of using ``the stolen identities of 
real U.S. persons to post on social media accounts'' which, over time, 
became the chosen ``means to reach significant numbers of Americans for 
purposes of interfering with the U.S. political system, including the 
Presidential election of 2016.''
    The goal of the effort was to sow discord in the U.S. political 
system, including the 2016 U.S. Presidential election.
    The internet does not sleep--and nor do our Nation's on-line 
adversaries.
    That Russia used cyber intrusions to attack United States political 
institutions to collect data to manipulate the media and the public 
with the purpose of influencing the outcome of the 2016 Presidential 
elections is now an undisputed fact.
    The United States has enemies in other corners of the globe who 
would not hesitate to attack our election system if given the chance.
    These foreign adversaries do not share our commitment to democracy, 
liberty, and human rights, or the precious freedoms we hold dear.
    This Congress must do its job and delve into the issue of Russian 
involvement in our National election.
    The work today must focus on election recovery should a serious 
cyber incident occur during an election.
    Vulnerabilities of computing systems are not limited to intentional 
attacks, but can include acts of nature, human error, or technology 
failing to perform as intended.
    I am particularly concerned that so many jurisdictions rely on 
electronic poll books, to check in voters before issuing them ballots, 
with no paper backups; and the use of paperless electronic voting 
machines without sufficient paper ballot options in polling locations 
should they be needed.
    The right and better approach to election cybersecurity is to be 
prepared and not need options for voters to cast ballots, should voting 
systems fail, rather than being unprepared and needing options for 
voters to cast ballots during an election.
    We must be steadfast in our resolve to have a strong shield to 
defend civilian and critical infrastructure networks for all threats 
foreign and domestic.
    I look forward to the testimony of today's witnesses.
    Thank you.

    Chairman McCaul. Just for the record, we had the Secretary 
testify before this committee, it was openly available on this 
topic. We had a Classified briefing for all House members on 
election security.
    We have been waiting for Under Secretary Krebs to get 
confirmed by the Senate, and, sir, we just congratulate on your 
confirmation by the U.S. Senate. We are fortunate, now, to have 
you here today to talk about this issue. I also think that the 
administration is going to be well-served by you, sir, and they 
are lucky to have you.
    On June 15, 2018, Chris Krebs was sworn in as the under 
secretary for the Department of Homeland Security's National 
Protection and Programs Directorate after being confirmed by 
the Senate by a voice vote. As under secretary, Mr. Krebs 
oversees NPPD's efforts to defend civilian networks, secure 
Federal facilities, manage systemic risk to National critical 
functions, and work with stakeholders to raise the security 
baseline of the Nation's cyber and physical infrastructure.
    This is his second tour working at DHS, previously serving 
as a senior advisor to the assistant secretary for 
infrastructure protection and playing a formative role in a 
number of National and international risk management programs. 
I appreciate your leadership in both the private and the public 
sectors, sir. Thank you for being here.
    I now would like to yield to Mr. Langevin from Rhode Island 
to introduce the Rhode Island secretary of state.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Thompson for reaching out to me to 
facilitate inviting Rhode Island Secretary of State Nellie 
Gorbea here to the committee for--to hear her testimony and the 
progress she has made in securing election--Rhode Island's 
election systems.
    Before I introduce Secretary Gorbea, I just want to take a 
moment to publicly congratulate Secretary Krebs on his finally 
being confirmed, officially. We had a brief conversation and 
wanted to publicly, again, congratulate you, Secretary. I 
appreciate the on-going relationship and work that you and I 
have done together, and discussions we have had on election and 
cybersecurity, in particular election security. I hope that 
dialog can continue in our working together.
    But Mr. Chairman and Ranking Member Thompson, very proud, 
today, to be honored--to be able to recognize and welcome 
Nellie Gorbea, Rhode Island's secretary of state, to the panel, 
today.
    Secretary Gorbea has helped position the Ocean State as a 
leader in election security. Under her direction, Rhode Island 
replaced all of its two-decades-old voting equipment prior to 
the 2016 election with new paper ballot systems. Following the 
2016 elections, Secretary Gorbea has taken all the steps that 
we need--that we would hope for States to take to better secure 
their elections systems.
    She has emphasized proper I.T. staffing and training, 
solicited help from the Election Assistance Commission and from 
DHS and proactively exchanged information with peers through 
the Multi-State ISAC, Elections Infrastructure ISAC, and the 
National Association of Secretaries of State.
    Now, with the help of Federal grants appropriated by this 
Congress, Secretary Gorbea is directing the overhaul of Rhode 
Island's voter registration database, initiating local level 
grants to increase security and implementing the country's 
second mandatory post-election risk limiting audit process. 
Just as importantly, Secretary Gorbea has implemented reforms 
to increase voter access to the polls in Rhode Island, 
including on-line and automated voter registration.
    Secretary Gorbea, thank you for making the trip down from 
Rhode Island to here, today, with us. Thank you for your on-
going efforts to expand Rhode Island's access to the polls, and 
to prevent foreign adversaries' access to the same.
    Mr. Chairman, this is a position that I once held as Rhode 
Island secretary of state. I am very proud and grateful for the 
leadership that Secretary Gorbea has continued to provide and 
has, certainly, exceeded even things that I have accomplished 
when I was there, and I am very proud of what she has done. I 
hope you and all of our colleagues take the opportunity to ask 
the secretary about her successes and how Rhode Island's 
leadership can be a model for other States to follow.
    Thank you, Mr. Chairman. With that, I yield back.
    Chairman McCaul. The gentleman yields back. Thank you, 
both, for being here today. Your full written statements will 
appear in the record.
    The Chair now recognizes Under Secretary Krebs for an 
opening statement.

 STATEMENT OF CHRISTOPHER C. KREBS, UNDER SECRETARY, NATIONAL 
    PROTECTION AND PROGRAMS DIRECTORATE, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Under Secretary Krebs. Chairman McCaul, Ranking Member 
Thompson, and Members of the committee, thank you for today's 
opportunity to testify regarding the Department of Homeland 
Security's on-going efforts to assist State and local election 
officials, those who own and operate election systems, with 
improving the resilience of election security across America.
    Today's hearing is timely as primary elections are, 
generally, complete. Election officials now have some time to 
reflect and get ready for the November mid-term elections. In 
fact, later this week, our leadership team at DHS will meet 
with election officials as they gather in Philadelphia for 
their National summer conference.
    It is not lost on me that we will discuss defending our 
democratic institutions and the very cradle of democracy, the 
city that birthed this great Nation. The 2018 mid-terms remain 
a potential target for Russian actors, but the intelligence 
community has yet to see any evidence of a robust campaign 
aimed at tampering with our election infrastructure along the 
lines of 2016 or influencing the makeup of the House or Senate 
races.
    The intelligence community, however, continues to see 
Russia using social media flag--false flag personas, 
sympathetic spokesmen, and other means to influence or inflame 
positions on opposite ends of controversial issues. These 
efforts appear to be more focused on dividing rather than 
targeting specific politicians or political candidates. 
Nonetheless, we remain vigilant and any attempt to undermine 
our democracy will be met with consequences. In the mean time, 
we will continue to work with our election partners to 
strengthen the resilience of our election systems.
    As I have traveled across the country during primary 
season, it is clear to me that secretaries of state and other 
election officials are not sitting back; they take 
cybersecurity and security in general seriously. Our mission at 
DHS is to help our stakeholders better understand and manage 
the risks they face.
    Through concerted efforts, in part by building 
relationships, establishing trust, and understanding what it is 
that our stakeholders need to manage their risks, we have made 
significant progress over the last year-and-a-half. Working 
with State and local election officials, as well as with 
private-sector partners who support them, we have created 
Government and private-sector councils who, collaboratively, 
work to share information, promote best practices, and develop 
strategies to reduce risk to the Nation's election systems.
    We have also created the Election Infrastructure 
Information Sharing and Analysis Center, or ISAC, made up of 
over 1,000 members in just under 5 months, including all 50 
States. We are also sponsoring security clearances for multiple 
election officials in each State. We have increased the 
availability and deployment of free technical services.
    We have also offered cybersecurity and physical security 
training and exercises and later this summer, we will have a 3-
day tabletop exercise with all States involved. Our suite of 
services will continue to mature as the requirements identified 
by our election stakeholders mature.
    We understand that the only way to deliver a resilient 
election system is to work, collaboratively, with those 
election--with those officials on the front lines running the 
process. Our work to secure election officials--I am sorry--to 
secure election infrastructure is part of my directorate's 
broader mission to secure all of our Nation's critical 
infrastructure.
    We are responsible for coordinating the overall Federal 
effort to promote the security and resilience of the Nation's 
critical infrastructure. As we confront--confront threats posed 
by a range of capable adversaries, DHS remains focused on 
ensuring National unity of effort. It is critical that we 
combine the unique expertise of the intelligence community, law 
enforcement, sector-specific agencies, and others, to provide 
an integrated approach to risk management across our Nation's 
critical infrastructure.
    Rarely is a cyber event sector-specific. Our adversaries 
target systems that are cross-sector and the growing 
interdependencies across sectors demand this integrated 
approach. Accordingly, DHS serves as information and operations 
integrator focused on delivering cross-sector public-private 
risk management strategies to enhance the resilience of our 
Nation's infrastructure.
    Before I conclude, I would like to take a moment to thank 
Congress and this committee in particular for legislative 
progress thus far in strengthening DHS's cybersecurity and 
critical infrastructure authorities. Specifically, we strongly 
support final passage of legislation to create the 
Cybersecurity and Infrastructure Security Agency, SISA, at DHS 
which would rename and reorganize the National Protection and 
Programs Directorate. This change reflects the important work 
we carry out every day to safeguard and secure our critical 
infrastructure.
    Thank you and I look forward to your questions.
    [The prepared statement of Secretary Krebs follows:]
               Prepared Statement of Christopher C. Krebs
                             July 11, 2018
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for today's opportunity to testify regarding the 
U.S. Department of Homeland Security's (DHS) on-going efforts to assist 
with reducing and mitigating risks to our election infrastructure. DHS 
is eager to share with you the progress we have made to establish 
trust-based partnerships with our Nation's election officials who 
administer our democratic election processes.
    Safeguarding and securing cyber space is a core homeland security 
mission. DHS is responsible for protecting civilian Federal Government 
networks and collaborating with other Federal agencies, as well as 
State, local, Tribal, and territorial governments, and the private 
sector to defend against cyber threats. We endeavor to enhance cyber 
threat information sharing across the globe to stop cyber incidents 
before they start and help businesses and Government agencies to 
protect their cyber systems and quickly recover should such an attack 
occur. By bringing together all levels of government, the private 
sector, international partners, and the public, we are taking action to 
protect against cybersecurity risks, improve our whole-of-Government 
incident response capabilities, enhance information sharing of best 
practices and cyber threats, and to strengthen resilience.
    Recognizing that the 2018 U.S. mid-term elections are a potential 
target for malicious cyber activity, DHS is committed to robust 
engagement with State and local election officials, as well as private-
sector entities, to assist them with defining their risk, and providing 
them with information and capabilities that enable them to better 
defend their infrastructure.
    Given the foundational role that elections play in a free and 
democratic society, in January 2017 the Secretary of Homeland Security 
designated election infrastructure as a critical infrastructure 
subsector. Under our system of laws, Federal elections are administered 
by State and local election officials in thousands of jurisdictions 
across the country. These officials manage election infrastructure and 
ensure its security and resilience on a day-to-day basis.
    As such, DHS and our Federal partners have formalized the 
prioritization of voluntary cybersecurity assistance for election 
infrastructure similar to that which is provided to a range of other 
critical infrastructure entities, such as financial institutions and 
electric utilities.
    Since 2016, DHS's National Protection and Programs Directorate 
(NPPD) has convened Federal Government and election officials regularly 
to share cybersecurity risk information and to determine an effective 
means of assistance. The Election Infrastructure Subsector (EIS) 
Government Coordinating Council (GCC) has worked to establish goals and 
objectives, including plans for EIS engagement and the establishment of 
a sector-specific plan (SSP). GCC representatives include DHS, the 
Election Assistance Commission (EAC), and 24 State and local election 
officials. Participation in the council is entirely voluntary and does 
not change the fundamental role of State and local jurisdictions in 
overseeing elections.
    The Department and the EAC worked with election industry 
representatives to launch an industry-led Sector Coordinating Council 
(SCC), a self-organized, self-run, and self-governed council with 
leadership designated by the sector membership. The SCC serves as 
industry's principal entity for coordinating with the Government on 
critical infrastructure security activities and issues related to 
sector-specific strategies and policies. This collaboration is 
conducted under DHS's authority to provide a forum in which Government 
and private-sector entities can jointly engage in a broad spectrum of 
activities to coordinate critical infrastructure security and 
resilience efforts which is used in each of the critical infrastructure 
sectors established under Presidential Policy Directive 21, Critical 
Infrastructure Security and Resilience. The process is a well-tested 
mechanism across critical infrastructure sectors for sharing threat 
information among the Federal Government and critical infrastructure 
partners, advancing risk management efforts, and prioritizing services 
available to sector partners in a trusted environment.
    NPPD also engages directly with election officials--coordinating 
requests for assistance, risk mitigation, information sharing, and 
incident coordination, resources, and services. In order to ensure a 
coordinated approach from the Federal Government, NPPD has convened 
stakeholders from across the Federal Government through an Election 
Task Force. The task force serves to provide actionable information and 
offer assistance to assist election officials with strengthening their 
election infrastructure by reducing and mitigating cyber risk, and 
increasing resilience of their processes.
    Within the context of today's hearing, I will address the 
unclassified assessment of malicious cyber operations directed against 
U.S. election infrastructure and our efforts to help enhance the 
security of elections that are administered by jurisdictions around the 
country.
                enhancing security for future elections
    DHS regularly coordinates with the intelligence community and law 
enforcement partners on potential threats to the homeland. Among non-
Federal partners, DHS has been engaging State and local officials, as 
well as relevant private-sector entities, to assess the scale and scope 
of malicious cyber activity potentially targeting the U.S. election 
infrastructure. Election infrastructure includes the information and 
communications technology, capabilities, physical assets, and 
technologies that enable the registration and validation of voters; the 
casting, transmission, tabulation, and reporting of votes; and the 
certification, auditing, and verification of elections.
    DHS is committed to ensuring a coordinated response from DHS and 
its Federal partners to plan for, prepare for, and mitigate risk to 
election infrastructure. We understand that working with election 
infrastructure stakeholders is essential to ensuring a more secure 
election. DHS and our stakeholders are increasing awareness of 
potential vulnerabilities and providing capabilities to enhance the 
security of U.S. election infrastructure as well as that of our 
democratic allies.
    Election officials across the country have a long-standing history 
of working both individually and collectively to reduce risks and 
ensure the integrity of their elections. In partnering with these 
officials through both new and on-going engagements, DHS is working to 
provide value-added--yet voluntary--services to support their efforts 
to secure elections.
    Improving Coordination with State, local, Tribal, Territorial 
(SLTT) and private-sector partners.--Increasingly, the Nation's 
election infrastructure leverages information technology (IT) for 
efficiency and convenience, but also exposes systems to cybersecurity 
risks, just like in any other enterprise environment. Just like with 
other sectors, NPPD helps stakeholders in Federal departments and 
agencies, SLTT governments, and the private sector to manage these 
cybersecurity risks. Consistent with our long-standing partnerships 
with State and local governments, we have been working with election 
officials to share information about cybersecurity risks, and to 
provide voluntary resources and technical assistance.
    The National Cybersecurity and Communications Integration Center 
(NCCIC) works with the MS-ISAC to provide threat and vulnerability 
information to State and local officials. For nearly a decade, DHS has 
funded the Multi-State Information Sharing and Analysis Center (MS-
ISAC), which has since created the EI-ISAC, to enable its members to 
share cybersecurity information and collaborate with each other. The 
EI-ISAC's membership includes almost 1,000 SLTT election-specific 
entities. Through the MS-ISAC, it has representatives co-located with 
the NCCIC to enable regular collaboration and access to information and 
services for State chief information officers.
    Providing Technical Assistance and Sharing Information. NPPD 
actively promotes a range of services including:
    Cyber hygiene service for internet-facing systems.--Through this 
automated, remote scan, NPPD may provide a report identifying 
vulnerabilities and mitigation recommendations to improve the 
cybersecurity of systems connected to the internet, such as on-line 
voter registration systems, election night reporting systems, and other 
internet-connected election management systems.
    Risk and vulnerability assessments.--We have prioritized State and 
local election systems upon request, and increased the availability of 
risk and vulnerability assessments (RVAs). These in-depth, on-site 
evaluations include a system-wide understanding of vulnerabilities, 
focused on both internal and external systems. We provide a full report 
of vulnerabilities and recommended mitigations following the testing.
    Incident response assistance.--We encourage election officials to 
report suspected malicious cyber activity to the NCCIC. Upon request, 
the NCCIC can provide assistance in identifying and remediating a cyber 
incident. Information reported to the NCCIC is also critical to the 
Federal Government's ability to broadly assess malicious attempts to 
infiltrate election systems. This technical information will also be 
shared with other State officials so they have the ability to defend 
their own systems from similar malicious activity.
    Knowing what to do when a security incident happens--whether 
physical or cyber--before it happens, is critical. NPPD supports 
election officials with incident response planning including 
participating in exercises and reviewing incident response playbooks. 
Crisis communications are a core component of these efforts, ensuring 
officials are able to communicate transparently and authoritatively to 
their constituents when an incident unfolds. In some cases, we do this 
directly with State and local jurisdictions. In others, we partner with 
outside organizations. We recognize that securing our Nation's systems 
is a shared responsibility, and we are leveraging partnerships to 
advance that mission.
    Information sharing.--NPPD maintains numerous platforms and 
services to share relevant information on cyber incidents. State 
election officials may also receive information directly from the 
NCCIC. The NCCIC also works with the EI-ISAC, which allows election 
officials to connect with the EI-ISAC or their State chief information 
officer to rapidly receive information they can use to protect their 
systems. Best practices, cyber threat information, and technical 
indicators, some of which had been previously Classified, have been 
shared with election officials in thousands of State and local 
jurisdictions. In all cases, the information sharing and/or use of such 
cybersecurity risk indicators, or information related to cybersecurity 
risks and incidents complies with applicable lawful restrictions on its 
collection and use and with DHS policies protective of privacy and 
civil liberties.
    Classified information sharing.--To most effectively share 
information with all of our partners--not just those with security 
clearances--we work with the intelligence community to rapidly 
declassify relevant intelligence or provide tearlines. While DHS 
prioritizes declassifying information to the extent possible, we also 
provide Classified information to cleared stakeholders, as appropriate. 
DHS has been working with State chief election officials and additional 
election staff in each State to provide them with security clearances. 
By working with ODNI and the Federal Bureau of Investigation (FBI), in 
February 2018 election officials from each State received 1-day read-
ins for a Classified threat briefing while they were in Washington, DC. 
This briefing demonstrated our commitment to ensuring election 
officials have the information they need to understand the threats they 
face.
    Field-based cybersecurity advisors and protective security 
advisors.--NPPD has more than 130 cybersecurity and protective security 
personnel available to provide actionable information and connect 
election officials to a range of tools and resources to improve the 
cybersecurity preparedness of election systems; and to secure the 
physical site security of voting machine storage and polling places. 
These advisors are also available to assist with planning and incident 
management for both cyber and physical incidents.
    Physical and protective security tools, training, and resources.--
NPPD provides guidance and tools to improve the security of polling 
sites and other physical election infrastructure. This guidance can be 
found at www.dhs.gov/hometown-security. This guidance helps to train 
administrative and volunteer staff on identifying and reporting 
suspicious activities, active-shooter scenarios, and what to do if they 
suspect an improvised explosive device.
                election security efforts moving forward
    DHS has made tremendous strides and is committed to working 
collaboratively with those on the front lines of administering our 
elections to secure election infrastructure from risks. The 
establishment of Government and sector-coordinating councils will build 
the foundations for this enduring partnership not only in 2018, but for 
future elections as well. We will remain transparent as well as agile 
in combating and securing our physical and cyber infrastructure. 
However, we recognize that there are significant technology needs 
across SLTT governments, and State and local election systems, in 
particular. It will take significant and continual investment to ensure 
that election systems across the Nation are upgraded and secure, with 
vulnerable systems retired. These efforts require a whole-of-Government 
approach. The President and this administration are committed to 
addressing these risks.
    There is a fundamental link between public trust in our election 
infrastructure and the confidence the American public places in basic 
democratic functions. Ensuring the security of our electoral process is 
a vital National interest and one of our highest priorities. Our voting 
infrastructure is diverse, subject to local control, and has many 
checks and balances. As the threat environment evolves, we will 
continue to work with Federal agencies, State and local partners, and 
private-sector entities to enhance our understanding of the threat; and 
to make essential physical and cybersecurity tools and resources 
available to the public and private sectors to increase security and 
resiliency.
                        national risk management
    In addition to addressing election security, we coordinate the 
overall Federal effort to promote the security and resilience of the 
Nation's critical infrastructure, and is responsible for administering 
the implementation of Federal Government cybersecurity policies and 
practices. Cyber threats remain one of the most significant strategic 
risks for the United States, threatening our National security, 
economic prosperity, and public health and safety. We have long been 
confronted with myriad attacks against our digital networks. Americans 
have seen advanced persistent threat actors, including hackers, cyber 
criminals, and nation-states, increase the frequency and sophistication 
of these attacks. Our adversaries have been developing and using 
advanced cyber capabilities to undermine critical infrastructure, 
target our livelihoods and innovation, steal our National security 
secrets, and threaten our democracy.
    Global cyber incidents, such as the ``WannaCry'' ransomware 
incident and the ``NotPetya'' malware incident in May and June 2017, 
respectively, are examples of malicious actors leveraging cyber space 
to create disruptive effects and cause economic loss. These incidents 
exploited known vulnerabilities in software commonly used across the 
globe. Prior to these events, NPPD had already taken actions to help 
protect networks from similar types of attacks. Through requested 
vulnerability scanning, we helped stakeholders identify vulnerabilities 
on their networks so they could be patched before incidents and attacks 
occur. Recognizing that not all users are able to install patches 
immediately, we shared additional mitigation guidance to assist network 
defenders. As the incidents unfolded, we led the Federal Government's 
incident response efforts, working with our interagency partners, 
including providing situational awareness, information sharing, malware 
analysis, and technical assistance to affected entities.
    In a series of incidents since at least May of last year, working 
with U.S. and international partners, DHS and FBI have identified 
Russian government actors targeting Government entities and businesses 
in the energy, nuclear, water, aviation, and critical manufacturing 
sectors. DHS assesses that this campaign ultimately collected 
information pertaining to industrial control systems with the intent to 
gain access to industrial control systems environments. The intrusions 
have been comprised of two distinct categories of victims: Staging and 
intended targets. In other words, through the Department's incident 
response actions, we have observed this advanced persistent threat 
actor target certain entities that then become pivot points, leveraging 
existing relationships between the initial victim and the intended 
targets to hide their activity, as part of a multi-stage intrusion 
campaign to gain access to networks of major, high-value assets that 
operate components of our Nation's critical infrastructure. Based on 
our analysis and observed indicators of compromise, DHS has confidence 
that this campaign is still on-going, and threat actors are actively 
pursuing their ultimate long-term campaign objectives. DHS and the FBI 
have published a joint technical alert to enable network defenders to 
identify and take action to reduce exposure to this malicious activity.
                        cybersecurity priorities
    This administration has prioritized protecting and defending our 
public and economic safety from the range of threats that exist today, 
including those emanating from cyber space. Last year, the President 
signed Executive Order 13800, Strengthening the Cybersecurity of 
Federal Networks and Critical Infrastructure. This Executive Order set 
in motion a series of assessments and deliverables to understand how to 
improve our defenses and lower our risk to cyber threats. This order 
also emphasized the importance of accountability--clarifying that 
Department and agency heads are responsible and will be held 
accountable for the security of their networks and systems. NPPD plays 
an important role in providing capabilities, services, and direction to 
Federal agencies.
    Across the Federal Government, agencies have been implementing 
action plans to use the industry-standard National Institute of 
Standards and Technology (NIST) Cybersecurity Framework. Agencies are 
reporting to DHS and the Office of Management and Budget (OMB) on their 
cybersecurity risk mitigation and acceptance choices. In coordination 
with OMB, DHS is evaluating the totality of these Agency reports in 
order to comprehensively assess the adequacy of the Federal 
Government's overall cybersecurity risk management posture.
    Although Federal agencies have primary responsibility for their own 
cybersecurity, DHS provides a common set of security tools that helps 
agencies manage their cyber risk. NPPD's assistance to Federal agencies 
includes: (1) Providing tools to safeguard civilian Executive branch 
networks through the National Cybersecurity Protection System (NCPS), 
which includes ``EINSTEIN'' and Continuous Diagnostics and Mitigation 
(CDM) programs, (2) measuring and motivating agencies to implement 
policies, directives, standards, and guidelines, (3) serving as a hub 
for information sharing and incident reporting, and (4) providing 
operational and technical assistance, including threat information 
dissemination and risk and vulnerability assessments, as well as 
incident response services. The NCCIC is the civilian government's hub 
for cybersecurity information sharing, asset incident response, and 
coordination for both critical infrastructure and the Federal 
Government.
    DHS conducts a number of activities to measure agencies' 
cybersecurity practices and works with agencies to improve risk 
management practices. The Federal Information Security Modernization 
Act of 2014 (FISMA) provided the Secretary of Homeland Security with 
the authority to develop and oversee implementation of Binding 
Operational Directives (BOD) to agencies. In May 2018, the Secretary 
issued a BOD to update a previous BOD related to securing High-Value 
Assets--those assets, Federal information systems, information, and 
data for which unauthorized access, use, disclosure, disruption, 
modification, or destruction could cause a significant impact to U.S. 
National security interests, foreign relations, the economy, or to the 
public confidence, civil liberties, or public health and safety of the 
American people.
    NPPD works with interagency partners to prioritize High-Value 
Assets for assessment and remediation activities across the Federal 
Government. For instance, we conduct security architecture reviews on 
these High-Value Assets to help agencies assess their network 
architecture and configurations. The updated BOD enhances NPPD's 
approach to conducting these engagements to provide agencies with 
improved results and finding by expanding system scope, refining 
assessment methodologies, and using less-constratined penetration 
testing approaches to resemble tactics, techniques, and procedures used 
by advanced threat actors attempting to gain unauthorized access.
    As part of the effort to secure High-Value Assets, DHS conducts in-
depth vulnerability assessments of prioritized agency these assets to 
determine how an adversary could penetrate a system, move around an 
agency's network to access sensitive data, and exfiltrate such data 
without being detected. These assessments include services such as 
penetration testing, wireless security analysis, and ``phishing'' 
evaluations in which DHS hackers send emails to agency personnel and 
test whether recipients click on potentially malicious links. DHS has 
focused these assessments on Federal systems that may be of particular 
interest to adversaries or support uniquely significant data or 
services. These assessments provide system owners with recommendations 
to address identified vulnerabilities. DHS provides these same 
assessments, on a voluntary basis upon request, to private-sector and 
State, local, territorial, and Tribal partners. DHS also works with the 
General Services Administration to ensure that contractors can provide 
assessments that align with our HVA initiative to agencies.
    In addition to efforts to protect Government networks, Executive 
Order 13800 requires continued examination of how the Federal 
Government and industry work together to protect our Nation's critical 
infrastructure, prioritizing deeper, more collaborative public-private 
partnerships in threat assessment, detection, protection, and 
mitigation. In collaboration with civilian, defense, and intelligence 
agencies, we have worked to identify authorities and capabilities that 
agencies could employ, soliciting input from the private sector, and 
developed recommendations to support the cybersecurity efforts of those 
critical infrastructure entities at greatest risk of attacks that could 
result in catastrophic impacts.
    As part of this effort, DHS is establishing a program office to 
strengthen support to such entities and improve coordination of 
interagency support. Through the program office, we will coordinate 
with Federal and non-Federal partners to enhance access to Classified 
information, improve incident communication and coordination, and 
improve cross-sector information sharing, among other efforts.
                               conclusion
    In the face of increasingly sophisticated threats, DHS employees 
stand on the front lines of the Federal Government's efforts to defend 
our Nation's critical infrastructure from natural disasters, terrorism 
and adversarial threats, and technological risk such as those caused by 
cyber threats. Our infrastructure environment today is complex and 
dynamic with interdependencies that add to the challenge of securing 
and making it more resilient. Technological advances have introduced 
the ``Internet of Things'' and cloud computing, offering increased 
access and streamlined efficiencies, while increasing our footprint of 
access points that could be leveraged by adversaries to gain 
unauthorized access to networks. As our Nation continues to evolve and 
new threats emerge, we must integrate cyber and physical risk in order 
to understand how to effectively secure it. Expertise around cyber-
physical risk and cross-sector critical infrastructure 
interdependencies is where NPPD brings unique expertise and 
capabilities.
    We must ensure that NPPD is appropriately organized to address 
cybersecurity threats both now and in the future, and we appreciate 
this committee's leadership in working to establish the Cybersecurity 
and Infrastructure Security Agency. As the committee considers these 
issues, we are committed to working with Congress to ensure that this 
effort is done in a way that cultivates a safer, more secure, and 
resilient homeland.
    Thank you for the opportunity to appear before the committee today, 
and I look forward to your questions.

    Chairman McCaul. Thank you under secretary and I look 
forward to working with you to make sure the Senate passes 
SISA. I think it is important not only to protecting all 16 
critical infrastructures but also our election system.
    Chair now recognizes the Secretary of State Gorbea for an 
opening statement. Do you have a microphone?

  STATEMENT OF NELLIE M. GORBEA, SECRETARY OF STATE, STATE OF 
                          RHODE ISLAND

    Ms. Gorbea. Good morning and thank you, Chairman McCaul, 
Ranking Member Thompson, and Members of the committee for the 
invitation to participate in this important discussion. I 
commend your committee for holding this hearing to learn more 
about what is being done at the Federal, State, and local 
levels to protect our Nation's election systems and what can be 
done to improve upon this work.
    Advances in technology have brought with them a paradigm 
shift in elections administration. Cybersecurity is at the 
forefront of elections conversations taking place right now at 
every level of government across the country. But before I 
continue, I want to recognize and thank Congressman Jim 
Langevin for his visionary leadership in elections 
administration and his past service as Rhode Island's Secretary 
of State and whose shoulders I definitely stand on as I do the 
work I do today.
    Today Rhode Island, and almost all other States, face new 
challenges that can be summarized as follows.
    First, although this is not currently the case in Rhode 
Island, many elections across our country are being run on 
equipment that is either obsolete or near the end of its useful 
life; second, our public-sector employees and systems of the 
State, county, and municipal levels, are ill-prepared to handle 
the looming threats of cyber attacks.
    Finally, our country is facing a very real threat by 
foreign actors and others looking to erode the public's trust 
in the integrity of our elections. These attacks are real and 
are focused on undermining our representative democracy.
    On behalf of my colleagues who oversee elections across the 
country, I do want to thank you for the $380 million in 
additional Help America Vote Act funds. However, the challenges 
our democracy faces today require an on-going commitment of 
funding so election officials can prepare for threats that were 
nonexistent 5 years ago.
    As these threats involve funding, training and improved 
communications are critical to protecting our democracy. This 
funding should be flexible. After all, actions addressing this 
new landscape of elections and cybersecurity have taken place 
in a variety of ways because elections are organized and run 
differently in every State.
    Having said that, I do believe that our efforts in Rhode 
Island over the past 3 years, offer valuable insight into the 
challenges and opportunities that election officials face in 
this area of increased cyber threats; so, how has Rhode Island 
handled these three challenges I described?
    First, we replaced outdated voting equipment which was on 
the brink of failure. We invested nearly $10 million in new 
paper-based elections equipment that has four layers of 
security and encryption. Federal assistance was important 
throughout all of this process; the election assistance 
commission helped us for example with the RFVs for that 
equipment. While modernizing the electoral process and 
infrastructure, we also leveraged resources offered by the 
Department of Homeland Security under the Critical 
Infrastructure Designation.
    We further protected our central voter registration system. 
For example, recently the Department of Homeland Security 
performed external penetration testing and vulnerability 
scanning to assess any cybersecurity concerns with regards to 
our voter registration system. This risk and vulnerability 
assessment provided my office with areas that needed to be 
improved upon to ensure our system is as secure as possible. We 
also looked to the Rhode Island National Guard to provide us 
with a security analysis of newly-purchased electronic poll 
books during a recent special election.
    Our second challenge is one of building the capacity of the 
public sector to manage and respond to cyber threats and in our 
elections. Some of those services can be outsourced. However, 
we need to make sure that Government owns the ability to 
protect our democracy. In Rhode Island I have increased my 
office's I.T. staff by 40 percent to make sure that we have the 
technical expertise in-house to respond to ever shifting 
landscape of cybersecurity.
    Our work recently received additional help from the Federal 
level. Working with the National Association of Secretaries of 
State, the Department of Homeland Security provided--initiated 
a process for providing two State election officials, like 
myself, with the required security clearance and this has been 
really helpful.
    At this time I do want to also add my congratulations to 
Under Secretary Krebs for his appointment, and I also want to 
recognize the hire at DHS of former Election Assistance 
Commissioner Chairman, Matt Masterson. I believe that really 
strengthens the operations and the ability of DHS to work with 
the States on cybersecurity and elections.
    But building the strength of our election system at the 
State level addresses only part of what is needed. Local 
election officials are literally on the front lines and must 
have the information or resources necessary to identify and 
mitigate the emerging threats.
    For this reason, in Rhode Island, we are members of the 
Election Infrastructure Information Sharing and Analysis 
Center, the EI-ISAC. Soon all cities and towns in Rhode Island 
will be signed up with EI-ISAC which provides election 
officials with cybersecurity resources as well as best 
practices that enhance the overall strength of election 
systems.
    As cyber threats continue to evolve and become more 
sophisticated, States need additional funding and resources 
dedicated to the security of election. These funds have been 
critically needed for strengthening the I.T. capacity within 
Government, developing testing procedures, and undergoing 
third-party assessments.
    Our amount of $3 million is being used to invest in our 
central voter registration database, strengthening of that 
system and--as well as protecting it, and other large portions 
can help us develop our first-ever post-election audit systems 
in Rhode Island. Finally keeping in mind what I said about 
local government, we are to be using part of the $3 million to 
initiate an election assistance--elections administration 
improvement grant program for cities and towns.
    In conclusion, I want to make the following suggestions. 
First, Congress should provide on-going funding to the States 
so that we remain prepared to face any cybersecurity challenge. 
Second, Federal agencies must continue to provide information, 
training, and resources to support the work being done to 
protect our election systems on a State, county, and local 
level.
    Congress can help us by formalizing clear communication 
channels between the levels of government so that we know what 
to expect in the communication of cybersecurity. Finally, 
Congress must also continue to provide active oversight in this 
area that now recognizes the new balance that must be struck 
between the secrecy required for security measures needed to 
safeguard our democracy at the same time as we balance it with 
a transparency and access to information that ensure an open 
government.
    Thank you very much for the opportunity to share my 
thoughts with you on this and my experiences as Rhode Island's 
secretary of state; I look forward to continuing our 
conversation.
    [The prepared statement of Ms. Gorbea follows:]
                 Prepared Statement of Nellie M. Gorbea
                             July 11, 2018
    Thank you, Chairman McCaul and Members of the committee, for the 
invitation to participate in this important discussion of how to best 
address cyber threats to our elections.
    I commend your committee for holding this hearing to learn more 
about what is being done on the Federal, State, and local levels to 
protect our Nation's elections systems and what can be done to improve 
upon this work. The advances in technology have brought with them a 
paradigm shift in elections administration. Addressing cybersecurity in 
elections has become an urgent and relevant matter. Cybersecurity is at 
the forefront of elections conversations taking place right now at 
every level of government across the country.
    Before I continue, I want to recognize my Congressman, Jim 
Langevin, for his visionary leadership in elections administration in 
his past service as Rhode Island's Secretary of State. Two decades ago, 
then-Secretary Langevin led Rhode Island's early adoption of voting 
technology that replaced the ancient mechanical Shoup Lever voting 
machines with paper-based optical scanners.
    In Rhode Island, we are proud of our role as an innovator in 
elections technology. In 1936, for example, Rhode Island was the first 
State to use voting machines at every polling place across the State, 
not just in major cities, as had been the practice at that time across 
the country.
    As Secretary of State, I am building on that legacy of innovation 
and excellence despite the significant challenges that my State and 
almost all other States face. These challenges can be summarized as 
follows:
    1. First, although this is not currently the case in Rhode Island, 
        many elections across our country are being run on equipment 
        that is either obsolete or near the end of its useful life.
    2. Second, our public-sector employees and systems at the State, 
        county, and municipal levels are ill-prepared to handle the 
        looming threat of cyber attacks.
    3. Finally, our country is facing a very real threat presented by 
        foreign actors and others who are conducting activities that 
        serve to erode the public's trust in the integrity of our 
        elections. These attacks are real and are focused on 
        undermining our representative democracy.
    Congress recently took an important step to help us address these 
challenges by providing $380 million for elections administration and 
security in additional Help America Vote Act (HAVA) funds in the 
Consolidated Appropriations Act. On behalf of my colleagues who oversee 
elections across the country I thank you for this important investment. 
I also want to emphasize that the challenges our democracy faces 
require an on-going commitment of funds. Elections officials today, are 
tasked with preparing for threats that were nonexistent 5 years ago and 
are continuously evolving. Funds, training, and improved communication 
are critical to ensuring that we continue to protect our democracy.
    Actions addressing this new landscape of elections and 
cybersecurity have taken place in a variety of ways because elections 
are organized and run differently in every State. Nonetheless, I 
believe that our efforts in Rhode Island over the past 3 years offer 
valuable insight into the challenges and opportunities that elections 
officials face in this era of increased cyber threats.
    In Rhode Island, while I serve as chief State election official 
under HAVA, elections are run in coordination and collaboration between 
my office, the Rhode Island State Board of Elections, and local 
elections officials with their boards of canvassers. My office, the 
Department of State, maintains the Central Voter Registration System 
(CVRS), a voter registration database and elections management system 
used by all local elections officials that was developed thanks to HAVA 
funding during Secretary of State Matthew A. Brown's administration. A 
separate agency, the Rhode Island State Board of Elections, oversees 
Election Day operations, is responsible for the security of the voting 
equipment and handles post-election disputes and audits. Meanwhile, 
local elections officials and their boards of canvassers run the polls 
on Election Day.
    Our collaboration is a key ingredient to successfully running 
elections. Over the past year, we have strengthened relationships with 
our Federal partners, specifically the Election Assistance Commission 
(EAC) and the Department of Homeland Security (DHS). We have also taken 
advantage of State resources such as the cyber unit at the Rhode Island 
National Guard and the expertise of faculty members at Salve Regina 
University and Brown University.
    So how has Rhode Island handled the three challenges I described 
above?
    First, we addressed the topic of equipment. When I took office in 
2015, our voting equipment, purchased in 1997, was on the brink of 
total failure. Thankfully, when I confronted them with the problem, the 
leadership of our State took this issue seriously--Speaker Nicholas 
Mattiello, then Senate President Teresa Paiva Weed and the membership 
of the General Assembly, along with Governor Gina Raimondo, all 
supported the purchase of new paper-ballot optical scanning machines. 
This translated into an investment of nearly $10 million over the next 
7 years. The EAC was instrumental in providing us with key advice and 
counsel in the development of the Request for Proposals for the new 
voting equipment. Because of these efforts Rhode Island entered the 
2016 election cycle with new, secure voting machines that have four 
layers of security and encryption.
    We have also modernized many other aspects of the electoral process 
and infrastructure. Over the past 2 years we have implemented on-line 
voter registration, acquired electronic poll books, and recently 
implemented automated voter registration. These advancements make both 
voting and the administration of elections more efficient for all 
involved.
    While modernizing the electoral process and infrastructure, we also 
leveraged resources offered by the Department of Homeland Security 
under their critical infrastructure designation, to further protect our 
Central Voter Registration System. Recently, DHS performed external 
penetration testing and vulnerability scanning to assess any 
cybersecurity concerns with regard to our voter registration system. 
This Risk and Vulnerability Assessment provided my office with areas 
that needed to be improved to ensure our system is as secure as 
possible. In addition, the Rhode Island National Guard provided a 
security analysis of the electronic poll books (e-poll books), used 
during a recent election, to assess possible security vulnerabilities.
    But investments in hardware and software cannot be used effectively 
if government does not have the human resources that can manage and 
operate them. Our second challenge is one of building the capacity of 
the public sector to manage and respond to cyber threats in our 
elections.
    In Rhode Island, I have increased my office's IT staff by 40 
percent to ensure that we have the technical expertise in-house 
necessary to respond to the ever-shifting landscape that technology 
presents. This investment in our State workforce has also allowed us to 
deploy on-line tools and resources that not only make our elections 
infrastructure more secure, they make it easier for voters to 
participate in elections.
    It is important to note that security breaches can come through any 
connection within a governmental office, even those that may be 
physically removed from elections-related infrastructure. That is why 
over the past year we have conducted social engineering training, where 
our own IT team sends phishing emails to employees to test their 
awareness of potentially harmful emails. In addition, all our employees 
participated in cybersecurity awareness and threat mitigation training. 
These tools teach employees about the dangers of methods that on-line 
hackers commonly use to attempt to infect our network.
    However, having technically proficient State and local technology 
professionals is not enough if we do not have a well-developed 
communications structure between DHS and our country's chief State 
election officials. Being able to quickly disseminate information on 
potential threats and respond effectively is critical to safeguarding 
our elections. The National Association of Secretaries of State was 
able to persuasively present this issue to the Department of Homeland 
Security and, as a result, DHS initiated the process of providing chief 
State election officials like myself with the required security 
clearance to effectively manage the cybersecurity of elections systems. 
While this process of communicating cyberthreat information between DHS 
and chief State election officials was admittedly rocky at first, it is 
now much improved and will be an important mechanism to share cyber 
threat information. At this time, I would like to commend DHS for 
bringing on former EAC Chairman Matt Masterson to work with States on 
cybersecurity issues. In my experience working with former Chairman 
Masterson I have found him to be a consummate professional, and his 
thorough knowledge of our country's complex elections systems gives DHS 
critically important knowledge for more effective policy making.
    Additionally, local elections officials are on the front lines and 
must have the information and resources necessary to identify and 
mitigate emerging threats. For this reason, in Rhode Island we are 
members of the Multi-State Information Sharing and Analysis Center (MS-
ISAC) and the Elections Infrastructure Information Sharing and Analysis 
Center (EI-ISAC). In addition, by the end of next week I expect all our 
cities and towns to be signed-up with EI-ISAC. These organizations 
provide elections officials with cybersecurity products and services as 
well as best practices that enhance the overall strength of our 
election systems. For example, the Albert sensor is a device provided 
by MS-ISAC that monitors and analyzes all traffic that comes into our 
network. The information it collects is scanned and if something 
malicious is detected, we are notified.
    In Rhode Island, we are also taking steps of our own to ensure full 
preparedness. Last month, my office and the State Board of Elections 
hosted a seminar for local elections officials that included a 
comprehensive tabletop exercise presenting potential scenarios on 
Election Day. Elections officials were forced to make quick decisions 
under pressure and practice how to handle such situations. The exercise 
was based on a similar program my team attended at Harvard University's 
Belfer Center.
    Last year, I convened more than a hundred of Rhode Island's local 
elections officials and IT staff for a summit on elections 
cybersecurity. Several industry and academic experts in the field of 
cybersecurity, as well as Congressman Langevin, provided briefings 
during the summit. One important message that we focused on that day 
with local elections officials is that cybersecurity is not a 
destination; it is a continuous process of assessment, improvement of 
our systems, and mitigation of risk.
    This is why we must bring together all stakeholders, regardless of 
political affiliations, to continually identify threats and work on 
solutions. This is not a far-fetched ideal. In fact, IT leaders from 
Google and Facebook have commented that the top technology companies in 
our country regularly collaborate on cyberthreat information facing 
their companies despite being fierce competitors. We must develop a 
similar protocol in the public sector to share information on cyber 
threats. In Rhode Island, I have focused on ensuring that our elections 
officials and staff at every level have the information necessary to 
minimize cybersecurity threats.
    Investment in training of our public-sector employees has become a 
critical need. As cyber threats continue to evolve and become more 
sophisticated, States need additional funding and resources dedicated 
to the security of elections systems. These funds are necessary for 
third-party assessments, testing procedures, and strengthening IT 
capacity. The HAVA funds approved by Congress in the recently-passed 
Appropriations Act are an important initial investment in such systems.
    Using Rhode Island as an example, I would like to take a minute to 
discuss some of the critical initiatives that we are investing in with 
the new HAVA funds.
  <bullet> One of our key priorities is to secure the registry of 
        voters. Prior to the 2018 election we plan to invest over 
        $500,000 in cybersecurity enhancements to our CVRS.
  <bullet> The new funds also enable us to rewrite our CVRS 
        application, originally developed in 2004 and 2005, to current 
        industry best-practice standards and help us protect against 
        penetration attempts.
  <bullet> Understanding that trust in elections results is critical, 
        we will fund the first-ever post-election audits in Rhode 
        Island. This law was passed by our legislature in 2017 and is 
        another step in ensuring the integrity of our elections.
  <bullet> Ensuring that municipalities also improve their systems and 
        help protect our elections, we will initiate an Elections 
        Administration Improvement Grant Program for cities and towns 
        to make election security enhancements on a local level.
    In conclusion, I would like to make the following suggestions:
  <bullet> Congress can play a critical role by providing on-going 
        funding to the States so that we remain prepared to face any 
        cybersecurity challenge. As I mentioned above, the additional 
        HAVA funds approved earlier this year are welcome and much 
        needed by jurisdictions across the country. However, sustained 
        funding is necessary for elections officials to modernize their 
        systems to enhance the integrity and security of our elections.
  <bullet> Federal agencies must continue to provide important training 
        and resources to support the work being done on a State and 
        local level to protect our elections systems.
  <bullet> Congress also can formalize clear communication channels 
        between Federal agencies and State and local governments to 
        share cyber threats and information to assist in preparing for 
        any outside interference in our elections. The Federal 
        Government should recognize that it can play a critical 
        advisory and support role in securing elections infrastructure 
        while respecting the fact that elections are the responsibility 
        of State and local elections officials. It is my firm belief 
        that improving the integrity of elections systems can be 
        achieved while simultaneously improving access to voting.
  <bullet> Finally, Congress must also provide oversight of Federal 
        intelligence and security agencies recognizing the important 
        balance that must be kept between security measures needed to 
        safeguard our democracy and the transparency and access to 
        information that preserve our ability to have open government 
        and elections that can be trusted.
    Thank you again for the opportunity to present testimony on the 
work we are doing in Rhode Island and how the Federal Government can 
work with States to ensure our Nation's elections systems are secure 
and our democracy safeguarded.

    Chairman McCaul. Thank you, Secretary.
    I now recognize myself for 5 minutes of questioning. In 
October 2016, the Ranking Member and I sat in what is called a 
Gang of Eight briefing with the DNI Director Clapper and 
Secretary of Homeland Jeh Johnson.
    We were briefed at that time, in a Classified setting. 
Since then, the information has been made public that Russia 
was attempting to meddle in our elections using a campaign and 
information warfare model. I would--I would have to say it was 
very disturbing. I think I speak for the Ranking Member, as 
well.
    I urged, then at that time, that--the previous 
administration to call out Russia for what they were doing and 
that there should be consequences to their actions. I have also 
said the same thing to this administration that Russia needs to 
be called out and there should be consequences. Congress passed 
sanctions--harsh sanctions against Russia for their conduct.
    With that, Mr. Krebs, I want to ask you if you--as we move 
into the 2016--or 2018 mid-term elections, can you tell me what 
the threat level is from foreign adversaries and foreign 
nation-states to potentially meddle in the upcoming elections?
    Under Secretary Krebs. So, as I mentioned in my opening 
statement, we have not seen anything, certainly, to the degree 
of 2016 in terms of specific hacking of election systems. I 
think at this point it is--it is important to--to distinguish 
or differentiate between directed technical attacks against 
I.T. systems, much like what we saw in 2016 with the--the 
database--the voter registration database is the scanning.
    That is the cybersecurity technical piece of it. Then, 
there's also an information operations element of it. I think 
that is fairly well-characterized in the intelligence community 
assessment.
    We are, again, not seeing, on either hand, something that 
rises to--anything that rises from--to the level of 2016 
directed, focused, robust campaign, but we do see continued 
Russian activities. The intelligence community continues to see 
Russian activity in the sowing discord across the American 
public.
    It is not, again, directed, necessarily, at politicians or 
political campaigns, but it is focused on identifying divisive 
issues, and sowing discord, and creating chaos, and, frankly, 
undermining democracy.
    Chairman McCaul. So there will be more of this campaign 
information or disinformation warfare?
    Under Secretary Krebs. Yes, sir, that is the way I would 
characterize it. We are seeing more along the lines of 
information operations rather than directed technical attacks 
or anything focusing on elections of, particularly, the mid-
terms.
    Chairman McCaul. So, that leads me to the--the 
vulnerabilities in the election system itself. You don't see 
any targeted technical attacks toward, say, the voting 
machines?
    Under Secretary Krebs. In terms of the--just stepping back 
a little bit on the voting machines and I, you now, of course 
would defer to Secretary Gorbea and what she has seen in Rhode 
Island, we are--voting systems in and of themselves are systems 
of systems.
    So, we have the voting day which is what people, typically, 
think of with e-poll books and optical scanning machines or the 
DREs. Then, you have a broader system that supports the 
backend, the information management systems that store voter 
registration. Just like any I.T. system, there--there are going 
to be vulnerabilities just by the very nature of it.
    There are a series of compensating controls even on DREs 
that can limit risk. Ultimately, what we are looking for, here, 
is not a 100 percent secure system. Just like any I.T. system, 
there is no such thing as a secure I.T. system. What we are 
looking for is resilience in the system.
    To think about this, maybe, in a different way is, over the 
course of the last couple of months through primaries, there 
have been a number of issues with I.T. systems and California 
had a voter printout, about 118,000 voters across 1,000 
precincts in L.A. County, and then just recently in Maryland, 
there was an issue with transferring registration information 
from the DMV to the Secretary of State--State's office.
    What we are really seeing there more than anything is that, 
yes, there are technical challenges, but the way the system is 
engineered or architected, in part due to work by Congress, and 
HAVA in particular, is that even if you showed up to vote and 
your registration had been, whether accidentally or 
intentionally, deleted from a voter registration file, you have 
the ability to request a provisional ballot.
    So, if, in 2016, when the Russians were in the Illinois 
State registration database, had they deleted voter 
registration files, Illinois citizens would have been able to 
show up. If their information had been deleted, they still 
would have been able to request a provisional ballot. They 
would have cast their ballot; it would have been counted as 
cast. So, this, again, it is not 100 percent security. We are 
looking to achieve resilience in the system.
    Chairman McCaul. Secretary, how resilient do you believe 
the--your State's system is?
    Ms. Gorbea. Our system is actually very resilient and I 
share Under Secretary Krebb's description of what we are 
looking for is resilience and not foolproof security. So, we 
have a series of mitigating factors. One is, of course, 
protecting the systems. Each city and town has its own 
structures of how to then transfer that information to the 
central--but what Under Secretary Krebs described is, very 
much, what is happening in Rhode Island today.
    In addition, we have been able to leverage resources, not 
just from the Federal level but for our own National Guard so 
that we are constantly testing the security of systems at the 
same time as we, sort-of, think of the what-if. What if 
something happens?
    So, for example, recently we had a mock disaster day with 
all of the clerks in the cities and towns to try to go through 
what happens if you show up on Election Day and you discover 
that there has been some tampering? What would--how would you 
respond?
    We hadn't done that before this year because it hadn't 
really come up. So, you have to get people at the local and 
municipal level to start thinking in this way which goes to my 
point about----
    Chairman McCaul. My time is, kind-of----
    Ms. Gorbea. Oh, sorry.
    Chairman McCaul. Expired. But I--let me just say, in terms 
of the voting machines themselves, most of them--these machines 
are not connected to the internet now. They are disconnected?
    Ms. Gorbea. So, the description of whether or not they are 
connected is an interesting one because that, also, has changed 
over time. Most machines are individual and there is a modem 
transmission for some of them, for example, at the end of the 
day, that transmits the results. But there are back-ups to that 
and in the case of Rhode Island, the most important back-up, of 
course, is the paper ballot.
    Chairman McCaul. But everything is always front-based going 
back to the premise of my question, you don't see this 
technical threat currently?
    Ms. Gorbea. In terms of the voting systems in Rhode Island, 
no.
    Chairman McCaul. From a foreign adversary?
    Ms. Gorbea. From foreign adversaries, no. I do think that--
I mean we front-loaded our investment into voting machines and 
that made a big difference in our----
    Chairman McCaul. And Under Secretary, you and I talked 
previously about Members of Congress--how--how safe are we from 
foreign adversary attacks and how--how protected are we on our 
networks?
    Under Secretary Krebs. So everyone has a different model. I 
think given the sensitivity of the information, the policy 
shaping that this body engages in, I think that it is safe to 
say that a foreign adversary from a pure intelligence 
perspective would probably want to know what you guys are doing 
on a daily basis, what policies you are driving.
    In terms of how you are positioned from a security 
perspective, I don't have frankly in-depth knowledge of your 
I.T. systems given the separation of powers but happy to 
provide a briefing on, in part, best practices, but also work 
with the CIO. I think we are doing some engagement on how we 
can collaborate and help Congress secure their networks.
    Chairman McCaul. I think that would be helpful. I think 
most Members have no idea how vulnerable they really are to 
these attacks.
    So with that, I recognize the Ranking Member.
    Mr. Thompson. Yes, I agree with you because we have been in 
some hearings--some briefings who really laid out some kind-of 
scary scenarios. Well, you are--you are official now, Mr. 
Krebs, welcome.
    Just from a historical standpoint, how many States have we 
identified that the Russians did some form of intrusion in the 
last elections?
    Under Secretary Krebs. So when we think back to 2016, there 
are a couple ways we have to, kind-of, hash out the information 
it is all based on frankly awareness visibility into activity 
and infrastructure. So we have thrown around numbers--18 were 
either accessed or scanned or targeted or 21, whatever it is. 
Last summer we--we gave 21, when I--that number, 21 that were 
scanned, that information is based on the telemetry, the 
visibility into traffic over networks that we had, that, 
frankly, that we had visibility to last year.
    If you were to ask me what I really thought happened, I 
would suspect, and Jeannette--Assistant Secretary Manfra said 
this and I believe Secretary Nielsen said this too, I--I would 
suspect that the Russians probably scanned all 50 States and 5 
territories and the District of Columbia. Scanning, it happens 
every day; it is an automated process. I just again, I think 
based on the 21 number, that is not what we were able to see. 
We have better visibility going in to 2018. We basically have--
will have access to close to 50 percent of visible--I am sorry, 
100 percent visibility into at least the State networks.
    Mr. Thompson. So is that scanning considered a 
vulnerability?
    Under Secretary Krebs. The scanning is a threat; a 
vulnerability would reside in the system. The scanning is the 
actual foreign adversary's actions to look for vulnerabilities.
    Mr. Thompson. So since whether it is 18, 21 or whatever, 
how many States have we worked with to identify, help them 
identify potential threats or whatever?
    Under Secretary Krebs. So at this point, sir, we are 
working with all 50 States. We have all 50 States as members of 
the Election Infrastructure Information Sharing and Analysis 
Center. That is since February when we stood up the I-ISAC 
close to 1,000 total members of the I-ISAC at this point, and 
that is 50 States plus local jurisdictions, counties, in 
associations like NAS----
    Mr. Thompson. So your testimony is that everybody is 
cooperating?
    Under Secretary Krebs. There are levels of cooperation. As 
always, everybody has different capabilities of the State level 
and different resourcing as well. But at this moment I can say 
that all 50 States are participating in the I-ISAC.
    Mr. Thompson. Explain resourcing.
    Under Secretary Krebs. Sir, resourcing would be how they 
are funded at the State level. You know, Secretary Gorbea is 
fortunate to have resources provided by the State treasury that 
she could in 2016, or prior to 2016, replace her outdated 
equipment. Not all States are similarly resourced and that is 
going to be a challenge going forward and I think that is 
probably the greatest opportunity for policy discussion.
    Mr. Thompson. Madam Secretary, you talked to some of your 
colleagues around the country I am sure on this. Can you shed a 
little light on the resourcing?
    Ms. Gorbea. Yes, I can absolutely vouch for the fact that 
the equipment is just the tip of the iceberg; it is the one 
that is easy to fix quickly, right? Because you know that it is 
outdated, you know that it is not up to code and you can 
replace it any time.
    I think the second layer of resourcing that is really 
important is the public sector rank-and-file people who are 
working in this in Government. We at some point need to invest 
in making sure that the people at the local level--you can have 
fabulous resources at the Federal level at DHS, but if they 
don't have anyone to engage with at the local level on the 
security on what all of this means, then you are--you are 
basically going blind.
    So I think that there's, it is two-piece; one is the 
equipment and the other one is the human resources.
    Mr. Thompson. So we talked a little bit about this re-
siloing that is occurring. Give us your opinion about how you 
see that, pro or con, in terms of the cyber, Under Secretary?
    Under Secretary Krebs. Thank you for the question. I think 
this one's pretty clear. The Homeland Security Act 2003 
provided the Secretary of Homeland Security very clear 
authorities to lead the critical infrastructure protection 
activities of the--across the Federal Government in 
coordination with sector-specific agencies, the intelligence 
community, and law enforcement.
    So I think to the extent that we are creating duplicative, 
whether it is liability protections or information sharing or 
information--integration centers, I think that is having a 
negative effect. It is in some cases it could put us into 
something along the lines of a pre-9/11 position where we don't 
have that integration.
    That is why in my opening statement said several times that 
DHS is an information and operations integrator. That is our 
role.
    Mr. Thompson. Right. So in other words it would make us 
less secure?
    Under Secretary Krebs. That is my belief, yes, sir.
    Mr. Thompson. Thank you, Mr. Chairman.
    Chairman McCaul. The gentleman yields back.
    The gentleman from New York, Mr. King, is recognized.
    Mr. King. Thank you, Mr. Chairman. I thank both witnesses 
for testifying here today and Secretary Krebs, I wish you the 
very best and, Secretary Gorbea, thank you for your efforts in 
Rhode Island and for working with my good friend Mr. Langevin.
    When we talk about cyber activity by the Russians, today we 
seem to be focusing obviously on the attempts to hack the 
election systems, but also they have distorted information and 
attempted to influence people. What is being done in that and 
who has primary jurisdiction over that?
    Under Secretary Krebs. So as I said earlier on, we do look 
at things that the technical hacking and then the information 
operations DHS has lead for supporting State and local 
governments, and the information--or I am sorry--in a hacking 
space. FBI has lead in countering foreign interference and 
the--in the information operations space. DHS does support the 
FBI's efforts as does of course the intelligence community.
    Mr. King. It--do you want to add to that?
    Ms. Gorbea. No, I--they really do have the best information 
on--particularly the information warfare stuff.
    Mr. King. Right, and how's the level of cooperation with 
the FBI and DHS in that?
    Ms. Gorbea. So most recently, we did have a meeting in 
February with the Office of the Director of National 
Intelligence, the FBI and Department of Homeland Security that 
was incredibly helpful to secretaries of state across the 
country that were altogether for their annual meeting.
    That kind of information is--is critical. We can't--part of 
the challenge here with elections is elections are 
decentralized. So--and I think we suffered some, you know, 
beginning stumbling, you know, when all of this came together.
    Where a locality was being informed of a potential breach 
or activities, and the chief State election officials who 
happened to be secretaries of state didn't know about it. 
Those--those communication activities between the Federal and 
the local and the State level, I think have smoothed out 
considerably over the last several months as we have learned to 
get along. The other challenge is that as elected officials, we 
deal in the world of transparency and open government.
    Mr. King. Right.
    Ms. Gorbea. DHS works in a very different mode. That is 
attention that we need to be conscious of and to make sure that 
we make--we accept the adequate provisions for.
    Mr. King. We also know that Russia is interfering in 
elections throughout Europe, more elections coming up, more 
meddling expected. How much information does DHS share with our 
foreign allies and foreign countries on this and how closely do 
we work with them?
    Under Secretary Krebs. I--it is difficult to quantify how 
much information we share, but I do know that over the last 
year or so with various campaigns that happened in Europe, 
whether it was France or Germany, we do have cert-to-cert 
relationships, where we can share technical indicators of known 
command-and-control infrastructure of Russian adversaries.
    So we can help them--we will share what we know, they will 
share what they know, so I do feel as if it is a good 
relationship in terms of the engagement.
    Mr. King. As far as Rhode Island, you may have covered this 
in your opening statement but how much cooperation is there 
among the States as far as, you know, you sitting down with 
other secretaries of state?
    Ms. Gorbea. So the National Association of Secretaries of 
State provides an excellent coming together on a bipartisan 
basis so that we can have these conversations about what is 
happening. We have also under that advocacy--or not--group--
bipartisan group have provided a space for our own I.T. 
officials with our rank-and-file civil servants to be able to 
have conversations around security issues and what are best 
practices. Those are critically important in this day and age.
    Mr. King. Without having to name names, are there other 
secretaries of state who resist this, who feel that this plot 
is over--you know, threat is overblown?
    Ms. Gorbea. No, I don't think that anybody at this point, 
well, for the most part, I think everybody agrees that there is 
some level of threat; I think that was made very clear in our 
security briefing afternoon. There are more tensions around 
this issue of the communications with the Federal Government 
and where--and how do we go about finding out what is happening 
in our own States so that we can help proactively address the 
issues at a local level.
    Mr. King. Yes.
    Secretary, you want to add anything to that?
    Under Secretary Krebs. I think that is spot-on, as I 
mentioned in my opening, everyone understands that the threat 
is real. The challenge here is, again, goes to the resourcing 
issue. If I provide information, what can be done about it?
    To the point of the Classified information and how we 
engage, I aim on a daily basis to operate as much in the 
unclassified space as possible so that the products that I push 
out are immediately actionable by broad communities. So it 
doesn't help me if I am--as Secretary Gorbea pointed out, if I 
am living in a Classified space. That should not be the DHS 
mission space; we should be managing risk in an unclassified 
manner that is informed by threat intelligence.
    Mr. King. Secretary Krebs, Gorbea, thank you very much.
    I yield back, Mr. Chairman.
    Chairman McCaul. Gentleman yields.
    The gentleman from Rhode Island, Mr. Langevin is 
recognized.
    Mr. Langevin. Thank you, Mr. Chairman, and thank you, 
Ranking Member Thompson, and to Secretary Krebs and Secretary 
Gorbea, thank you again for your testimony and all the work 
that you are doing to enhance election security across the 
country.
    Mr. Krebs, let me start with you. As you know, the 2018 
omnibus provided additional HAVA funding for State election 
officials to better secure their systems in advance of the mid-
terms. Do you believe that the States are using these Federal 
dollars--States using these Federal dollars are making risk-
informed decisions on how to spend them?
    Under Secretary Krebs. So I do believe that States are 
using the money in a manner that addresses their threat model, 
their risks scenario. I would not though assume that all that 
money is going to replace out-of-date equipment. There are 
challenges from a procurement perspective; there are also the 
challenge for it is frankly not enough money to transition that 
equipment.
    What we have done working with States and informed in part 
by our risk and vulnerability assessments is working with DHS, 
working with EAC and with the Government Coordinating Council--
put together a list of recommended expenditures.
    So if you have got this money from the omnibus, the $380 
million a year distribution, here are good ways to spend it. 
There are things as simple as hiring what we are calling a 
cyber navigator, someone that actually has cybersecurity 
expertise that can get out from your State capital and go work 
with the various counties.
    Because that is the real challenge here, is that when you 
think about across the Nation, there's close to, if not over, 
10,000 jurisdictions and there's not enough cybersecurity 
expertise to go around as it stands, so let's--let's continue 
to invest in that.
    But it is also things like training, exercises, response 
planning, patching systems, updating operating systems, things 
like that.
    Mr. Langevin. So the list you mentioned certainly is 
helpful because it is broad; it is not specific to their 
systems per se. I guess my--what I would ask, would 
requirements that States conduct risk assessments before using 
the Federal dollars help to ensure maximum efficacy to improve 
their cybersecurity posture?
    Under Secretary Krebs. So I think that that is certainly 
something that we would consider, and we of course, offer the 
risk and vulnerability assessments to the States at this point. 
We have conducted about 17 of them; we have another one that is 
in the process.
    But absent the other 31 being completed, or 32 being 
completed, we are taking the lessons learned, the observations 
from those risk and vulnerability assessments, and we are 
sharing those broadly through the ISAC and through our day-to-
day engagement. So for those States that don't--haven't done an 
RVA may not want to do an RVA because they have some other 
capability, we are going ahead and taking the learnings that we 
got from the RVA that Rhode Island did and we are pushing that 
out more broadly.
    Again, that is what informed the recommended expenditures 
or the guidance that we developed with the GCC. So that is a 
good way of--and--and to be clear, that through all of those 
risks and vulnerability assessments we saw pretty much the same 
thing: Out-of-date operating systems, patch management 
challenges, and lack of awareness across staff. These are all 
things that we can address through, initially, through the--the 
HAVA money, but then on-going DHS support.
    Mr. Langevin. Thank you. I think that some of those things 
are very helpful. I think that the requirements for risk 
assessments would be a best way to use the funds, and I will 
mention that--I want to point out to the Chairman that the 
bipartisan PAPER Act that I have introduced with Congressman 
Mark Meadows contains provisions that will require these kinds 
of assessments, so----
    But Secretary Gorbea, in your testimony you spoke about the 
need for continued cybersecurity training of State and local 
election officials. So can you elaborate on the nature of the 
training that is needed, and in particular, about the resources 
you hope DHS can provide?
    Ms. Gorbea. Yes. Yes, so basically, we are only as strong 
as our weakest link. While I have been able to really improve 
the--the cybersecurity at our--in the Department of State, 
truth is, is that elections in Rhode Island are run also at the 
local boards of canvassers, as well as the State Board of 
Elections. So what we have encountered is, once you deal with a 
hardware issue, you have to deal with the people, as well. DHS 
has been particularly helpful in helping us navigate through 
all of that.
    I also want to give a shout out, though, to the Election 
Assistance Commission because when we were looking for new 
voting equipment, they were there to help us, also, with best 
practices. I think that is a perfect role for the Federal 
Government with locals. The locals know, the State people know 
where their needs are most pressing.
    The training that we have done in Rhode Island involves 
everything from a cyber summit that you participated in about a 
year ago, where we--where we basically walked through, why are 
we having these conversations around cybersecurity? For 
somebody who's a clerk, who's handling everything from fishing 
licenses, to other types of licenses, to voter registration, it 
may not be clear to them why they need to be, you know, 
safeguarding that password for the central voter registration 
system, where they are in--when they are doing, you know, voter 
registrations.
    So we had a big conversation with the local officials, and 
which we will continuously do every 6 months, and as part of 
every single training that we do out of the Department of State 
to help build that capacity at the local level.
    Mr. Langevin. Thank you very much. I know that my time 
expired. I want to thank you both for your testimony.
    Mr. Chairman, I know, as my time is expired, I would like 
to submit this question for the record: On April 24, Assistant 
Secretary Jeanette Manfra testified that the surge in risk and 
vulnerability assessments for election infrastructure created a 
significant backlog in other critical infrastructure sectors 
and Federal agencies waiting for similar assessments. The 
President's 2019 budget did not request an increase in 
resources sufficient to overcome this backlog.
    So my question would be, are--are more resources necessary 
to support the increased requests from State and local 
governments without delaying other assessments, or do you 
expect RVA backlogs to be the new normal at NPPD? I will submit 
that for the record, since my time is expired.
    Thank you, Mr. Chairman.
    Chairman McCaul. The gentleman yields.
    The gentleman from Alabama, Mr. Rogers, is recognized.
    Mr. Rogers. Thank you, Mr. Chairman.
    Secretary Krebs, I have been surprised that so many 
Americans have acted shocked that Russia was meddling in our 
election, when they have been meddling in elections all across 
the globe in countries, particularly European countries, and 
most specifically, Eastern European countries that used to be a 
part of the USSR, and they do this primarily through 
disinformation. Many people in America may not realize that 
R.T. is Russia Today, and it is propaganda too.
    My question is, since disinformation is their tool of 
choice, or their weapon of choice, in meddling in elections 
across the globe, do you have somebody in your department, or 
is it your department's job to counter this disinformation when 
you find it in our country? If not, what department does have 
that responsibility?
    Under Secretary Krebs. So as I mentioned earlier, the way 
we look at it, again, is the technical hacking piece, and then 
there's the information operations, DHS leads the cybersecurity 
working with State and local. FBI leads information operations, 
but DHS does support. So FBI's role working with the 
intelligence community is identifying specific actors, whether 
it is Twitter handles or whatever it is, and disrupting those 
activities.
    Now, that is only part of the problem, is actually taking 
down the disruptive activity, because frankly, with 
disinformation, the way to counter disinformation is actually 
shine light on the activity. So what we are doing at DHS 
working with others in the State Department Global Engagement 
Center, working with the FBI, is to build a greater 
understanding and awareness of what their activities are, 
engaging social media companies, engaging traditional media and 
sharing our findings, our trends. Here are the things that they 
are doing. How do we raise awareness across the American 
public?
    This is one of those cases that it is different from 
traditional cybersecurity, because cybersecurity--elections, 
for instance. What we are aiming for is resilience in the 
system so we can take a lick, and we can keep going forward.
    Disinformation's completely different. It is--the objective 
is anti-fragility, and what that means is unlike resilience, 
where you just want to keep moving through it, with anti-
fragility you want to come back stronger; where you learned 
from the experience, or that engagement, we learned in 2016--
that we learned, and we closed out that avenue of influence. 
That is where we are aiming for.
    So we are doing a good bit of trend analysis of how we are 
seeing Russian actors engage through information campaigns 
and--and operations, and looking for opportunities of 
intervention to close out those--those avenues.
    Mr. Rogers. So when you say, ``we,'' are you talking about 
just DHS, or----
    Under Secretary Krebs. No, sir. It is, it is a whole--it is 
a cross-government agency. I, in my operation and NPPD, working 
with the Intelligence Analysis Directorate, the Privacy Office, 
the Civil Rights and Civil Liberties Office of DHS, among 
others, we have established a Countering Foreign Influence Task 
Force, and they--we are looking at some of the--the unique 
authorities the Department has.
    That works in coordination with the FBI's Foreign Influence 
Task Force, and it is also supported by the intelligence 
community and the State Department; so it is--everybody has a 
role in this, given the unique authorities and the, well, 
frankly, the unique authorities of the various agencies.
    Mr. Rogers. Thank you.
    Secretary Gorbea, you talked about replacing all of your 
voting machines in the State. How much did it cost to do that?
    Ms. Gorbea. $10 million.
    Mr. Rogers. How much of that was State money?
    Ms. Gorbea. All of it.
    Mr. Rogers. All of it was State money?
    Ms. Gorbea. Yes.
    Mr. Rogers. No Federal money was used?
    Ms. Gorbea. No Federal money was used.
    Mr. Rogers. Have you received any Federal money for any 
security improvements?
    Ms. Gorbea. Yes. Well, where we will be using the $3 
million HAVA funds to continue now to really tackle our central 
voter registration system, which was developed with, actually, 
the first batch of HAVA monies. So that application will be 
rewritten and strengthened.
    Mr. Rogers. Now, you mentioned earlier in your opening 
statement that you needed to make some improvements to your 
central database. What exactly are you talking about?
    Ms. Gorbea. So just for the protections. You know, our--the 
focus of our risk vulnerability assessment was actually our 
central voter registration database, to make sure that we 
didn't know of open doors throughout our systems that somebody 
might come in through. So that was----
    Mr. Rogers. Is it connected to a network?
    Ms. Gorbea. Yes, and--actually I must say we actually now 
have trained all of our staff and continue to do on-going 
training to every--whether you are in the archives of the 
secretary of state's office or in business services, is to 
identify phishing e-mails, things like that, so everybody's on 
their toes to not click on something that might compromise our 
elections.
    Mr. Rogers. Excellent, thank you very much, thank you all 
for being here, I yield back.
    Chairman McCaul. Gentleman yields back, the gentlelady from 
New Jersey, Mrs. Watson Coleman is recognized.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. 
Congratulations to you, Mr. Krebs, and thank you for being 
here, Madam Secretary. I just--I have got a couple of 
questions. Is it possible that Russia could be doing something 
right now that would interfere with this 2018 election and we 
might not know about it yet?
    Could they possibly be involved some way now, or is it just 
too early?
    Mr. Krebs. You know, again, like I mentioned, we haven't 
seen anything certainly on the level of 2016, neither on the 
direct hacking. We do know that they are launching--they are 
carrying out generally speaking information operations.
    You know, I--this is kind-of one of those, you know, I 
don't know what I don't know right now.
    Mrs. Watson Coleman. How many months in advance was this 
hacking identified before the 2016? Was it 3 months before, 2 
months before, 5 months before?
    Under Secretary Krebs. That was before my time at the 
Department, I was still in the private sector.
    Mrs. Watson Coleman. Would you know, though, this----
    Under Secretary Krebs. It was over the course of the summer 
I believe prior to the 2016.
    Mrs. Watson Coleman. OK so it is really this summer that we 
need----
    Under Secretary Krebs. It was--you know, I think the real, 
as I recall, the real indicators of activity took place about 
this time July 2016.
    Mrs. Watson Coleman. It is really confusing to me, all of 
the various agencies that are--have a piece of this. So is 
there like a routine meeting that you all have around these 
issues?
    Under Secretary Krebs. So in terms of the cybersecurity 
piece, yes, ma'am. We have developed a government coordinating 
council that brings not just Federal agencies together, but 
also State and local partners.
    So in that, it is a weekly meeting that DHS, the Election 
Assistance Commission, but also, you know, I am of the mind 
that when it is just the Federal Government working together on 
a problem, you are not getting a lot done because the Federal 
Government doesn't always have all the answers.
    We need to work with our stakeholders, again, as I said in 
my opening statement, to understand what their requirements are 
so that we can tailor our services to address their needs. That 
is really the mantra that I have instituted across NPPD, it is 
requirements-based.
    Mrs. Watson Coleman. Do you think or even do you think, 
Madam Secretary, based upon your involvement, that all 50 
States are equally concerned, engaged, and willing to 
participate as rigorously as possible to ensure that our 
infrastructure, voting infrastructure is protected, and our 
voters votes are counted?
    Ms. Gorbea. So I cannot speak for all 50 States, I can tell 
you that at the National Association of Secretaries of State, 
these issues have been highlighted and discussed more so than I 
ever thought when I was running for secretary of state.
    Mrs. Watson Coleman. Well, like the President still doesn't 
believe that this is happening because Vladimir Putin has told 
him that it hasn't. In your sort-of interactions, are there any 
States that kind of are where the President is on this, that it 
really didn't happen, it is crap, or does everyone recognize 
except for the President that this did happen?
    Ms. Gorbea. I personally have not had any conversations 
that--that way.
    Mrs. Watson Coleman. So $38 million has been appropriated 
to help various States protect their systems or do whatever 
they have to do. Does that include money going down into the 
municipalities and the counties to train people, to do the 
audits that need to be done, to replace the equipment that 
needs to be replaced, Mr. Krebs?
    Under Secretary Krebs. So the $380 million in the fiscal 
year 2018 omnibus is a broad--is available for a broad set of--
--
    Mrs. Watson Coleman. But it can--it goes to the States and 
then the States will decide how to spend it?
    Under Secretary Krebs. I believe that is correct----
    Ms. Gorbea. That is correct, and it is--there is actually a 
fair--while there are guidance and sort-of big buckets of 
categories, it is really allowed--it really allows the chief 
State election official to allocate it in the best way 
possible----
    Mrs. Watson Coleman. So it is been indicated that the 
States have suggested a $380 million, while a lot of money is 
not adequate. Do you have any idea what that number should be, 
from their perspective?
    Ms. Gorbea. Not--not off-hand, although I can use Rhode 
Island as an example for exempt. So we are receiving $3 
million, our replacement alone, voting systems of the machines, 
was $10 million.
    Mrs. Watson Coleman. That was purely State money.
    Ms. Gorbea. That is right.
    Mrs. Watson Coleman. So if a State doesn't have it, and 
this $380 million could be legitimately used for it, it seems 
like it really could be a lot more depending upon how many 
States have the capacity to do this and want to do it.
    Ms. Gorbea. Yes, that is correct.
    Mrs. Watson Coleman. OK, thank you, thank you, I yield 
back. Thank you, Mr. Chair.
    Chairman McCaul. The gentlelady yields, the gentleman from 
Pennsylvania, Mr. Perry is recognized.
    Mr. Perry. Thanks, Mr. Chairman, and congratulations, 
Secretary, and welcome, Madam Secretary, appreciate your 
presence. I just want to make sure I understand the playing 
field in--in the context that Russia or the USSR in its 
previous version has been involved in the United States and 
undermining the United States since 1917, since the Bolshevik 
revolution.
    I mean, and the history of the Venona transcripts and 
recepts show that they infiltrated our Government at the very, 
very highest levels and influence policy in magnificent effect 
in the decades past.
    But under--so this is nothing new, but in the current 
context, Madam Secretary, in particular, do we know of--and, 
Secretary, if you know, their incursion into the most recent 
Federal election, the Presidential election, they didn't change 
any of the votes as far as I know, right.
    We are talking about information gathering and--but I think 
in the greater sense, they are--we are talking about propaganda 
and influence operations as opposed to vote tampering or 
changing. Am I correct in that assessment?
    Under Secretary Krebs. So from the extent of our 
understanding in 2016--rather, the extent of their access was 
to voter registration database that was not a vote count, it 
was well kind-of left of voting day. So they were able to get 
into a State voter registration database and exfiltrate some 
data.
    Mr. Perry. Their interest in looking at the voter database 
so to speak was to then provide propaganda or information to 
key voters or to target----
    Under Secretary Krebs. I am not actually sure that is--that 
that was their intent. In fact, I think to a certain extent, 
they didn't know necessarily what they were looking at. They 
were in a certain--to a certain--perhaps mucking around in a 
system, trying to figure out where they had landed and where 
they were.
    And understand frankly how the systems worked and how they 
interoperated. But to be clear, we did not see them having 
access to any machines, equipment, or whatever that was 
involved in voter--vote tallying.
    Mr. Perry. It is because of the lack of network access and 
decentralization of the voting system among States that even if 
they would have wanted to, they figured out where they were and 
they wanted to influence I would have been very, very 
difficult.
    That is my understanding, but I want to clarify that, or 
have you----
    Under Secretary Krebs. That is certainly a contributing 
factor, yes sir.
    Secretary Perry. OK, and so at this point other than access 
to voter registration, we don't know what their intent was and 
they don't at this point admit that they were ever even 
involved right? They still don't admit that they were ever 
involved but we are fairly confident that they were. Is that 
correct?
    Under Secretary Krebs. The intelligence community 
assessment from 2017 was pretty clear that they did intend to 
interfere, yes sir.
    Mr. Perry. But we don't know in what way they----
    Under Secretary Krebs. In what way, I would have to go back 
and do a dig back into the ICA, but----
    Mr. Perry. OK. I think that is important to know to inform 
us of future elections. I don't suspect since they deny 
currently that they were even involved, that they will ever 
admit that they are probably going to try to stay involved and 
continue to be involved as they have since for the last 100 
years essentially. Right? They are probably going to--so it 
would be important to know I would think to get an assessment 
of what they were seeking to do if they did in fact get in. We 
should know that so we could safeguard in the future.
    But let us go to the Countering Foreign Influence Task 
Force that you talked about regarding propaganda and 
disinformation. We have got an election coming up in about 4 
months. Will that organization be prepared at that time to 
inform, by whatever method it decides and determines is 
appropriate, the American public of things like Russia today or 
ads on social media, etcetera to influence, via propaganda, the 
American electorate? Will that task force be prepared at that 
time to be engaged?
    Under Secretary Krebs. Some of my task force I wouldn't 
think of it as an incident response capability, I think of it 
more as an analytical cell. See what the activities they do 
over time, what their tactics, techniques, and procedures are 
and build up a body of knowledge to then share generally 
speaking. Here are the sorts of things they do. These are the 
sorts of things that the American public should be on the 
lookout for. Other agencies have the more tactical response of 
we are seeing, for instance, the Internet Research Agency 
perhaps do activity X, Y, or Z, that is where the FBI becomes 
involved; that is where other agencies become involved, it is 
more tactical----
    Mr. Perry. OK so I think I have a clear understanding of 
that but what I am missing and I think some other Members might 
be missing is once we have that information, once we have that 
track record, then what? Who is going to inform the American 
people of this advertisement is specifically coming from a 
propaganda source whether it is Russia or some other hostile 
Nation or adversarial Nation and to be suspicious of it. Whose 
job in the American--in the Federal Government or State and 
local governments is it to do that informing of the citizenry?
    Under Secretary Krebs. So this is in part a Government and 
industry collaboration. So where we have social media companies 
working with Government we will be able to identify that 
information whether to flag it or take it down similar to 
terrorists use the internet where they remove content, disable 
accounts, that sort of activity can happen on the private-
sector side and on the industry side.
    Mr. Perry. So it is planned solely on the private sector?
    Under Secretary Krebs. No sir, it is--this is truly a 
partnership. This is going to be the Government will be taking 
certain actions then the private sector will be taking certain 
actions. I think if you look at what Twitter has done over the 
last week or so or last month, couple months, where they have 
disabled 70 million accounts by press reports at least. I think 
that is the sort of activity you will see happening going 
forward.
    Mr. Perry. OK, thanks Mr. Chairman I yield.
    Chairman McCaul. The gentleman yields. The gentlelady from 
Florida, Mrs. Demings is recognized.
    Mrs. Demings. Thank you so much Mr. Chairman and thank you 
to both of you for being here with us today. Congratulations, 
Mr. Under Secretary, and thank you so much for the work that 
you are doing in Rhode Island as well.
    Let me just say I--we have heard a lot about what happened 
in 2016 with our election and I grew up in Florida and Florida 
is the State that kind of keeps everyone up all night, 
especially on general election night. I just, I think everybody 
here understands the importance of protecting our systems but 
let me just say this. I grew up in Florida. I represent a 
district in Florida.
    When I think about my parents, my mother was a maid and my 
father was a janitor, but I cannot remember a time they did not 
exercise their right to vote and I think they were so dedicated 
because they understood that regardless of the color of their 
skin or where they lived or how much money they did not have in 
the bank that their vote mattered, it counted and it counted as 
much as any billionaire or millionaire in this country. So why 
wouldn't we especially, as one of the most powerful bodies in 
the world, in Congress want to protect this basic right for 
every American?
    So I do thank you for the work that you are doing to 
further that goal. Under Secretary, I was a little bit 
surprised as we look at I think the viciousness and consistency 
of Russia and other foreign powers that want to attack our 
system, that more States had not taken advantage of the full 
array of resources that DHS offers.
    I know that--I believe you said 17 have participated in the 
risk vulnerability assessments. When we think about--a No. 1, I 
would like to know, what you think you could do to encourage 
more States to participate, even though it is that they have 
the option the ability to opt in or not and also for State like 
Florida, if they did today call and say they want the 
vulnerability risk assessment done, how soon could you get that 
done?
    Under Secretary Krebs. So to your first question, what can 
we do more of? We need to continue steady-state engagement 
working through a number of different venues like the National 
Association of Secretaries of State has been a huge partner 
amplifying our message. But it is also important to understand 
that that the DHS service of the risk and vulnerability 
assessment is just one of several options that States have 
available.
    We have approached some States. They have said thank you 
for the offer but we have a private-sector solution that does 
exactly that, that is already on contract, so I don't ever 
frankly anticipate getting all 50 States in the risk and 
vulnerability assessment process. I suspect we maybe get the 25 
maybe 30 that is kind-of a stretch. It is, for us, again, it is 
reaching out, continuing the engagement, continuing the 
education and really frankly more than anything, it is building 
a relationship and building and establishing trust.
    We are still getting, you know, I think for the most part 
we have gotten over kind-of the trust hump that we--the 
challenge that we had last year, I think we are getting there.
    So in terms of Florida, or frankly any State that was to 
ask for a risk and vulnerability assessment, we have been very 
clear in how we have communicated to our State partners that as 
soon as you are ready to do a risk and vulnerability 
assessment, we will be there.
    There were discussions last time, I think I testified about 
a 9-month backlog. There's no 9-month backlog, it is when the 
State is available to do it and it is not just show up tomorrow 
and we will do a vulnerability assessment. There is a little 
bit of preparation that has to happen. I am sure Secretary 
Gorbea can share her experience, but there is preparation that 
has to happen before we can go in there and do our penetration 
testing. There are legal agreements that have to be signed. 
There's scoping of the networks that we have to do. So there 
are a number of preparatory measures that do lead to some time 
buffer before we can actually get in there.
    Mrs. Demings. Thank you. Secretary Gorbea.
    Ms. Gorbea. No, I have to say, you know, on the ground, we 
have found DHS to be actually very responsive. In fact, one of 
the first things that they--we were probably one of the first 
to sign up for the--under the critical infrastructure set-up.
    Then, the next thing I remember, we had, you know, three 
people showed up in my office and the regional director, a 
program person, a security person all introduced themselves, in 
person. Which I have to say is, probably, on the first times I 
have seen anybody from the Federal Government, you know, sort-
of, show up in my office and introduced themselves to my staff.
    So, that created a bond in terms of a trust factor because 
I know who I am dealing with and that started our process going 
and we did do the risk and vulnerability assessment. What I 
think, then, what was interesting is to see the disconnect, 
sort-of, in a broader basis as information at the very, sort-
of, in the Classified and intelligence level, sort-of, started 
to happen.
    There were some misfires in terms of, you know, they would 
contact the locality, but not the chief State election 
official. If you are a chief State election official and you 
are also an elected, you want to know what is going on in your 
State, of course. That was, I think, really just this is all 
new territory for all of us.
    We are learning cyber stuff, they are learning election 
stuff and I think one of the really big questions, as this 
evolves, is that balance between, you know, the security world 
deals with securing everything down. They don't want to tell, 
you know, they want to tell as few people as possible.
    We deal in the world of open government and transparency. 
We need to be transparent. Going back to the point that was 
made earlier, people can--need to be able to trust their 
elections and so they do that because we are open and 
transparent in the way we do things.
    That is, I think, at the intersection of where the 
challenge is. How do we secure the elections while not losing 
the democracy and the secrecy of it all? Because I can't tell 
you what is happening, but just trust me. Well, no, that is not 
going to work in the elections frame.
    Mrs. Demings. Thank you, so much. Mr. Chairman, I yield 
back.
    Chairman McCaul. The gentlelady yields. The gentlelady from 
Arizona, Ms. McSally, is recognized.
    Ms. McSally. Thank you, Mr. Chairman. Thanks for your 
testimony today. Look, we know bad actors like Russia have been 
trying to undermine our way of life, our representative 
government. Since the days that I was at the Air Force Academy 
in the mid-1980's, we have been studying their tactics and they 
evolve over time, but it is still the same intent.
    I really appreciate the discussion today. I think it is 
really important. I want to talk about the cybersecurity side 
of this, not the misinformation side and one of those States 
that was hacked was Arizona, I represent southern Arizona. We 
have had a Classified briefing on this, but as you talked 
about, you want to be in the unclassified realm as much as 
possible.
    There are all sorts of media reports out there, but what 
can you talk about, Under Secretary Krebs, in this open forum, 
about what happened in Arizona? I know you weren't there, but 
what your organization knows about what happened in Arizona, 
when, how it was detected, who was informed, what was learned 
from it and, you know, the lessons learned going forward? I 
just think it--there is a lot of confusion in the media and it 
will be helpful to clear that up.
    Under Secretary Krebs. So, thank you for the question and I 
will go ahead and offer off at the beginning that we come in 
and provide a bit more of a detailed conversation for you. In 
fact, for Arizona, it is one of the more challenging situations 
because it wasn't, necessarily, related directly to Russian 
activity.
    There--secretaries of state, election officials, by their 
very nature are natural risk managers. They deal with 
hurricanes, power outages, civil unrest, and criminals that 
want to get access to personally identifiable information that 
may reside within voter registration databases. So, every 
attack, particularly those that we--or incident that we have 
seen over the last couple of months, even, it is not always 
Russia.
    That is one of the unfortunate aspects of the climate, 
right now, is that every time you see some sort of disruption, 
whether it is intentional, malicious, accidental, everyone is 
jumping to the conclusion of it is Russia. There are things 
that happen on a daily basis in elections that just happen, so.
    Ms. McSally. So, in Arizona can--can you just be clearer? I 
mean, and by the way, and Russia, criminal elements are often 
acting on behalf of the States.
    Under Secretary Krebs. Yes ma'am.
    Ms. McSally. So, let's not be fooled----
    Under Secretary Krebs. But we do have criminals here in the 
United States as well. So, at this point, given the kind of 
confidential nature of some of these conversations, I can't get 
too much into the Arizona piece. But again, I would like to 
follow up with your office on that and see----
    Ms. McSally. Yes.
    Secretary Krebs [continuing]. And provide you a little bit 
more information.
    Ms. McSally. I would like to let, again, the key of 
openness and transparency, so people understand. It can help 
build their faith in the system that nothing was manipulated, 
but what has been learned from it and what are we doing going 
forward?
    Under Secretary Krebs. Yes, ma'am.
    Ms. McSally. Again, we understand that in all the hacks 
that did happen, nothing was manipulated. But it doesn't mean 
it couldn't have been manipulated. Just because it hasn't 
happened, yet, in 2018 doesn't mean it can't happen between now 
and Election Day. If they choose to, right? Threat equals 
capability plus intent.
    Even though someone can cast a provisional ballot if a zip 
code was turned around and jumbled up or their street address, 
if we don't know that that happened then the provisional ballot 
will be thrown out. Or if their voter file was deleted, they 
will cast a provisional ballot, it will be compared, and they 
say it is not a voter and it will be thrown out.
    So, just the, you know, I have a concern about the 
detection and the swift capability, moving forward, for this 
election and beyond because on Election Day, if the lines are 
getting longer and people are hearing something's not right. 
That, in and of itself, meets the intent of the enemy, right? 
That they are sowing confusion and discord, so can you just 
talk little bit about that? Because, again, just because they 
haven't done it yet doesn't mean they can't do it tomorrow.
    Under Secretary Krebs. That is 100 percent right. That is 
why we are not, necessarily, looking back at specifics. We are 
looking back at the specifics of 2016, but given our broader 
understanding of the I.T. environments that support elections, 
we are looking at, more broadly, where the vulnerabilities are, 
just in the system in general and what are the things we can do 
to address those vulnerabilities, broadly?
    It is not just Arizona. It is obviously all 50 States. So, 
the thing that I reiterate is we are seeing, as I have traveled 
across the country through primary season, I am continually 
impressed by the level of seriousness that secretaries of state 
and State election directors are paying to this issue. They 
want more information. They want more threat information. They 
want more information about how they can understand and manage 
their risk.
    Ms. McSally. Great, thanks. Look, we manage all those at 
the county level. We do have our secretary of state role as 
well. We are from Arizona. We are, generally, skeptical of the 
Federal Government being involved in anything.
    We are, you know, we are very independent-minded. So, is--
how is your relationship, you know, with the State there and--
and the understanding of the role that you have while still 
allowing this to be localized and distributed which is where is 
belongs?
    Under Secretary Krebs. So, we do have a relationship with 
Arizona. We are engaging on a regular basis, I think, as I 
mentioned they are a member of the Election Infrastructure 
ISAC. Every State is different. Every architect of a system is 
different. The threat model is going to be different. Arizona 
is different than Rhode Island, so.
    Ms. McSally. I look forward to following up with you. My 
time is----
    Under Secretary Krebs. Yes, ma'am.
    Ms. McSally. Expired, but, specifically, thanks a lot, 
appreciate it. I yield back.
    Chairman McCaul. The gentlelady yields the gentlelady from 
New York, Miss Rice, is recognized.
    Miss Rice. Thank you, Mr. Chairman. Mr. Krebs, last week 
the Senate Intelligence Committee issued a bipartisan report 
that concurred with the intelligence community's January 2017 
assessment that the Russian government interfered in the 2016 
election to support the Trump campaign. Do you agree with the 
Senate Intelligence Committee and the intelligence community's 
assessment?
    Under Secretary Krebs. Yes, ma'am.
    Miss Rice. Have you shared your opinion with the President?
    Under Secretary Krebs. I have not had the opportunity to 
meet with the President, directly, about this issue. I have 
been in briefings with the President on this issue, but I have 
not directly engaged him on--on that.
    Miss Rice. Do you think that this is an important enough 
issue to engage him on this issue? Since he has repeatedly 
refused to accept the conclusion of his own intelligence 
community?
    Mr. Kreb. Ma'am, residing within a technical agency where I 
do at the under secretary level, I am not often afforded the 
opportunity to meet with the President. I don't say this 
jokingly, it is that I, you know, engage on a daily basis 
with----
    Miss Rice. Have you spoken to the Secretary and suggested 
to her that she speak directly to the President----
    Mr. Kreb. Yes, ma'am. We--I meet with the Secretary 
regularly on this issue, and she has directly briefed the 
President on this issue.
    Miss Rice. The Justice Department and Special Counsel 
Robert Mueller charged 13 Russian nationals and 3 Russian 
companies in February with various crimes related to 
interfering in the 2016 election, including stealing the 
identities of American citizens. Do you believe that Special 
Council Mueller's investigation is a witch hunt?
    Secretary Kreb. Ma'am, can you repeat the question? I am 
trying to understand.
    Miss Rice. Yes, I will. The Justice Department and Special 
Counsel Robert Mueller charged 13 Russian nationals and 3 
Russian companies in February with various crimes related to 
interfering in the 2016 election, which is what we have been 
talking about here, including stealing the identities of 
American citizens.
    Do you believe that Special Counsel Mueller's investigation 
is a witch hunt? Yes or no.
    Secretary Kreb. I certainly don't think that charging the 
Internet Research Agency and those that supported interfering 
with the election a witch hunt, no, ma'am.
    Miss Rice. So that is a no, you do not believe it is a 
witch hunt.
    Secretary Kreb. The 13 indictments you just indicated, I do 
not believe that those are witch hunts. I think those are 
legitimate.
    Miss Rice. Mueller's investigation into at least that 
portion of it, you are saying is----
    Secretary Kreb. Yes, ma'am. I am not aware of the rest of 
the investigation.
    Miss Rice. Do you think the overall investigation is a 
witch hunt?
    Secretary Kreb. Ma'am, I am not aware of the scope and 
extent of the investigation again, I engage every day with 
State and local election officials on securing their systems, 
I--you know, I read what I can in the paper, I am not privy to 
Special Council Mueller's investigation and the scope of it.
    Miss Rice. Well, in your position, you should know than 
more than you are at least attributing yourself knowledge of. 
Will President Trump be discussing Russian interference in the 
2016 election in his meeting with President Vladimir Putin next 
week?
    Secretary Kreb. Based on the press reports that I have 
seen, yes, ma'am, that is part of the agenda.
    Miss Rice. Well I would assume that before that meeting, 
the President is going to sit down with his top people, one of 
whom is your boss, Secretary Nielsen. Will you recommend to 
Secretary Nielsen since you don't get direct face time I guess 
to talk to the President, will you be recommending to her that 
she recommend to the President that he discussed Russian 
interference in U.S. elections with President Putin?
    Secretary Kreb. Again, based on press reports, that will be 
part of the conversation. Of course I would suggest if I had 
that conversation with the Secretary----
    Miss Rice. Do you think you should have that conversation 
with her?
    Secretary Kreb. Again, I speak to the Secretary about this 
matter on almost a daily basis and we have encouraged it.
    Miss Rice. Have you specifically about this issue that I am 
asking you about, whether she is going to recommend as one of 
his advisors that he should bring this up in a serious manner 
with President Putin?
    Secretary Kreb. I would recommend that, yes, ma'am.
    Miss Rice. OK, so just a clarification, why DHS countering 
foreign influence task force, how it is different from the FBI 
foreign influence task force, we can debate that all day long.
    But why is there not just one comprehensive task force on 
this critical issue?
    Secretary Kreb. So I think the challenge here is that from 
a information operations perspective of what Russia has 
launched over the last couple years, the Government is not 
necessarily directly organized from a--there's no single set of 
jurisdictions, frankly; these issues like the FBI's law 
enforcement authorities, my authorities to meet with private-
sector companies and build awareness and resilience within the 
system.
    We are working toward something like you are suggesting, 
whether it is a single task force, but we do coordinate on a 
regular basis. I meet at the under secretary level on an almost 
weekly basis with my counterparts and a number of different 
agencies, there are meetings in the National Security Council, 
and there's staff technical level meetings between DHS, the 
FBI, the Global Engagement Center.
    Miss Rice. Thank you, I yield back, Mr. Chairman.
    Chairman McCaul. Gentlelady yields, the--let us see, 
gentleman from Nebraska, Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman, and I thank you both 
for being here today. I just want to ask Under Secretary Krebs 
a--question for clarity. I think you have been touching on it a 
little bit, I just want to make sure we have it right.
    Is there anything else you need from Congress, whether it 
is resources, the--you know, a budget, the appropriations and 
so forth, is there anything else you need from us to safeguard 
our elections systems from hacking or manipulation?
    Under Secretary Krebs. So I think from a--thank you for the 
question. I think from a pure authorities perspective, I think 
we have everything we need to support State and local 
governments in their election.
    I think with more, from a resourcing perspective, I could 
always do more. But we are learning from our past engagements, 
whether it is risk and vulnerability assessments or some of the 
other capabilities that we are providing.
    The $26.2 million we were providing in the omnibus--the 
fiscal year 2018 omnibus, certainly helped increase our 
bandwidth, not just for election systems, but also in those 
other infrastructure sectors that Congressman Langevin 
mentioned.
    So we are always looking at how to be more efficient in the 
things we do and make sure that we are operating off of 
requirements. The last thing I would add on that front is given 
the nature of a public-private partnership, everything has to 
be based on the demand signal as we are calling it.
    The relationship, frankly, between State officials has only 
really been at what I would say a healthy level for not even a 
year now, maybe about a year now. It is still--we are still 
defining what the requirement sets are, and that is going to be 
something over the next 6 months, particularly in kind-of the 
hot wash after 2018, we will get back to--we will pause, 
reflect, do a hot wash, figure out where we need to go going 
forward.
    Mr. Bacon. One of the problems we hear is that our State 
and local officials don't have the right clearances to work 
with some of these things. Are we getting that problem solved? 
Are we making progress?
    Under Secretary Krebs. We are, we have taken a pretty hard 
look at the clearance process. I think at this point we have 
got about 37 States that have a senior election official with a 
clearance, 9 more are in the processing, a handful have 
declined for whatever reason, and they may have other officials 
in the State that have access to the information.
    Others are still in the decision-making process. Very--it 
is a limited number. But I will also kind-of pull back on the 
clearance piece a little bit. As I mentioned earlier, we are 
doing everything possible we can to take things or to operate 
in the unclassified space.
    I would also suggest that the Classified information piece 
and the clearance issue is not necessarily the driving factor 
for our engagements. In a year-and-a-half ago or in 2016, 
having never met Secretary Gorbea, if I would called her up and 
said you need to take care of this system right now, she would 
have said I don't know who you are, I am not going to do that. 
I have no reason to trust you. Now, if I called her up and said 
hey, look, we are seeing something, you need to take care of 
this problem, based on the trust and the relationship we have 
developed, even without a clearance I have fairly good 
confidence that Secretary Gorbea would at least give me a flier 
and then we would follow up afterwards.
    Mr. Bacon. One last question here, we are seeing more and 
more attacks from Russia against Ukraine's critical 
infrastructure, and it seems to me they are using it as a test 
to practice their techniques and capabilities.
    First of all would you agree with that and second, what are 
we learning from watching what Russia is doing with Ukraine? 
Because clearly those same capabilities they are using--they 
are studying us to the same if they need to.
    Under Secretary Krebs. I think that is a fair assessment 
that Ukraine is perhaps a pilot or a test bed. In terms of what 
we are learning, they are getting better. You know each 
subsequent incident shows that increased level of capability. 
So what we are doing is sitting back and looking at, OK, what 
is the capability that they have demonstrated and what are the 
corresponding vulnerabilities or exposure or risk level here in 
the United States and then how do we work with our critical 
infrastructure community to help them understand that risk and 
do the things they need to do and how can we help them 
understand that risk and do the things they need to do and how 
can we help them do that?
    One of the things that I think I--we need to move beyond 
information sharing. Information sharing is the foundation of 
how you manage risk. We need to do and continue move into is a 
risk management integration space. This is the importance of 
avoiding the silos because increasingly these systems, whether 
it is industrial control systems, or just general I.T. systems, 
are almost agnostic to sectors, or at least they cut across 
several sectors.
    So we need to be working cross-sector government industry 
together to do integrated risk assessments, integrated 
strategic planning, and integrated risk mitigation strategy. So 
there is a lot more ahead of us and this is one things were 
really focusing on right now at NPPD.
    Mr. Bacon. Thank you very much. Mr. Chairman, I yield back.
    Chairman McCaul. The gentleman yields back. The gentleman 
from California, Mr. Correa, is recognized.
    Mr. Correa. Thank you Mr. Chairman. First of all Honorable 
Krebs, Honorable Gorbea, I want to thank you for being here 
today and I also want to thank you for the good job you are 
doing. I know sometimes it goes unappreciated, but we are 
relying on you, OK?
    I wanted to follow up, on it on this committee we talk 
about best practices when it comes to cybersecurity, financial 
institutions, I would presume that right now cross the 50 
States, we have some kind of semblance of coordination were 
those best practices are being applied at every one of those 50 
States when it comes to the elections?
    Under Secretary Krebs. Yes sir through the Election 
Infrastructure Information Sharing and Analysis Center. 
Basically, to kind-of unpack what that means is it is a group 
of all 50 States including other election officials that are 
connected in a manner that if one has a best practice or an 
observation they want to share then all 50 are all----
    Mr. Correa. What about in a situation where we have had 
recently that you have a cyber attack on financial institutions 
within nano seconds everybody is on top of it so that people 
figure out that there's actually an attack going on and people 
can respond to it.
    Under Secretary Krebs. Let me actually give you a practical 
example from the election community.
    Mr. Correa. Yes, sir.
    Under Secretary Krebs. A few months ago, there was a 
phishing attack not necessarily attributed to a nation-state, 
but a phishing attack on the State election system. What 
happened is that State detected the phishing attack, worked 
with DHS, and then we were able to share indicators across the 
EI-ISAC. Now, did this happen in a matter of seconds or even 
minutes, no. But what we gain through this approach of 
community or collective defense is broader community----
    Mr. Correa. Will you be able to get to get there 
eventually? I know there are a lot of issues, costs, software, 
hardware, will you be able to get to that level when you have 
an attack you are able to respond almost immediately?
    Under Secretary Krebs. I think ultimately that is our 
aspiration of course.
    Mr. Correa. I ask that question following up Ms. McSally's 
point which is trust. I am from the State of California. We are 
like Arizona, we mistrust the Federal Government, but we try to 
work with the Federal Government. Yet, really in these 
elections, the issue is trust. If you wake up Wednesday morning 
and somebody fried your software system and there are questions 
of the validity of those election results, we are going to have 
major challenges to our democracy in this country.
    You know I am trying to--in my mind trying to figure out 
what can we do to help you to make sure that that is not a 
reality one of these Wednesday mornings?
    Ms. Gorbea. Sir if I may----
    Mr. Correa. Yes.
    Ms. Gorbea. From the State level, so I think it is this 
risk mitigation right. We can't just rely on we are going to 
put a wall around our systems and that is to protect us from 
everything.
    Mr. Correa. That comes back to the issue of ultimately you 
come back to paper ballots as being----
    Ms. Gorbea. Paper ballots are absolutely critical in my 
opinion. People ask me all the time, do you think on-line 
voting should happen? I am like no not really because I for 
one, even though despite----
    Mr. Correa. Most of the folks I know that show up to 
California to vote actually vote electronically.
    Ms. Gorbea. So I know that California is a very large State 
with many different systems----
    Mr. Correa. Yes, yes.
    Ms. Gorbea. I know that Secretary Padilla has been doing a 
fantastic job.
    Mr. Correa. I will let him know you said that.
    Ms. Gorbea. But going back to--we talked about provisional 
ballots for example, right. So say something happens and you 
show up and your name is not on the voter registry, that is as 
important in my mind to look at what is our provisional 
balloting system as it is what the machines are, because the 
machines are, in a sense, easy. You can come in, you can buy 
them, you put them, you install them, but then what if they 
don't work? What if somebody sabotages them? What is that next 
step? We have very different provisional ballot systems in this 
country. In Rhode Island that is a very simple process----
    Mr. Correa. Do you think that is a formula for major chaos 
one of these Wednesday mornings that everybody has their own 
different way of doing it? This is State of Florida, hanging 
chads all over again.
    Ms. Gorbea. I think it is worth examining it. I understand 
that given--that while----
    Mr. Correa. I only have 40 seconds left. I just want to be 
quick here but I would like to talk to you a little bit more on 
this. I used to chair elections when I was in the State senate 
in California so we dealt with these issues a little bit. Not 
to the extent we are dealing with them now but my final 
question and this is one for you maybe to answer or not to 
answer for us here. At what point does a foreign nation's 
interference in our electoral system constitute a declaration 
of war in our country?
    Under Secretary Krebs. I think that is the right policy 
question we need to have right now. I don't have an answer for 
you.
    Ms. Gorbea. I agree. I think that is one of the critical 
questions we need to ask.
    Mr. Correa. Thank you very much. Mr. Chair, I yield.
    Chairman McCaul. The gentleman yields, and I appreciate 
that question. We have been trying to define that for quite 
some time. Was it an act of cyber warfare? I appreciate you 
raising that.
    The gentleman from New York, Mr. Donovan.
    Mr. Donovan. I am your last questioner.
    Chairman McCaul. At least on this side.
    Mr. Donovan. Yes. The title of the hearing was ``DHS's 
Progress in Securing Election Systems and Other Critical 
Infrastructure.'' I would just like to ask about the other 
critical infrastructure for a moment, since you are both here. 
Secretary Gorbea, you said before in your opening statement 
about balancing our needs for secrecy with our need for 
transparency, a very difficult thing to do.
    Mr. Krebs, during, you know some of the other attacks that 
we have seen on our health care systems, our dams, our oil and 
natural gas systems, the cyber attacks on our energy 
industries, how do we balance that need for secrecy and 
transparency and how do we as a Government share 
vulnerabilities with private industry? We all have this same 
common goal here is to protect our energy system, our 
electrical grids.
    But then, again, there is a difficulty, I suspect, with 
industry, particularly those who have competitors, of revealing 
that they are vulnerable. They don't want to lose the 
confidence of their clients or their users.
    So how do we balance that stuff? I know it is not an easy 
question and there's not an easy answer for that, but since I 
am the last one on this side of the aisle, I will throw you a 
hardball.
    Under Secretary Krebs. That is a----
    Mr. Donovan. Thanks.
    [Laughter.]
    Under Secretary Krebs. That is a great question. The way I 
kind-of break this up, right now, at least, is to look at 
opportunistic attacks and then more strategic adversary 
attacks. So when you think about what happened last summer or 
last fall with WannaCry, the United States was generally not 
terribly affected, unlike some of our European counterparts, 
and look at what happened in Russia and elsewhere.
    The reason for that was, in part, because we did a fairly 
good job, I think, in a Government-industry partnership, of 
sharing information, indicators, working with the security 
research community to see what they saw. Then there were some 
security researchers that took certain activities to help out. 
But it started before WannaCry even launched, in that we had 
raised the level of awareness, we would worked with, whether it 
was the Government doing it, or just in general, the level of 
awareness, people had done the right cyber hygiene basics to 
protect their systems.
    They had patched their operating systems, they had patched 
their software, so that the majority of the vulnerabilities had 
been closed down. So from an opportunistic perspective, I think 
we are--we are certainly making progress; we are improving.
    Now, this is always a question of resourcing; I have said 
that before today. When we think about the recent rash of 
ransomware attacks, those are similarly opportunistic attacks--
Colorado, Atlanta, Baltimore, Mecklenburg County, Charlotte--
those were all attacks that had been, you know, they were 
scanned, their systems were scanned, they found 
vulnerabilities, they went in, locked them up and said, ``I 
want $50,000.''
    That is an example of not necessarily doing the basics. So 
we are really stressing to prevent opportunistic attacks, which 
is, generally speaking, about 85 percent of, these are, you 
know, soft numbers, not empirically based but good enough to go 
by for the purposes of this discussion of, you do the basics 
right, and you can drive most of the bad actors out of the 
space, the general hackers.
    Now, from a strategic perspective, we do know, as I talked 
with Congressman Bacon earlier, we do know that the adversary's 
getting better, particularly in our hard infrastructure space. 
We saw them last summer, we released a report earlier this 
year, along with the FBI, on Russian activity in 
infrastructure. We saw them in energy, critical manufacturing, 
transportation, aviation.
    We are currently seeing them, presently, in the information 
technology side, the I.T. side. Now, the problem is, once they 
get more comfortable operating in the operational technology 
side. So that is where we are focusing right now.
    I mentioned earlier, we talked about siloing, we talked 
about this shift from information sharing to risk management. 
That is where we are driving a great deal of our effort right 
now. It is taking a piece of threat intelligence, like, I know 
the amount of intelligence I see on a daily basis, it is 
overwhelming, but what--I need to do a better job of working 
with industry and saying, this piece of intelligence, so what? 
What does it mean? What does it mean to that system, this 
system, to the Nation, to a region?
    Figuring that piece out and then asking the question, what 
are we going to do about it? That is principally where we are 
focused, and we are kicking off a new initiative within NPPD, 
the National Risk Management Initiative, that is really going 
to focus in on moving beyond intelligence and into risk 
management. Of understanding what the problem is, how to 
address it and doing it in a cross-sector Government-industry 
partnership manner. I think that is where we are going to make 
the most significant gain.
    Mr. Donovan. You are right. I thank you both for your 
service.
    I yield, Mr. Chairman.
    Chairman McCaul. The gentleman yields.
    The gentlelady from California, Ms. Barragan, is 
recognized.
    Ms. Barragan. Thank you, Mr. Chairman, and thank you both 
for being here today.
    Secretary Krebs, I wanted to ask, last month, I believe, 
the Senate Intelligence Committee had put out a report called, 
``Russia Targeting of Election Infrastructure During the 2016 
Election.'' I assume you have seen that?
    Under Secretary Krebs. Yes, ma'am.
    Ms. Barragan. In that report, there was a paragraph, a 
sentence that said, ``although the DHS provided warning to I.T. 
staff in the fall of 2016, notifications to State election 
officials were delayed by nearly a year.'' That is pretty 
startling to read, and I think I hear from local elected 
officials, that is concerning that the Federal Government knew 
of something yet they didn't get notice of it. I think I read 
about North Carolina having problems on election day, and them 
having no idea about the possible breaches and concerns that 
were happening. What are you doing to make sure that doesn't 
happen again?
    Under Secretary Krebs. So on the top end, we have 
established a series of information-sharing protocols, working 
with the Government Coordinating Counsel to say, hey, when we 
get something or we see something, these are the five officials 
in each State and the system owner that we would notify.
    Secretary Gorbea mentioned it earlier, you know, a year ago 
or even before that, they were trying to figure out the 
cybersecurity side of it; DHS was trying to figure out the 
election side of it. We are past that, we really committed to 
working together, we have built partnerships, we have 
established trust and we are really getting to that point of 
understanding what they need from us and we are reacting 
accordingly. So I have great confidence that if we did see 
something, that I would know exactly who to go to in each State 
to share that information.
    We will not be in a position like we were in 2016, when, 
frankly, we were in kind of uncharted territory, for us at the 
time, at least.
    Ms. Barragan. So are you suggesting that the then-under 
secretary didn't know who to call at these--in these States, to 
let them know----
    Under Secretary Krebs. There was no election infrastructure 
subsector. So these relationships were not established at the 
time. So my predecessor, who I have spoken with about this, 
they--what they did was follow a traditional incident response 
protocol. They notified the State or the asset owner, which may 
have been a county or may have been a private-sector owner-
operator, and that is the playbook.
    Going through the process now, we understand that this is a 
unique community, this is a unique subsector, and what works in 
other sectors doesn't work here, and we have changed our 
protocols accordingly.
    Ms. Barragan. Is DHS in a position to detect if there is 
such meddling happening in all of the 50 States? In other 
words, does DHS have any visibility into whether relevant State 
systems are being targeted?
    Under Secretary Krebs. So since, frankly, February of this 
year, we have quadrupled our insight into State activities. We 
have an intrusion detection system that is called Albert, it is 
similar to a system the Federal Government uses, that we have 
deployed out. Now, I mentioned 21 States earlier, in part, 
those 21 States, we saw that activity because of the deployed 
Albert sensors at the time.
    Like I mentioned, we have quadrupled our insights since 
just February of this year. By the mid-terms of--by November of 
this year, we will have almost every State covered down on and 
we have significant coverage across counties in other 
jurisdictions.
    Ms. Barragan. OK. My understanding is that there is no 
Nationally-mandated security requirements for election 
technology vendors nor are they subject to a consistent set of 
breach notification laws. How would you characterize DHS's 
relationship with election-related vendors?
    Under Secretary Krebs. So, we--there are actually a 
complementary group called the Sector Coordinating Council. So, 
on the Government Coordinating Council you have State and local 
election officials and then on the Sector Coordinating Council 
side, we have vendors will all the major technology providers 
to elections.
    Frankly, we took up, kind-of, an incremental approach. We 
started building strong relationships with the State partners 
and local partners and we are moving--we have the Sector 
Coordinating Council established and the relationships are 
growing. They are not, frankly, probably where they need to be, 
but they are getting there.
    Ms. Barragan. My last question to you sir, is, we know that 
the President doesn't believe in the meddling and you have 
already indicated you believe the intelligence reports. What 
does it do to morale, to the people under you to know that 
their commander, the top guy, doesn't even believe that there 
was any meddling when that is what you guys are doing? Your 
mission is to go out and stop it from happening and preventing, 
you know, them to interfere in our democracy. What does that do 
to the people under you?
    Under Secretary Krebs. I think generally speaking, the 
morale on my team is really high right now. I think the ability 
to work with folks with Secretary Gorbea--the way I see it, a 
high functioning organization.
    Ms. Barragan. So, you don't see an impact at all from the 
President's speak about this to your team?
    Under Secretary Krebs. I am just saying in general, the 
morale of my team is very high.
    Ms. Barragan. Great, thank you.
    Chairman McCaul. The gentlelady yields. The gentleman from 
Massachusetts, Mr. Keating, is recognized.
    Mr. Keating. Thank you, Mr. Chairman. I would like to thank 
you for being here. Just a question since I had a conflicting 
hearing. But what is the attitude--range of attitude among 
local and State officials when you are saying, we are here to 
give you some help? Do some of them say, don't worry I have it 
covered, I am confident our system is fine? Is that something 
you hear?
    Under Secretary Krebs. Every State is a different 
experience.
    Mr. Keating. No, but have you heard that? That is what I 
asked.
    Under Secretary Krebs. I have heard some States say, we are 
resourced. I have been told rather that some States have said, 
we have the resources and the capabilities----
    Mr. Keating. Are you just waiting--have you reached out to 
all the State and local officials?
    Under Secretary Krebs. We have engaged every single State.
    Mr. Keating. OK. So, you have heard back from those 
officials or you?
    Under Secretary Krebs. Yes, sir.
    Mr. Keating. So, some of them just feel confident, no 
problem, got it covered?
    Under Secretary Krebs. Every State is working with DHS in 
some capacity.
    Mr. Keating. Well, I know that. I just asked what your 
experience was. I mean, it is not a tough question. It is 
just--are you getting that feedback, don't worry, I am 
confident, I have got it covered, from those officials?
    Under Secretary Krebs. Yes, sir. I think some States feel 
that they have--they are adequately resources or adequately 
supported. Others, like insurance policies, and even though 
they may have things covered, they will still take some of 
our----
    Mr. Keating. Do you think that we are going to be attacked 
in 4 months by Russia?
    Under Secretary Krebs. Sir, I don't have any information or 
evidence to suggest they are going to attack us, but we don't 
need that.
    Mr. Keating. Do you share information with our intelligence 
officials, then?
    Under Secretary Krebs. They share with me, yes, sir. I am 
not a collector.
    Mr. Keating. They believe we are going to be attacked. So, 
you don't believe--opinions.
    Under Secretary Krebs. I don't think I have seen that 
assessment that they are going to attack our election. That 
the--Secretary Gorbea----
    Mr. Keating. You haven't heard that from our intelligence 
officials? U.S. intelligence official, you haven't heard that 
one?
    Under Secretary Krebs. I have--you know, maybe I need to go 
back and review, but.
    Mr. Keating. Yes, I think so. I think----
    Under Secretary Krebs. Sir, I think what they have said is 
that----
    Mr. Keating. I think our intelligence officials are saying 
they are going to do it again.
    Under Secretary Krebs. I think that they have.
    Mr. Keating. Meaning Russia.
    Under Secretary Krebs. Yes, sir. Russia, I think they--
Russia is engaging in information operations whether it is 
focused on elections or not.
    Mr. Keating. Well, our intelligence--maybe I am wrong? But 
intelligence is saying----
    Under Secretary Krebs. No, I am--sir, I am not suggesting.
    Mr. Keating. They are going to do it again. You don't 
believe they are going to do it again?
    Under Secretary Krebs. I wouldn't put----
    Mr. Keating. You don't agree with our intelligence 
officials?
    Under Secretary Krebs. I wouldn't put anything past the 
Russians. I am not disagreeing with any intelligence. I am 
just--what I am saying is.
    Mr. Keating. I am just saying, don't you agree with our 
intelligence--the people that are saying that?
    Under Secretary Krebs. Yes sir, I agree----
    Mr. Keating. Wow. That was----
    Under Secretary Krebs. With our intelligence community.
    Mr. Keating. Sorry about that, but. Are we sufficiently 
ready for this attack? What kind of guarantee can you give us 
that we are up to the task?
    Under Secretary Krebs. I have confidence in the resilience 
of the system. I have, I think, some of the controlling 
measures that we have in place, whether it is provisional 
ballots as we discussed or some of the other compensating 
controls. We think, you know, is it 100 percent----
    Mr. Keating. Can you guarantee?
    Under Secretary Krebs. Of course not.
    Mr. Keating. No. And it is likely that there could be some 
difficulty. It is in the realm of possibility, correct?
    Under Secretary Krebs. Sir, I, you now, I am paid to be 
paranoid. I plan for bad days and that is what we are working 
toward.
    Mr. Keating. Yes. Well, have you reached out, as a rule, 
and communicated the fact that it is likely we are going to be 
attacked now that you know that, and will--in fact, will be 
attacked? No. 2, that despite the great efforts of mitigating 
this that can't cover that, have you reached out to all of our 
officials and said, we believe, strongly, you should move to 
paper ballots?
    Under Secretary Krebs. It is a baseline recommendation of 
the Department, working with the GCC and others that--yes, 
paper trails, verifiable, auditable paper trails are a best 
practice, period.
    Mr. Keating. Yes. Secretary Gorbea, what are you--what are 
your colleagues, Nation-wide, what are you hearing back? I 
mean, to me this is a strong statement that you come from. 
Despite our efforts, you know, our best efforts to try and 
mitigate this, that there should be paper ballots? That is what 
we should be doing, frankly.
    Ms. Gorbea. I wholeheartedly agree and I give a lot of 
credit to Congressman Langevin for when he was the Secretary of 
State. He started us on this paper ballot process with optical 
scan readers and when I came into office those--that equipment 
was outdated and we replaced it with similar because there 
should always be something that you can touch and feel that you 
and I can look at and say, this is how the voter wanted to----
    Mr. Keating. Particularly provisional ballot because if 
they do get in the infrastructure and they can manipulate data, 
those provisional ballots are going to be critical.
    Ms. Gorbea. That is right. But that is where looking at the 
various systems and rules around provisional ballots are really 
important because in Rhode Island, those provision ballots are 
reviewed by election officials----
    Mr. Keating. Is our government, the U.S. Government, the 
Federal Government, communicated to all election officials 
sufficiently, in your opinion, that there will be an attack 
that their efforts to mitigate it, but no guarantees there that 
they can be successful; you should move to paper ballots. Has 
it been that strong a message or is just the recommendation?
    Ms. Gorbea. I think we are all in this space, very 
concerned about making sure that we mitigate the risk. We don't 
need, necessarily, the Federal Government to tell us this 
because we see it everywhere. So, I think all States are taking 
measures.
    Mr. Keating. How many States are moving to paper ballots? 
It is 4 months away.
    Ms. Gorbea. I don't have the answer to that, but the 
National Association of Secretaries of State might be able to 
provide that.
    Mr. Keating. Do you know, Under Secretary Krebs?
    Under Secretary Krebs. Sir, I know that 5 States, right 
now, are exclusively on non-paper ballot systems. Of those 5, 4 
are in the RFP process. One is, you know, waiting for money, 
frankly.
    Mr. Keating. So, it is pretty prevalent that there is going 
to be paper ballots? That is reassuring.
    KREBS: It--so, I think on the balance there are paper 
ballots, but there are still systems out there that do not have 
paper ballots.
    Mr. Keating. Percentage-wise, again?
    Under Secretary Krebs. Off the top of my head, I don't have 
percentages.
    Mr. Keating. I would suggest that is something we should 
know. That would be----
    Under Secretary Krebs. So, happy to.
    Mr. Keating. That you could do that.
    Under Secretary Krebs. Yes, sir, happy to circle back 
with--and work with the Election Assistance Commission----
    Mr. Keating. That would be helpful.
    Under Secretary Krebs. And the secretaries----
    Mr. Keating. I realize your limitations. I appreciate your 
testimony and your good work. As a last comment, dealing with 
the Russians, our intelligence said they are doing it again. We 
have to have deterrents, as well as a rope-a-dope approach, 
where we are just doing our best to mitigate it, and I hope 
that is done. I know it is not in your specific purview. It is 
certainly not yours at the State level, but in the interim, I 
think we should give the strongest message possible for paper 
ballots. That will deter them in the actual infrastructure 
apparatus attempts to get into our system. On a larger scale, I 
believe very strongly that the sanctions and the deterrents 
that we have at the upper levels are critical. So thank you for 
your work. I yield back.
    Chairman McCaul. The gentleman yields. The gentlelady from 
Texas, Ms. Jackson Lee, is recognized.
    Ms. Jackson Lee. Let me thank the Chairman and Ranking 
Member for holding this hearing, and to the witnesses, let me 
thank you, as well. Committee business in judiciary proceeding 
on issues that dealt with the 2016 election delayed me. But 
this is an important hearing, and I want to follow the line of 
reasoning of my colleague, Mr. Keating, and maybe in a 
different perspective.
    To both of you, let me thank you for the service that you 
give. But I believe that this will be a Federal election in a 
large way. The Congress will be up for reelection, the House in 
totality, the Senate partially. So this is a Federal election, 
and I have the greatest respect for State officers, and they 
are our collaborators. But I would say to the Secretary that it 
is the responsibility of the Federal Government to at least 
provide the structure and the walls of security upon which you 
can work within, or even add to by your own expertise.
    With that in mind, I frankly believe that this Government 
has not been effective in recognizing the larger picture, and 
that is the enormous involvement and invasion that Russia 
perpetrated in 2016, and in elections before that, where we 
probably did not have all of the analysis. I do not believe 
that we are solidly in control, and facing what is a potential 
of invasion, interference, and altering and skewing of the 
election by the Russians, and maybe some others. I don't 
believe, in particular, that the commander-in-chief has been 
particularly effective in acknowledging that invasion in 2016, 
and I would hope in his meeting that I certainly have concern 
with, with Vladimir Putin, that that will be No. 1 in his 
agenda.
    Secretary Krebs, do you know whether the President will be 
discussing election fraud, election challenges, in his meeting 
with the head of Russia?
    Under Secretary Krebs. Yes, ma'am, that is my 
understanding.
    Ms. Jackson Lee. Have you given him or the Secretary of 
Homeland Security--I don't know if she is there, but the State 
Department, those are all diplomats. Have you given him a 
matrix, a list of questions or information to the White House 
that he will be well-informed in his questioning?
    Under Secretary Krebs. Ma'am, I personally have not, and I 
would need to get back to you on whether the Secretary----
    Ms. Jackson Lee. But you think it would be important that 
those questions be raised?
    Under Secretary Krebs. I think that that is a useful 
conversation, yes, ma'am, just a----
    Ms. Jackson Lee. I hope more than useful. Let me----
    Under Secretary Krebs. Stern warning, yes ma'am.
    Ms. Jackson Lee. Earlier this year, I introduced H.R. 3202, 
the Cyber Vulnerability Disclosure Reporting Act, which passed 
the House earlier this year with the help of this committee and 
the Chairman and Ranking Member. The bill requires the 
Secretary of Homeland Security to submit a report on the 
policies and procedures developed for coordinating cyber 
availability disclosures. The report will include an annex with 
information on instances in which cybersecurity vulnerability, 
disclosure policies, and procedures were used to disclose 
details on identified weaknesses in computing sciences or 
digital services at risk. The report will provide information 
on the degree to which the information provided by DHS was used 
by industry and other stakeholders in a closed setting.
    The reason I worked on this bill before the full House for 
consideration is a problem often referred to as ``zero-day 
events.'' Zero-day event describes the situation that network 
security professionals may find themselves when a previously 
unknown error or flaw in computing code is exploited by cyber 
criminals, or terrorists, or someone who wants to undermine our 
elections. That is the level that I think we may be at, at some 
point in our election.
    So, Mr. Secretary, I ask you, do you, in fact, have the 
kind of infrastructure at DHS that can be prepared for 
catastrophic events dealing with the Nation's democracy, these 
elections? DHS employees stand on the front lines of Federal 
Government efforts to defend our Nation's critical 
infrastructure from natural disasters, terrorism, adversarial 
threats, technological risks such as those caused by cyber 
threats.
    So my concern would be elections that I hope are classified 
as critical infrastructure. Are you confident that you have a 
team that, if the secretary from Rhode Island reaches out, even 
with her good works, to the Federal Government, where are we in 
protecting election, detecting Russian invasion and altering 
our election system?
    Mr. Krebs. So generally speaking, I think we have a team 
that is elastic, in that we can focus on a number of different 
infrastructure sectors, and when an acute need arises, we can 
surge into a specific sector like election infrastructure. So 
if I got that call from Secretary Gorbea, and she needed a fly-
in team of ``X'' number of people, we could deliver that.
    With more, though, I can, of course, do more. So we are 
taking a look at what the threat picture looks like, what our 
ability to manage risk across the country is, and the demand 
signal from our stakeholders. All of our engagements are 
voluntary in this space, so I have to have a requirement set. I 
have to have a demand signal. If Secretary Gorbea needs 
something, and if I get 49 other secretaries that say they need 
something, that compounds into a very clear demand----
    Ms. Jackson Lee. So do we need to write legislation to give 
you requirements of indicia that says, this is when you shoot 
into a State that is impacted by what they think is a cyber 
threat in their elections, and you need to dispatch. Are you 
voluntarily sending staff there? Or do you have legislative 
authority?
    Under Secretary Krebs. I think it is a--I have legislative 
authority to send folks on instant response capabilities. That 
was already been provided.
    Ms. Jackson Lee. And resources? And resources?
    Under Secretary Krebs. So it depends on the level of the 
incident. You know, we don't have 1,000 people sitting on a 
bench waiting for a phone call. We have folks that are 
providing incident response capabilities. They are providing 
hunt capabilities, risk and vulnerability assessments. It is 
based--like I said, elasticity is critical here, because folks 
can do something on Monday, and they do something different on 
Tuesday, and we will deal with surge.
    Ms. Jackson Lee. Well, Mr. Secretary, it was humorous to 
say 1,000 people on the bench. Some of us are very much into 
sports, and we would like to have 1,000 so we could substitute 
out those who are not working. But the point is it may be 
1,000--you know, this is a big Nation, 300 million-plus, and it 
may be 1,000 incidents in the middle of a high-profile 
election.
    I consider the Federal elections certainly are the highest 
profile, although State elections, Governors, State legislators 
and others certainly are part of the democratic infrastructure.
    What I am saying is, with all seriousness, that I believe 
that you should be prepared in this infrastructure scheme, and 
there are many others. I could be talking about the electric 
grid and others. I don't have the time to do so. But I want to 
focus, because I don't believe that the administration--and you 
are in there as part of it. I am not saying your direct 
office--has given this the attention and the sensitivity and 
seriousness that I, frankly, believe puts you in the seat, 
along with the Secretary of Homeland Security to get those 
1,000 people on the bench, and if they are needed from sea to 
signing she--signing she--sea, that we are able to protect the 
election of the voters of the American people. That is what I 
am trying to hear from you.
    Secretary Kreb. Yes, ma'am, I understand your concern.
    I will tell you this much, and hopefully the experience is 
validated by Secretary Gorbea, but I spend 40 to 50 percent of 
my time right now, almost exclusively on elections. There is no 
way I could take this any more seriously than I do and my team 
sees that. We have capabilities across this organization that 
are able to surge in to this space.
    So when we think about mid-terms, when we think about 
November--there are protective security advisors distributed 
across this country, 130 or 140 of them. I have got 
cybersecurity advisors distributed across this country, on any 
given day they are working across the 16 sectors. In November 
they will be focused on election infrastructure; that is just 
that group. I have other folks in the District of Columbia that 
will be focusing on elections, so we are able to surge in to 
the space.
    That said, I can always do more--with more I can always do 
more. So we are continuing to work with our stakeholders to 
understand what it is they need from us, and then that refines 
our resource requirements.
    Ms. Jackson Lee. I thank you, Mr. Chairman, I am yielding 
back. I would ask the Secretary to think of an SOS number that 
could be given out as we move toward elections. If I am out in 
a field and somebody says I am totally collapsed and my local 
people can't find out why they are collapsed or what is going 
on, whether we should move to provisional, would be helpful to 
have that one SOS number.
    Secretary Kreb. Yes, ma'am.
    Ms. Jackson Lee. With that, Mr. Secretary, will you take 
that under advisement, be able to say yes?
    Secretary Kreb. Yes, ma'am.
    Ms. Jackson Lee. All right, thank you very much. I yield 
back, thank you.
    Chairman McCaul. Gentlelady yields, I am going to think--
Ranking Member, I mean, closing. I would like to thank our 
witnesses for being here today, I just wanted to conclude with 
a short personal experience.
    Over 20 years ago, I was a Federal prosecutor, Justice, and 
I prosecuted a guy named Johnny Chung who lead us to the 
Director of Chinese Intelligence, who was acting on behalf of 
China Aerospace because he liked then-President Clinton's 
position on technology transfers. He put money in to Johnny 
Chung's Hong Kong bank account to put in to the Presidential 
election.
    So my point is, is that this is nothing new, foreign 
adversaries influencing our elections and Presidential 
elections. I think it has been going on for quite some time. I 
think now, they have found a new tool to use and manipulate to 
do that, and that is the internet and cyber space.
    So with that I want to thank both of you for your strong 
leadership on this issue. We take this very seriously in the 
Congress on both sides of the aisle as we enter into the mid-
term elections. If there's anything this committee can do to 
help you in your efforts, please let us know.
    Members may have additional questions they may submit in 
writing, and pursuant to Committee rule VII(D) the hearing 
record will stay open for 10 days.
    Without objection, committee stands adjourned.
    [Whereupon, at 12:38 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

      Questions From Honorable John Katko for Christopher C. Krebs
    Question 1. Obviously, cybersecurity is a hot topic that many 
Government agencies have a piece of. But I think the one thing we 
learned after 9/11 was the potential damage that can be done when 
Government resources and intelligence are segmented and stove-piped. 
Can you speak to the importance of clarifying the roles and 
responsibilities of your directorate not only at the Department, but 
across the Federal Government to your ability to move this Nation 
toward more robust cybersecurity policies and practices?
    Answer. The Department has been provided clear roles and 
responsibilities authorized by several statutes passed in 2014 and 
2015, and are codified primarily in Title II of the Homeland Security 
Act (the Act); the Cybersecurity Information Sharing Act of 2015 
(CISA); and subchapter II, chapter 35 of title 44, U.S. Code, as 
created by the Federal Information Security Modernization Act of 2014 
(FISMA). These functions are also supported by several important 
Executive branch documents, including Presidential Policy Directives 21 
and 41. These actions have furthered DHS's cybersecurity mission since 
its inception and codified interagency roles and responsibilities. 
Specifically, the Department placed the National Cybersecurity and 
Communications Integration Center (NCCIC) within the DHS National 
Protection and Programs Directorate to serve as the round-the-clock 
operational center that executes the Department's cybersecurity and 
communications mission. The NCCIC is a lead civilian interface for 
sharing cyber threat information with the Government that is uniquely 
positioned as a sharing hub to integrate information from multiple 
sources, and use it to provide Government agencies and the private 
sector with actionable information to recognize, prevent, and mitigate 
harm from cyber attacks. As such, the NCCIC facilitates multi-
directional information sharing between the Federal Government and the 
private sector.
    It is critical that Congress pass the Cybersecurity and 
Infrastructure Security Agency Act in order to reinforce NPPD's role as 
currently performed. This law will establish a cybersecurity agency at 
the Department of Homeland Security to further National efforts to 
enhance the security and resilience of U.S. cyber and physical critical 
infrastructure.
    Question 2. Among the challenges that we face in cybersecurity is 
the pace at which our adversaries adapt their tactics, techniques, and 
procedures as we harden our own systems and networks. Are there any 
particular methods of attack or vectors of intrusion that DHS is 
focusing on during the upcoming election cycle?
    Answer. Many of the methods of attack and vectors of intrusion that 
DHS sees can be avoided through implementation of basic cyber hygiene 
mitigation efforts. As a result of malicious actors exploiting 
unpatched software, conducting phishing campaigns, and leveraging 
common vulnerabilities to pursue attacks against critical 
infrastructure organizations, we emphasize with the election community 
the myriad of attack vectors in order to increase the defense and 
resiliency of the election infrastructure.
    Question 3. Is NPPD being given access to all the necessary access 
to and information from the intelligence and law enforcement community 
to ensure you are in a position to accurately measure the risks to our 
election system? Can you say the same thing for the other sectors that 
have been designated critical infrastructure?
    Answer. To most effectively share information with all of our 
partners--not just those with security clearances--DHS works with the 
intelligence community to declassify relevant intelligence or provide 
tearlines as much as possible. While DHS prioritizes declassifying 
information to the extent possible, DHS also provides Classified 
information to cleared stakeholders, as appropriate.
    Although more work is needed, DHS's goal is to ensure that law 
enforcement and the intelligence community are sharing all relevant 
information and that it is in a format that can be widely disseminated 
to critical infrastructure partners. This work is a vital part of our 
information-sharing efforts.
    Questions From Honorable John Ratcliffe for Christopher C. Krebs
    Question 1. The Election System is just one part of the critical 
infrastructure security responsibilities that DHS has. Is there a need 
for each of these sectors to create their own cybersecurity information 
centers like the NCCIC or would such a splintering of Federal resources 
potentially harm the security of Nation?
    Answer. To break down information stovepipes and ensure cross-
sector approaches to protecting our Nation, the Department's specific 
cybersecurity authorities executed through NPPD--including authorities 
related to sharing, analyzing, and coordinating actionable information 
related to cybersecurity risks and incidents; protecting Federal 
information systems; and responding to cybersecurity incidents--enable 
NPPD to engage with Federal and non-Federal entities (i.e. all 
stakeholders--public, private, and international) and across and beyond 
all critical infrastructure sectors to collaboratively improve 
cybersecurity practices and protect Federal and non-Federal entities 
from cyber risks. While Sector-Specific Agencies have specific roles 
with respect to working with their stakeholders, DHS has the lead for 
understanding and providing cross-sector information, analysis, and 
protective measures to all sectors. If agencies work within stovepipes 
with their stakeholders, then other sectors are not afforded the 
critical information related to new attack vectors and identified 
vulnerabilities. Congress has taken specific action to overcome this 
challenge and clarify DHS's role to prevent stovepipes across critical 
infrastructure sectors. The Homeland Security Act was amended in 2014 
and 2015 to codify the role of the Department's National Cybersecurity 
and Communications Integration Center (NCCIC) as the Federal-civilian 
interface for sharing information regarding cybersecurity risks and 
incidents and authorize the NCCIC to provide cybersecurity-related 
technical assistance, risk management support, and incident response 
capabilities to Federal and non-Federal entities. In a similar fashion, 
the Cybersecurity Act of 2015 also establishes the NCCIC as the Federal 
Government's central hub for sharing cyber threat indicators between 
the private sector and the Federal Government and requires the 
Department to establish the Federal Government's capability and process 
for sharing cyber threat indicators with both Federal and non-Federal 
entities. DHS operates a central hub for information exchange, 
technical expertise, operational partnerships, and systems-focused 
cybersecurity capabilities through the National Cybersecurity and 
Communications Integration Center.
    Cross-sector coordination of the Federal Government's cybersecurity 
efforts is critical to our Nation's National security, economic 
security, public health, and safety. Information regarding situational 
awareness, vulnerability, and incidents must be shared as quickly as 
our adversaries move in cyber space.
    Question 2. Can you speak to the importance of clarifying the roles 
and responsibilities of your directorate, not only at the Department, 
but across the Federal Government, for your ability to move this Nation 
towards more robust cybersecurity policies and practices?
    Answer. Response was not received at the time of publication.
  Questions From Honorable James R. Langevin for Christopher C. Krebs
    Question 1a. On April 24, Assistant Secretary Jeanette Manfra 
testified before the Senate Homeland Security and Government Affairs 
Committee that the surge in risk and vulnerability assessments for 
elections infrastructure created ``a significant backlog in other 
critical infrastructure sectors and Federal agencies'' waiting for 
similar assessments. The President's 2019 budget did not request an 
increase in resources sufficient to overcome this backlog.
    Are more resources necessary to support the increased requests from 
State and local governments without delaying other assessments?
    Question 1b. What is the current RVA backlog? What is the prognosis 
for that backlog over the next calendar year?
    Answer. Currently, about 28 critical infrastructure entities and 
Federal agencies have Risk and Vulnerability Assessments (RVAs) that 
have been scheduled at a later date due to the critical, time-sensitive 
prioritization of election-related RVAs. For the RVAs unrelated to 
elections, the wait time is at least 100 days for entities prioritized 
at the top of the list and indefinite for those at a lower priority. 
Federal agencies and entities in the chemical, emergency services, 
energy, financial services, Government facilities, transportation, 
water and wastewater, food and agriculture, defense industrial base, 
and information technology sectors have been impacted. The RVA queue is 
dynamic and reprioritized as part of a quarterly scheduling routine.
    With current resource capacity, the waiting list for RVAs cannot be 
eliminated. Federal agencies and critical infrastructure entities are 
regularly added to the schedule. To date 98 RVAs have been completed, 
of which 29 were Election-based RVAs. In fiscal year 2019, NPPD plans 
to conduct 90 RVAs, of which 30 will be performed on Federal High-Value 
Assets. The remaining 60 RVAs will be determined in accordance with our 
prioritization process and methodology.
    Question 2a. Based on the RVAs that DHS has carried out for State 
and local election officials, do most States and localities have the 
resources required to sufficiently mitigate their cybersecurity 
vulnerabilities (including equipment, staffing, training, and other 
components that factor into security)?
    Question 2b. If not, how big is the shortfall?
    Answer. Through the fiscal year Department of Homeland Security 
(DHS) Appropriations Act and a reprogramming request, DHS was provided 
with approximately $26 million to support election infrastructure 
security activities. These additional funds have been covering a number 
of efforts to enhance the security and resilience of election 
infrastructure.
    NPPD provides assistance to State and local election officials to 
help them determine where vulnerabilities may exist. However, decisions 
about how to resource election infrastructure security enhancements are 
made solely by those officials. Through the Election Assistance 
Commission, Congress recently made $380 million in funding available to 
State and local election officials to improve cybersecurity of Federal 
elections. The money is intended to provide an additional infusion of 
funding for new resources and personnel to improve Federal elections. 
Congressional support of funding for these activities is appreciated.
    Question 3. In the guidance NPPD issued to election officials on 
how to spend security funding, NPPD emphasizes the importance of 
deploying auditable voting systems.
    How important is it that States have auditable paper trails and 
conduct post-election audits to verify the digital tallies of election 
results?
    Answer. As noted in the prior question, through the Election 
Assistance Commission, Congress recently made $380 million in funding 
available to State and local election officials to improve the 
cybersecurity of Federal elections which will provide an additional 
infusion of funding for new resources and personnel to improve Federal 
elections.
    Deploying auditable voting systems is critical to the resilience of 
the process and is being prioritized by many States. With the continued 
move to auditable systems, post-election auditing has become a common 
practice for many election jurisdictions. However, for many offices, 
the post-election audit process is time-consuming and costly. Improving 
the overall efficiency and effectiveness of post-election audits is a 
quick way to improve the overall integrity of the process. Simple steps 
like hiring more temporary staff to organize and run the post-election 
audit is an effective way to lessen the burden on already over-worked 
and under-staffed election offices while improving the overall 
resilience of the process.
    Question 4. Much of DHS's mission requires close coordination with 
other agencies, especially with respect to cybersecurity.
    How has the Department's ability to synchronize its cyber mission 
with other agencies been affected by the elimination of the 
Cybersecurity Coordinator position and the recent high rate of turnover 
at the National Security Council?
    Answer. Changes made within the National Security Council staff 
related to the Cybersecurity Coordinator have had no impact on DHS's 
ability to execute its mission. The President has provided clear 
direction to DHS and other National security agencies to execute our 
authorities and responsibilities. DHS and our interagency partners 
continue to coordinate regularly, through the National Security Council 
staff, on policy matters and our operational centers.

                                 <all>
</pre></body></html>
